<html>
<title> - EXAMINING THE FEDERAL ROLE IN IMPROVING SCHOOLBUS SAFETY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   EXAMINING THE FEDERAL ROLE IN IMPROVING 
                              SCHOOLBUS SAFETY

=======================================================================

                                (116-29)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-797 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  
                  Subcommittee on Highways and Transit

           ELEANOR HOLMES NORTON, District of Columbia, Chair

EDDIE BERNICE JOHNSON, Texas         RODNEY DAVIS, Illinois
STEVE COHEN, Tennessee               DON YOUNG, Alaska
JOHN GARAMENDI, California           ERIC A. ``RICK'' CRAWFORD, 
HENRY C. ``HANK'' JOHNSON, Jr.,      Arkansas
Georgia                              BOB GIBBS, Ohio
JARED HUFFMAN, California            DANIEL WEBSTER, Florida
JULIA BROWNLEY, California           THOMAS MASSIE, Kentucky
FREDERICA S. WILSON, Florida         MARK MEADOWS, North Carolina
ALAN S. LOWENTHAL, California        ROB WOODALL, Georgia
MARK DeSAULNIER, California          JOHN KATKO, New York
SALUD O. CARBAJAL, California        BRIAN BABIN, Texas
ANTHONY G. BROWN, Maryland           DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
TOM MALINOWSKI, New Jersey           DOUG LaMALFA, California
GREG STANTON, Arizona                BRUCE WESTERMAN, Arkansas
COLIN Z. ALLRED, Texas               LLOYD SMUCKER, Pennsylvania
SHARICE DAVIDS, Kansas               PAUL MITCHELL, Michigan
ABBY FINKENAUER, Iowa, Vice Chair    MIKE GALLAGHER, Wisconsin
JESUS G. ``CHUY'' GARCIA, Illinois   GARY J. PALMER, Alabama
ANTONIO DELGADO, New York            BRIAN K. FITZPATRICK, Pennsylvania
CHRIS PAPPAS, New Hampshire          TROY BALDERSON, Ohio
ANGIE CRAIG, Minnesota               ROSS SPANO, Florida
HARLEY ROUDA, California             PETE STAUBER, Minnesota
GRACE F. NAPOLITANO, California      CAROL D. MILLER, West Virginia
ALBIO SIRES, New Jersey              GREG PENCE, Indiana
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
DANIEL LIPINSKI, Illinois
DINA TITUS, Nevada
STACEY E. PLASKETT, Virgin Islands
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, and Chairwoman, Subcommittee on Highways 
  and Transit:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Rodney Davis, a Representative in Congress from the State of 
  Illinois, and Ranking Member, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     2
    Prepared statement...........................................     3
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     3
    Prepared statement...........................................     4
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................    69

                               WITNESSES

Hon. Andrew J. McLean, House Chairman, Joint Standing Committee 
  on Transportation, Maine State Legislature, on behalf of the 
  National Conference of State Legislatures:

    Oral statement...............................................     7
    Prepared statement...........................................     9
Hon. Sue Fulton, Chief Administrator, New Jersey Motor Vehicle 
  Commission:

    Oral statement...............................................    13
    Prepared statement...........................................    15
Kristin Poland, Ph.D., Deputy Director, Office of Highway Safety, 
  National Transportation Safety Board:

    Oral statement...............................................    16
    Prepared statement...........................................    17
John Benish, Jr., President and Chief Operating Officer, Cook-
  Illinois Corporation, on behalf of the National School 
  Transportation Association:

    Oral statement...............................................    24
    Prepared statement...........................................    26
Anne Ferro, President and Chief Executive Officer, American 
  Association of Motor Vehicle Administrators:

    Oral statement...............................................    31
    Prepared statement...........................................    31
Matthew Condron, Secretary-Treasurer, Teamsters Local 384, 
  Norristown, Pennsylvania:

    Oral statement...............................................    34
    Prepared statement...........................................    36

                       SUBMISSIONS FOR THE RECORD

Report, ``State of the Air 2019--20th Anniversary,'' by the 
  American Lung Association, Submitted for the Record by Hon. 
  Jesus G. ``Chuy'' Garcia.......................................    43
Statement of Hon. Jackie Walorski, a Representative in Congress 
  from the State of Indiana......................................    69
``Illegal Passing Video, Student Injury--New Jersey,'' Submitted 
  for the Record by Hon. Eleanor Holmes Norton...................    25
Statement of the National Safety Council, Submitted for the 
  Record by Hon. Eleanor Holmes Norton...........................    70
Report, ``A Continuous Video Recording System on a Lap-Belt 
  Equipped School Bus: Real-World Occupant Kinematics and 
  Injuries During a Severe Side Impact Crash,'' by Kristin Poland 
  et al., Submitted for the Record by Hon. Eleanor Holmes Norton.    71

                                APPENDIX

Questions from Hon. Henry C. ``Hank'' Johnson, Jr. to Hon. Andrew 
  J. McLean, House Chairman, Joint Standing Committee on 
  Transportation, Maine State Legislature, on behalf of the 
  National Conference of State Legislatures......................    83
Questions from Hon. Henry C. ``Hank'' Johnson, Jr. to Hon. Sue 
  Fulton, Chief Administrator, New Jersey Motor Vehicle 
  Commission.....................................................    88
Question from Hon. Peter A. DeFazio to Kristin Poland, Ph.D., 
  Deputy Director, Office of Highway Safety, National 
  Transportation Safety Board....................................    88
Question from Hon. Eleanor Holmes Norton to Kristin Poland, 
  Ph.D., Deputy Director, Office of Highway Safety, National 
  Transportation Safety Board....................................    89
Questions from Hon. Henry C. ``Hank'' Johnson, Jr. to Kristin 
  Poland, Ph.D., Deputy Director, Office of Highway Safety, 
  National Transportation Safety Board...........................    89
Questions from Hon. Doug LaMalfa to Kristin Poland, Ph.D., Deputy 
  Director, Office of Highway Safety, National Transportation 
  Safety Board...................................................    90
Questions from Hon. Gary J. Palmer to Kristin Poland, Ph.D., 
  Deputy Director, Office of Highway Safety, National 
  Transportation Safety Board....................................    90
Questions from Hon. Henry C. ``Hank'' Johnson, Jr. to John 
  Benish, Jr., President and Chief Operating Officer, Cook-
  Illinois Corporation, on behalf of the National School 
  Transportation Association.....................................    93
Questions from Hon. Gary J. Palmer to John Benish, Jr., President 
  and Chief Operating Officer, Cook-Illinois Corporation, on 
  behalf of the National School Transportation Association.......    95
Question from Hon. Peter A. DeFazio to Anne Ferro, President and 
  Chief Executive Officer, American Association of Motor Vehicle 
  Administrators.................................................    96
Question from Hon. Eleanor Holmes Norton to Anne Ferro, President 
  and Chief Executive Officer, American Association of Motor 
  Vehicle Administrators.........................................    97
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                             July 25, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Highways and Transit
    FROM:   Staff, Subcommittee on Highways and Transit
    RE:       Subcommittee Hearing on ``Examining the Federal 
Role in Improving School Bus Safety''

                                PURPOSE

    The Subcommittee on Highways and Transit will meet on 
Thursday, July 25, 2019, at 2:00 p.m. in 2167 Rayburn House 
Office Building to receive testimony related to ``Examining the 
Federal Role in Improving School Bus Safety.'' The purpose of 
this hearing is to evaluate current school bus safety measures 
and to consider whether additional Federal safety requirements 
are warranted. The Subcommittee will hear from representatives 
of the National Conference of State Legislatures (NCSL), the 
New Jersey Motor Vehicle Commission, the National School 
Transportation Association (NSTA), the Teamsters, the American 
Association of Motor Vehicle Administrators (AAMVA), and the 
National Transportation Safety Board (NTSB).

                               BACKGROUND

    According to the NTSB and the National Highway Traffic 
Safety Administration (NHTSA), nearly 475,000 school buses 
transport over 26.7 million children to and from school each 
day.\1\ The American School Bus Council estimates that students 
are 70 times more likely to get to school safely when taking a 
bus instead of traveling by car, making school buses one of the 
safest vehicles on the road.\2\ Because of their unique design 
and stringent standards, school buses have a strong safety 
record. However, when a fatal crash involving a school bus does 
occur, it revives the long-standing debate over school bus 
safety.
---------------------------------------------------------------------------
    \1\ https://www.ntsb.gov/safety/pages/schoolbuses.aspx
    \2\ http://schoolbusfacts.com/wp-content/uploads/2017/01/
SafetyFeatures.pdf
---------------------------------------------------------------------------

SCHOOL BUS SAFETY DATA

    According to NHTSA estimates from 2008 to 2017, school bus 
crashes account for approximately 0.4 percent of all fatal 
traffic crashes each year.\3\ Approximately 52 percent of 
school bus crashes occur in rural communities.\4\ NHTSA data 
estimates that between four and six schoolage children \5\ are 
killed in school transportation vehicles each year.\6\ Between 
2008 and 2017, 264 school-age children died in crashes 
involving a school bus: 100 were occupants of other vehicles, 
97 were pedestrians, and 61 were occupants of the school 
bus.\7\
---------------------------------------------------------------------------
    \3\ NHTSA, School-Transportation-Related Crashes, June 2019. 
https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/812712
    \4\ Id.
    \5\ NHTSA defines ``school age'' children as children 18 years old 
and younger.
    \6\ Supra note 3.
    \7\ Id.
---------------------------------------------------------------------------

ROLES AND RESPONSIBILITIES

    School transportation safety is overseen by Federal, State, 
and local agencies. At the Federal level, NHTSA sets Federal 
Motor Vehicle Safety Standards for school vehicle safety 
features,\8\ such as brakes and emergency exits. NHTSA has also 
developed in-service training to school bus drivers and 
conducts public awareness campaigns. The Federal Motor Carrier 
Safety Administration (FMCSA) establishes rules for commercial 
driver licensing, including requiring school bus drivers to 
receive a school bus endorsement. While FMCSA is responsible 
for setting and enforcing Federal safety regulations that apply 
to large commercial truck and bus operators, these regulations 
do not apply to home-to-school and school-to-home 
transportation. In addition, the NTSB has the authority to 
investigate crashes involving school buses and make 
recommendations to increase safety.
---------------------------------------------------------------------------
    \8\ 49 U.S.C. 30125
---------------------------------------------------------------------------
    States build upon these standards by implementing state-
specific requirements, including additional driver training and 
qualifications, vehicle inspections, and other operational 
rules. The Government Accountability Office (GAO) has reported 
that all 50 States require school bus inspections and most 
require additional training for school bus drivers beyond 
Federal minimum standards.\9\ At the local level, school 
districts are responsible for implementing and supervising 
school bus operations.
---------------------------------------------------------------------------
    \9\ GAO-17-209, ``School Bus Safety: Crash Data Trends and Federal 
and State Requirements''. January 2017.
---------------------------------------------------------------------------
    Federal funding is not available for school transportation 
vehicles and operations. Funding for school bus service comes 
from the State and local level. School districts can employ 
their own drivers, purchase their own buses, and operate their 
own transportation service, or they can contract with a private 
company to provide school bus service. Approximately one-third 
of the nation's school transportation is operated by private 
school bus providers, according to the NSTA.\10\
---------------------------------------------------------------------------
    \10\ https://s3-us-west-2.amazonaws.com/nsta/6571/Yellow-School-
Bus-Industry-White-Paper.pdf
---------------------------------------------------------------------------

                  School Bus Issues for Consideration

SEAT BELTS

    In 2009, NHTSA implemented a final rule requiring small 
school buses (under 10,000 lb. gross vehicle weight) 
manufactured on or after October 21, 2011, to have lap/shoulder 
belts installed.\11\ However, Federal regulations do not 
require full size school buses to be equipped with lap or 
shoulder belts.\12\ Instead, NHTSA maintains that occupant 
protection in a large school bus is best served by 
``compartmentalization.'' School bus seats are made with an 
energy-absorbing steel inner structure and high, padded seat 
backs secured to the bus floor. NHTSA research has concluded 
that this provides a suitable passive form of occupant 
protection (versus an active system such as a seat belt) by 
keeping the student protected within the seat. Large school 
buses are heavier and distribute crash forces differently than 
passenger cars, meaning that, in the event of an accident, a 
child on a school bus experiences much less crash force than 
would be present in a passenger car. School buses are also 
required to meet stringent manufacturing standards, including 
high body joint standards to prevent splitting, steel cage-
encased fuel tanks to prevent fires, and stringent rollover 
protection features.\13\
---------------------------------------------------------------------------
    \11\ 49 C.F.R. Part 571; Federal Motor Vehicle Safety Standards No. 
222
    \12\ 73 Fed. Reg. 62744 (2008); 76 Fed. Reg. 53102 (2011)
    \13\ 49 C.F.R. Part 571
---------------------------------------------------------------------------
    Some safety advocates have called for NHTSA to require seat 
belts on large school buses as they do for smaller ones. 
Proponents of belts on these school buses contend that 
compartmentalization is designed to mitigate injuries and 
fatalities resulting from front and rear-end crashes, but it 
does not offer adequate protection for side-impact and rollover 
collisions. Supporters of using seat belts on school buses also 
believe this will help prevent bullying, reduce distracting 
student behavior for the driver, and lower the number of 
injuries from students sticking their head or arms out of the 
bus's windows. They further assert it will help students adopt 
a consistent practice of always wearing their seat belt, even 
when not on the bus.
    Opponents of requiring seat belts on large buses most often 
cite cost as a concern. In 2008, NHTSA estimated that the 
incremental cost of adding seat belts on large school buses at 
$5,485 to $7,345, while some State officials have estimated it 
costs upwards of $10,000.\14\ The Congressional Research 
Service (CRS) has estimated the cost of equipping the roughly 
31,000 new large school buses sold annually with lap/shoulder 
belts would result in capital costs of between $250 million and 
$465 million.\15\
---------------------------------------------------------------------------
    \14\ Supra note 12.
    \15\ Peterman, David Randall. ``Seat Belts on School Buses: 
Overview of the Issue.'' CRS. August 31, 2007
---------------------------------------------------------------------------
    In 2011, NHTSA denied a petition for rulemaking from the 
Center for Auto Safety and 21 other petitioners asking that 
NHTSA mandate the installation of three-point seat belts for 
all seating positions on all school buses.\16\ Building on a 
rulemaking in 2008, which did not mandate the installation of 
seat belts on large school buses, NHTSA concluded that ``we 
have not found a safety problem supporting a Federal 
requirement for lap/shoulder belts on large school buses, which 
are already very safe.'' The agency concluded that the decision 
to install seat belts on school buses should be left to State 
and local jurisdictions.\17\ Additionally, NHTSA found that an 
increase in costs to purchase and operate large school buses 
could reduce school bus service, thereby reducing school bus 
ridership and causing more students to use alternative, less 
safe means of school transportation and increase the risk of 
injury. Further, NHTSA has reported that installing lap/
shoulder belts would significantly reduce the seating capacity 
on buses. CRS estimates that lap/should buses would decrease 
seating capacity for elementary school children by an average 
of 16 to 33 percent.
---------------------------------------------------------------------------
    \16\ 76 Fed. Reg. 53102
    \17\ Id.
---------------------------------------------------------------------------
    After investigating dozens of fatal school bus-related 
crashes, the NTSB in 2018 determined that compartmentalization 
is not enough to prevent all injuries, particularly in side 
impact and rollover crashes. The NTSB now recommends that 
States enact laws to require the use of three-point seat belts 
(covering the lap and shoulder as opposed to just the lap) for 
maximum occupant protection on school buses. Their 
investigations of crashes involving school buses equipped with 
seat belts found that belt use significantly reduced injuries 
and helped prevent fatalities.

STATE LAWS

    At least 32 states have considered legislation to require 
belts on school buses since 2007.\18\ Several States have 
enacted laws requiring seat belts on school buses, including 
Arkansas, California, Florida, Louisiana, Nevada, New Jersey, 
New York, and Texas.
---------------------------------------------------------------------------
    \18\ http://www.ncsl.org/research/transportation/should-school-
buses-have-seat-belts.aspx
---------------------------------------------------------------------------
    New York was the first state to pass a law requiring lap 
belts on large school buses in 1987. However, use of seat belts 
is not required unless the local school district mandates it. 
Although California law does not require school districts to 
provide bus service to students, if a jurisdiction provides 
this service, California requires large school buses purchased 
on July 1, 2005, or later to be equipped with lap/shoulder 
belts. In 2018, California passed a law requiring all large 
buses to be equipped with lap/shoulder belts by 2035. 
California estimates that new buses with seat belts cost 
approximately $300,000 per vehicle.
    In Louisiana, school buses purchased after June 30, 2004, 
are required to be equipped with occupant restraint systems, 
subject to available state funding. To date, Louisiana has not 
appropriated any funding. Arkansas allows for voters in a local 
school district to petition the district to install lap/
shoulder belts on buses, but requires voters to also approve a 
property tax equivalent to the cost of installing seat belts. 
Arkansas voters have not approved the tax increase.

BUS STOP SAFETY

    According to NHTSA, the greatest risk to school children is 
not riding the bus, but getting on or off a school bus. Every 
school bus is required to have specific safety features that 
indicate to motorists that children are loading or unloading, 
such as yellow and red flashing lights and a red stop-arm. 
State laws require traffic in both directions to stop and 
remain stopped until all children are off the roadway, the red 
lights stop flashing, the red stop arm is withdrawn, and the 
bus begins moving again.\19\
---------------------------------------------------------------------------
    \19\ https://www.nhtsa.gov/school-bus-safety/reducing-illegal-
passing-school-buses
---------------------------------------------------------------------------
    While it is illegal in all 50 states to pass a stopped 
school bus with red lights flashing, referred to as ``stop-arm 
violation,'' it is a common occurrence. In a 2018 survey by the 
National Association of State Directors of Pupil Transportation 
Services, school bus drivers in 38 States and the District of 
Columbia reported that 83,944 vehicles passed their buses 
illegally on a single day during the 2017-18 school year. In a 
180-day school year, the Association found that these sample 
results point to more than 15 million stop-arm violations.\20\ 
Stop-arm violations can result in crashes that cause 
significant injuries or fatalities. For example, on October 30, 
2018, in Rochester, Indiana, a motorist did not obey the red 
stop-arm and struck four children who were crossing the road, 
killing three children, and injuring the fourth child.
---------------------------------------------------------------------------
    \20\ http://www.nasdpts.org/stoparm/2018/index.html
---------------------------------------------------------------------------

SCHOOL BUS DRIVERS

    School bus drivers must have a valid Commercial Driver 
License (CDL), which requires a driving record check, drug and 
alcohol testing, and passing a knowledge and skills tests.\21\ 
Drivers must also obtain a school bus endorsement to their CDL 
which involves additional knowledge and skills tests specific 
to school buses. Most states mandate additional training or 
qualifications for school bus drivers as well.\22\
---------------------------------------------------------------------------
    \21\ 49 C.F.R. Part 383
    \22\ GAO-17-209, ``School Bus Safety: Crash Data Trends and Federal 
and State Requirements''. January 2017.
---------------------------------------------------------------------------

MEDICAL QUALIFICATIONS

    Federal law requires a CDL applicant to obtain a valid 
medical examiners certificate indicating fitness to drive, 
which must be renewed every two years on average. This 
requirement applies to privately employed school bus drivers 
who transport students in capacities other than home-to-school 
and school-to-home, such as field trips. The medical 
certification rules do not apply to school bus drivers employed 
by a public entity, such as the State or school district, or 
who operate in intrastate transportation. However, individual 
state laws may still require medical certification for school 
bus drivers who are publicly employed or who operate 
intrastate.
    In 2005, Congress mandated that FMCSA create a registry of 
certified medical examiners eligible to conduct physicals that 
follow U.S. Department of Transportation (DOT) standards. This 
mandate stemmed from reports of fraud and the ease of 
falsifying medical certificates, and was in response to several 
NTSB recommendations. Commercial drivers may only receive a 
valid medical certificate from an examiner listed on the 
National Registry of Certified Medical Examiners (Registry). In 
order to be listed in the Registry, medical examiners must 
apply, complete training, and pass a test on physical 
qualification standards.
    There are certain conditions and medications that preclude 
a driver from receiving a medical certificate. Disqualifying 
conditions include: certain types of heart disease, respiratory 
dysfunction, high blood pressure, rheumatic or arthritic 
conditions, epilepsy, mental or psychiatric disorder, and 
hearing loss not corrected by a hearing aid. Drivers cannot 
receive a medical certificate if they use any Schedule I 
drugs--such as opiates, depressants, stimulants, and 
marijuana--or amphetamines. Other drugs can be permitted as 
long as they are prescribed by a physician and reviewed by the 
medical examiner as safe for driving.
    Medical examiners assess drivers for all of the above 
conditions and more to determine whether or not they will 
interfere with the drivers' ability to safely operate a 
vehicle. Medical examiners have broad authority to determine a 
driver's fitness, as long as the driver passes a Skill 
Performance Evaluation to demonstrate the ability to drive a 
commercial vehicle safely. For instance, drivers with impaired 
or missing limbs can still receive a medical certificate, and 
drivers with vision impairment can apply for a waiver, which is 
often granted. In addition, drivers with insulin-treated 
diabetes may still receive a medical certificate, but are 
required to have it updated more frequently.

DRUG & ALCOHOL TESTING

    Commercial drivers who hold a CDL must comply with random 
drug and alcohol testing and under several conditions: pre-
employment, post-accident, reasonable suspicion, return-to-duty 
and follow-up (after a positive test).\23\ In 2012, under the 
Moving Ahead for Progress in the 21st Century Act (MAP-21; P.L. 
112-141), Congress mandated FMCSA create a national drug and 
alcohol clearinghouse, in response to concerns that drivers 
could easily ``job-hop,'' or change employers without 
disclosing past positive drug test results, particularly on 
pre-employment tests.\24\ FMCSA published a final rule 
establishing the clearinghouse in December 2016, with a 
compliance date of January 6, 2020.\25\
---------------------------------------------------------------------------
    \23\ 49 C.F.R. Part 382
    \24\ Section 32402, P.L. 112-141
    \25\ 81 Fed. Reg. 87686
---------------------------------------------------------------------------

EMPLOYER NOTIFICATION

    Federal regulations require CDL holders to notify their 
employers of any traffic violation they incur (besides parking) 
within 30 days of conviction, regardless of what type of 
vehicle they were driving at the time. If their license is 
suspended, revoked, canceled, or otherwise disqualified, 
drivers must notify their employer within one business day. 
Employers who knowingly use a driver with a suspended license 
are liable for civil or criminal penalties.
    Under current regulations, employers are required to check 
their employees' driving history record on an annual basis. In 
the event an employee does not self-report, he or she could 
continue to drive until the disqualification is discovered in 
an annual check. According to estimates from the American 
Association of Motor Vehicle Administrators (AAMVA), only 50 to 
80 percent of commercial drivers actually self-report 
violations to their employers.\26\
---------------------------------------------------------------------------
    \26\ https://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/
registration/commercial-
drivers-license/396341/aamvaens-design-and-best-practices-
recommendations-ver-102.pdf
---------------------------------------------------------------------------
    In an effort to ensure disqualified drivers do not remain 
on the road, some States have established Employer Notification 
Systems (ENS) to facilitate real time notification of traffic 
violations or other changes in driver status to employers. 
There were 16 States who reported having some variation of an 
ENS in 2016 \27\.
---------------------------------------------------------------------------
    \27\ https://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/
registration/commercial-
drivers-license/396341/aamvaens-design-and-best-practices-
recommendations-ver-102.pdf
---------------------------------------------------------------------------
    In MAP-21, Congress required FMCSA to develop 
recommendations and a plan for the development and 
implementation of a national driver record notification system 
(NDRNS).\28\ FMCSA submitted their report to Congress in 2015, 
which contained a plan for the NDRNS and best practices.\29\ 
Additionally, AAMVA received funding from FMCSA to establish a 
working group and AAMVA released a report outlining ENS best 
practices and design recommendations for a national system 
which leverages existing commercial driver databases.
---------------------------------------------------------------------------
    \28\ Section 32303, P.L. 112-141
    \29\ The National Driver Record Notification System Report to 
Congress, September 2015, https://www.fmcsa.dot.gov/sites/
fmcsa.dot.gov/files/docs/National%20Driver%20Record
%20Notification%20System%20Report%20Enclosure%20FINAL%20September%202015
.pdf
---------------------------------------------------------------------------

GAO REVIEW

    In 2015, Congress enacted the Fixing America's Surface 
Transportation Act (FAST Act; P.L. 114-94), which included a 
provision directing the Government Accountability Office (GAO) 
to study and report to Congress on specific school bus safety 
topics, including a comparison of regulations that apply to 
public and private school bus operations and expert 
recommendations on best practices for safe and reliable school 
bus transportation.\30\ GAO issued a report in January 2017 
that analyzed fatal school bus crash data from 2000 to 2014, 
reviewed federal laws and regulations, and summarized state 
laws and regulations on school-bus inspections, driver 
training, and maximum vehicle age and capacity in all 50 
states. As part of the report, GAO ``surveyed states to 
determine whether they track the type of school bus operator in 
crash data, or other state data such as inspection or funding 
data, since information states collect on school bus crashes 
and operations differs.'' The report did not assess the 
correlation between public or private school bus fleet 
operators involved in an accident and safety inspection 
results, age of the bus, or violation of State and Federal 
laws.\31\
---------------------------------------------------------------------------
    \30\ Section 5511, P.L. 114-94
    \31\ GAO-17-209
---------------------------------------------------------------------------

RECENT SCHOOL BUS CRASHES AND NTSB INVESTIGATIONS

    Several high-profile crashes in recent years, some that 
have been investigated by the NTSB, have provided additional 
public focus on school bus and driver safety standards.
    NTSB investigated two fatal school bus crashes that 
occurred in November 2016 in Baltimore, Maryland and 
Chattanooga, Tennessee. In 2018 NTSB issued an investigative 
report on these crashes and found that poor driver oversight by 
school districts and contracted motor carriers resulted in 
unsafe operation of the school buses and issued a series of 
safety recommendations.\32\ NTSB focused on a number of safety 
issues, including: poor management of unsafe school bus drivers 
by the motor carriers and school districts; medically unfit 
school bus drivers; commercial driver license fraud; occupant 
protection in large school buses; and the benefits of 
electronic stability control, automatic emergency braking, and 
event data recorders. Additionally, in one of its safety 
recommendations, NTSB recommended that States enact laws to 
require that all new large school buses be equipped with three-
point seat belts (covering the lap and shoulder as opposed to 
just the lap) for maximum occupant protection on school 
buses.\33\ Based on these and other investigations of numerous 
school bus crashes, NTSB has made a number of recommendations 
to NHTSA and states to improve school bus safety.\34\
---------------------------------------------------------------------------
    \32\ NTSB/SIR-18/02
    \33\ Id.
    \34\ https://www.ntsb.gov/safety/pages/schoolbuses.aspx
---------------------------------------------------------------------------
    On May 17, 2018, a school bus crash on I-80 in New Jersey 
killed one student and one teacher on board. The driver of the 
bus had his license suspended 14 times between 1975 and 2017, 
including six months before the crash, again raising questions 
about driver fitness. NTSB did not investigate this crash.

                              WITNESS LIST

    <bullet>  The Honorable Andrew J. McLean, Chair, Committee 
on Transportation, Maine House of Representatives, on behalf of 
the National Conference of State Legislatures
    <bullet>  The Honorable Brenda Sue Fulton, Chair and Chief 
Administrator, New Jersey Motor Vehicle Commission
    <bullet>  Ms. Kristin Poland, Ph.D., Deputy Director, 
Office of Highway Safety, National Transportation Safety Board
    <bullet>  Mr. John Benish, Jr., President and COO, Cook-
Illinois Corporation, on behalf of the National School 
Transportation Association
    <bullet>  Ms. Anne Ferro, President & CEO, American 
Association of Motor Vehicle Administrators
    <bullet>  Mr. Matthew Condron, Secretary-Treasurer, 
Teamsters Local 384, Norristown, Pennsylvania

 
        EXAMINING THE FEDERAL ROLE IN IMPROVING SCHOOLBUS SAFETY

                              ----------                              


                        THURSDAY, JULY 25, 2019

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton (Chairwoman of the subcommittee) presiding.
    Ms. Norton. Welcome to today's hearing on schoolbus safety. 
It is a timely hearing, with children out of school, to see 
what needs to be done to keep them safe.
    And I am interested in keeping them safe not only on 
schoolbuses and as they get off of schoolbuses, but I am 
interested in keeping them safe in the streets as they go to 
school.
    It is true that schoolbuses have a relatively safe safety 
record. It is also true that children are injured every year in 
bus-related crashes.
    More than I believe in most accidents, we owe it to our 
children, to these students to examine why these fatalities 
occur and what can be done to prevent them.
    There are some schoolbuses in my own district, but most 
take other modes of transportation, including walking, biking, 
or riding in a car, going on public transportation.
    Children are often at greater risk outside the schoolbus 
than inside it. We have figures showing 264 students who died 
in school transportation-related accidents in the last 10 
years. Ninety-seven were struck by a vehicle while walking near 
the bus.
    We are going to hear today what Congress can do to stop 
violations by drivers who illegally pass schoolbuses loading or 
unloading passengers and to reduce fatalities and injuries as a 
result of these crashes. But as I indicated, I am interested in 
what we can do about children whether or not they are on or off 
buses.
    The burden of providing school transportation, we are 
aware, of course, falls on the States and local districts. Some 
States are ahead of others in improving schoolbus safety, such 
as the State of New Jersey, which I am pleased is represented 
here today, and I look forward to hearing what Congress can do 
to help ensure that we have safe vehicles.
    I want to thank each of the witnesses for appearing today. 
We will listen very attentively in what the Congress can do, 
recognizing how much responsibility falls on the States.
    [Ms. Norton's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Eleanor Holmes Norton, a Delegate in 
Congress from the District of Columbia, and Chairwoman, Subcommittee on 
                          Highways and Transit
    Welcome to today's hearing on school bus safety. School buses have 
a historically strong safety record, but we still lose children every 
year to school-bus-related crashes. We owe it to our students to 
examine why these fatalities occur and what more can be done to ensure 
they get to school safely.
    For most of the students in my district, riding a yellow school bus 
isn't an option. Instead, they're forced to take other, more dangerous 
modes such as walking, biking, or riding in a car. Children are often 
at greater risk outside the bus than inside of it. Of the 264 students 
who died in school transportation-related accidents in the last 10 
years, 97 were children struck by a vehicle while walking near the bus. 
We will hear today about what Congress can do to stop violations by 
drivers who illegally pass school buses loading or unloading passengers 
and reduce fatalities and injuries as a result of these crashes.
    The burden of providing school transportation falls on States and 
local school districts, many of whom struggle to fund education as it 
is. Yet some States are ahead of the game in improving school bus 
safety, such as New Jersey which I am pleased to have represented here 
today. I look forward to hearing what Congress can do to help States 
ensure we have the safest drivers and vehicles possible for our 
students.
    Finally, more than one Member of this Committee has lost a 
constituent as the result of a school bus crash in their district. 
While it may seem like a small problem overall, there's no excuse for a 
child's life to be cut short in a school bus crash when more could have 
been done to prevent it.
    Thank you to each of our witnesses for being here today and 
providing your perspective on this important issue. I look forward to 
your testimony.

    Ms. Norton. I am pleased to recognize Mr. Davis, our 
ranking member.
    Mr. Davis. Thank you very much, Madam Chair.
    And I want to welcome everyone to today's hearing.
    Today the subcommittee will focus on schoolbus safety as 
part of our ongoing work to reauthorize Federal surface 
transportation programs and policies.
    With nearly 500,000 schoolbuses transporting more than 25 
million school-age children to and from school each day, 
schoolbus safety is an important part of this discussion.
    Statistics show that the schoolbus is the safest and most 
regulated vehicle on the road. In fact, according to the 
American School Bus Council, children are 70 times more likely 
to get to school safely when taking a bus when compared to 
walking, biking, or even traveling by car.
    With that said, NHTSA's most recent estimates indicate that 
schoolbus crashes account for approximately 0.4 percent of all 
traffic fatalities, and that is on a nationwide basis.
    No matter how safe the statistics show schoolbuses are, we 
unfortunately see approximately 4 to 6 school-age children die 
each year on the schoolbus and another 10 to 15 die as a result 
of cars illegally passing schoolbuses.
    Each fatality resulting from a schoolbus crash is more than 
a statistic, and just this last December in my congressional 
district outside of Bloomington-Normal, we saw a tragic 
accident where a truck collided with a schoolbus transporting a 
local basketball team home from a game. Two adults lost their 
lives in that accident. Nine others were injured, including 
eight students.
    As we work to reauthorize surface transportation programs 
and policies, it is my hope that we can address schoolbus 
safety in a bipartisan manner that prevents such instances from 
occurring in the future.
    In looking at that work, this subcommittee has jurisdiction 
over two agencies that play an important role in schoolbus 
safety, NHTSA and FMCSA.
    NHTSA sets the Federal motor safety standards for schoolbus 
safety features, provides in-service training for busdrivers, 
and develops public awareness programs related to schoolbus 
safety.
    The other, FMCSA, establishes rules for commercial driver's 
licensing and requires schoolbus drivers to have a CDL with a 
special schoolbus endorsement.
    I look forward to hearing from our witnesses about ways 
that we can make our school-age children safer as they wait 
for, load and unload, and ride a schoolbus.
    And with that, I want to thank our witnesses for being with 
us this morning, and I look forward to hearing their testimony.
    [Mr. Davis' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
    from the State of Illinois, and Ranking Member, Subcommittee on 
                          Highways and Transit
    Today, the Subcommittee will focus on school bus safety as part of 
our ongoing work to reauthorize federal surface transportation programs 
and policies. With nearly 500,000 school buses transporting more than 
25 million school-aged children to and from school each day, school bus 
safety is an important part of this discussion.
    Statistics show that the school bus is the safest and most 
regulated vehicle on the road. In fact, according to the American 
School Bus Council, children are 70 times more likely to get to school 
safely when taking a bus when compared to walking, biking, or traveling 
by car.
    With that said, the National Highway Traffic Safety 
Administration's (NHTSA) most recent estimates indicate that school bus 
crashes account for approximately 0.4 percent of all traffic fatalities 
nationwide. No matter how safe the statistics show school buses are, we 
unfortunately see approximately four to six school-aged children die 
each year on the school bus, and another 10 to 15 die as a result of 
cars illegally passing stopped school buses.
    Each fatality resulting from a school bus crash is more than a 
statistic. Just this last December, in my congressional district 
outside of Bloomington-Normal, we saw a tragic accident where a truck 
collided with a school bus transporting a local basketball team home 
from a game. Two adults lost their lives in the accident, and nine 
others were injured, including eight students. As we work to 
reauthorize surface transportation programs and policies, it's my hope 
we can address school bus safety in a bipartisan manner that prevents 
such instances from occurring in the future.
    Looking at that work, this subcommittee has jurisdiction over two 
agencies that play an important role in school bus safety--NHTSA and 
the Federal Motor Carrier Safety Administration (FMCSA).
    NHTSA sets the Federal Motor Vehicle Safety Standards for school 
bus safety features, provides in-service training for bus drivers, and 
develops public awareness campaigns related to school bus safety. The 
other, FMCSA, establishes rules for commercial driver licensing and 
requires school bus drivers to have a CDL with a special school bus 
endorsement.
    I look forward to hearing from our witnesses about ways that we can 
make our school-aged children safer as they wait for, load and unload, 
and ride a school bus.

    Mr. Davis. And I yield back to the chair.
    Ms. Norton. I am pleased to recognize the ranking member, 
Mr. DeFazio, and ask if he has an opening statement?
    Mr. DeFazio. Well, I think I became chair, but thank you.
    You know, this is our second safety hearing of the year 
leading up to reauthorization. In the first hearing, we heard 
testimony about highway fatalities--100 people dying every day 
in motor vehicle accidents. That is a life every 15 minutes, 
37,133 in 2017, and we need to look at ways to reduce those 
fatalities.
    Obviously, we are doing a lot better with the 
transportation of our precious kids on their way to and from 
school on schoolbuses, but it is not perfect.
    We will hear some conflicting testimony today, and I would 
hope that members of the panel might depart from their prepared 
remarks and respond to someone who speaks earlier, for 
instance. Mr. Benish from the NSTA is going to come out quite 
strongly against any Federal mandate on schoolbuses for 
seatbelts, and yet the NTSB is going to talk about what they 
see and have felt for some time as a need for lap and shoulder 
belts, and then we are going to hear from Chief Administrator 
Fulton about how New Jersey is doing what others say is not 
possible because of seat configuration, size of children, and 
the like.
    That will be an interesting contrast. I think there is much 
more substantial agreement on finding ways to better identify 
the bad apples out there, those who have had poor driving 
records, those who have had significant health issues, and 
other things.
    There have been States that have moved forward with much 
more prompt notification. New Jersey, I think, is on a daily 
basis checking for any violations by schoolbus drivers, and so 
looking at the National CDL Registry and other things that the 
Federal Government does control might provide some benefit in 
those areas.
    So I look forward to the testimony, and this will help 
instruct us on whether or not we need to include any new 
provisions in the surface transportation reauthorization, which 
I expect to have done hopefully by early next year.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Thank you, Madam Chair, for holding this important hearing. 
Ensuring the safe transportation of passengers is a critical 
responsibility of the Transportation and Infrastructure Committee. I 
can't think of a more prominent reminder of why we must raise the bar 
on safety than protecting school children.
    Earlier this year, the Subcommittee held a highway safety hearing, 
and the statistics I cited bear repeating. More than 100 people die 
every day in motor vehicle accidents--that's one life lost every 
fifteen minutes. In 2017, 37,133 people were killed on our roadways--
the equivalent of about 218 fully loaded airplanes falling out of the 
sky in a single year.
    The Nation's 26 million children who travel to and from school in a 
yellow bus are afforded the safest form of transportation on our roads. 
While school buses are involved in only a tiny fraction of all fatal 
crashes, this is still unacceptable given the level of overall carnage 
on our roads. Between 2008 and 2017, 264 school-age children died in 
crashes involving a school bus. We can and must do more to save 
children's lives.
    Protecting students on the bus is step one. This means transporting 
as many students as possible on school buses, and ensuring those 
children have the strongest occupant protection measures. As we will 
hear in witness testimony today, several States have grappled with how 
to strike this balance of stronger occupant protection through seat 
belts with the realities of tight local and state education budgets. My 
home State of Oregon does not require seat belts on school buses, but 
mandates that if they are installed, they must be three-point belts.
    A school bus is only as safe as the person controlling it. Well-
qualified and medically fit drivers are a critical factor in ensuring 
the safe carriage of children. In four recent fatal school bus crashes, 
driver fitness and certification issues played a significant role.
    A 2016 crash in Baltimore, Maryland, killed six people when a 
school bus, thankfully not carrying children, collided with a transit 
bus when the driver had a seizure. This driver had a history of 
seizures and over five years had been involved in at least 12 crashes 
or incidents while operating a school bus or personal vehicle. In one 
of these prior incidents, according to the National Transportation 
Safety Board (NTSB) investigation, the driver struck multiple poles and 
a parked car after he ``passed out'' while driving a school bus. Yet he 
was put back behind the wheel.
    In a 2016 crash in Chattanooga, Tennessee, six elementary school 
children died in a school bus crash caused by the driver's excessive 
speed and cell phone use at the time of the crash. The 24-year-old 
driver had only been driving for about 5 months, during which the 
school district received over a dozen complaints from parents, 
students, and the school principal about the driver's erratic driving 
and speeding. The NTSB report found that the lack of driver oversight 
by the school district was a causal factor.
    In a 2017 crash in Oakland, Iowa, a school bus driver and his only 
student passenger--the first one to be picked up on the route--died 
when the driver backed into a ditch and the engine caught fire. 
According to the NTSB report, the same student had complained three 
times to the school prior to the accident that the driver ``backed into 
things and ran stop signs.'' The driver had significant medical 
problems including a spinal condition that inhibited his ability to 
walk, and his ability to sit for more than 30 minutes. The NTSB report 
cites that it is ``extremely concerning'' that the driver was not able 
to extricate himself and his passenger during the fire emergency when 
there was no physical barrier to escape the fire.
    In 2018 a crash near Mount Olive, New Jersey killed a student and 
teacher because the driver was attempting an illegal U-turn on 
Interstate 80 and collided with a dump truck. The driver had received 
eight speeding tickets and had his license suspended 14 times in his 40 
year driving career.
    All of these tragedies could have been prevented with better 
oversight of these drivers by their employers. Congress has taken 
significant steps to ensure that drivers who hold Commercial Drivers' 
Licenses (CDL) are medically qualified, subject to drug and alcohol 
testing, and adequately trained. We need to ensure that existing 
protections extend to drivers who carry our most precious cargo, school 
children. We must also look at additional measures to ensure that 
employers are notified immediately of a change in a driver's CDL 
status, such as license suspension, so that children are not knowingly 
placed in harm's way.
    I thank our witnesses for being here today and look forward to your 
testimony on ways we can strengthen school bus safety.

    Mr. DeFazio. With that, I yield back the balance of my 
time.
    Ms. Norton. Thank you, Chairman DeFazio.
    And I note that the majority leader says that he will give 
priority to infrastructure, and maybe this hearing will provide 
us with information that could be included in any new bill.
    I did not use all of my time, and I am pleased to yield my 
remaining time, 2.5 minutes, to Mr. Cohen, who has had an 
experience that I think is the best way to lead off this 
hearing.
    I yield my good friend from Tennessee 2\1/2\ minutes.
    Mr. Cohen. Thank you, Madam Chair.
    In 2016, there were unfortunately two schoolbus crashes 
that were most notable in the country. One was in Baltimore, 
and one was in Chattanooga, my home State. A total of 12 
children were killed. In Chattanooga, there were 6 children 
killed and 20 injured.
    After those crashes, the National Transportation Safety 
Board issued a series of safety recommendations to the National 
Highway Traffic Safety Administration, and that was great, and 
they issued them to the administration and to the States to 
improve schoolbus safety.
    One of the recommendations included that States should 
enact laws to have all new large schoolbuses equipped with 
three-point seatbelts. Other recommendations included safety 
measures, such as inclusion of collision avoidance systems and 
automatic emergency braking technology.
    Sadly and unfortunately and kind of unfathomably, the 
National Highway Transportation Safety Administration has not 
initiated the process to enshrine any of these life-saving 
measures in the Federal regulation, and I have no idea why they 
shouldn't. They should have acted before this.
    Today I introduced H.R. 3959, the School Bus Safety Act, 
with Senator Tammy Duckworth, which implements those 
recommendations to make schoolbuses safer by ensuring that all 
seatbelts be at every seat and buses equipped with stability 
control and automatic braking systems. It will also include 
fire protection standards, such as requiring schoolbuses to be 
equipped with fire suppression systems to address engine fires.
    Additionally, the bill would create a grant program to help 
school districts modify schoolbuses to meet these safety 
modifications. I am hopeful Congress will work to enact these 
long overdue measures.
    There is no more precious cargo than our children and our 
schoolchildren whenever there is an accident.
    I have been trying to do this since I was a State senator. 
I know it is difficult to get beyond the industries, but it is 
something we need to do, and safety belts will save lives.
    So I yield back and thank the chairwoman for her time.
    Ms. Norton. I thank the gentleman from Tennessee.
    I ask unanimous consent that the chair be authorized to 
declare recesses during today's hearing.
    Without objection, so ordered.
    I also ask unanimous consent that members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    I am going to introduce the panel of witnesses, but before 
I introduce them all, I am going to yield to Mr. Davis to 
introduce Mr. John Benish.
    Mr. Davis. Thank you, Madam Chair.
    I am pleased to introduce John Benish, Jr., the president 
of the National School Transportation Association, and a 
resident of the great State of Illinois.
    John, Mr. Benish, thanks for testifying today, and thank 
you for all of the commendable work you and the other bus 
operators do in keeping our kids safe.
    The overwhelming number of kids that travel safely back and 
forth to our schools every day on your schoolbuses ought to 
also be commended.
    We ought to address the issues in transportation safety 
regarding schoolbuses and other modes of transportation, but 
let's not ever forget the fact that there is an overwhelming 
amount of students, the overwhelming majority, that arrive 
safely and go home safely and do it again the next day until 
they graduate high school like my kids did this year.
    So no more schoolbuses for me for a while, but thanks for 
your service, and thanks for being here today.
    Ms. Norton. Well, thank you, Mr. Davis.
    I am simply going to run down the names of the witnesses 
and then call on the first witness.
    We are pleased to welcome the Honorable Andrew J. McLean, 
House chairman, Joint Standing Committee on Transportation, 
Maine State Legislature, who is here on behalf of the National 
Conference of State Legislatures.
    In addition, the Honorable Brenda Sue Fulton, chief 
administrator, New Jersey Motor Vehicle Commission.
    Also, Dr. Kristin Poland, Deputy Director, Office of 
Highway Safety, National Transportation Safety Board.
    Ms. Anne Ferro, the president and CEO of the American 
Association of Motor Vehicle Administrators.
    And finally, Mr. Matthew Condron, secretary-treasurer, 
Teamsters Local 384, Norristown, Pennsylvania.
    Forgive my coughing cold, but welcome all of you, and we 
are going to proceed left to right.
    Try to give your testimony within 5 minutes, your opening 
statements, rather, within 5 minutes.
    I would like to welcome and ask first to speak Mr. McLean, 
who is speaking for the National Conference of State 
Legislatures.
    You may proceed. Turn on your microphone.

   TESTIMONY OF HON. ANDREW J. McLEAN, HOUSE CHAIRMAN, JOINT 
STANDING COMMITTEE ON TRANSPORTATION, MAINE STATE LEGISLATURE, 
  ON BEHALF OF THE NATIONAL CONFERENCE OF STATE LEGISLATURES; 
HON. SUE FULTON, CHIEF ADMINISTRATOR, NEW JERSEY MOTOR VEHICLE 
 COMMISSION; KRISTIN POLAND, Ph.D., DEPUTY DIRECTOR, OFFICE OF 
  HIGHWAY SAFETY, NATIONAL TRANSPORTATION SAFETY BOARD; JOHN 
   BENISH, Jr., PRESIDENT AND CHIEF OPERATING OFFICER, COOK-
    ILLINOIS CORPORATION, ON BEHALF OF THE NATIONAL SCHOOL 
  TRANSPORTATION ASSOCIATION; ANNE FERRO, PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, AMERICAN ASSOCIATION OF MOTOR VEHICLE 
   ADMINISTRATORS; AND MATTHEW CONDRON, SECRETARY-TREASURER, 
         TEAMSTERS LOCAL 384, NORRISTOWN, PENNSYLVANIA

    Mr. McLean. Thank you very much.
    Chairwoman Holmes Norton, Ranking Member Davis, and 
distinguished members of the House Subcommittee on Highways and 
Transit, my name is Andrew McLean. I am House chair of the 
Maine Joint Standing Committee on Transportation and cochair of 
the National Conference of State Legislatures, National 
Resources and Infrastructure Committee.
    I appear before you today on behalf of NCSL, a bipartisan 
organization representing the 50 State legislatures and 
legislatures of our Nation's Commonwealths, Territories, 
possessions, and District of Columbia.
    Every schoolday more than 25 million children climb into 
485,000 buses across the country that take them to and from 
school-related activities. Thankfully, schoolbuses are 
statistically the safest way to transport schoolchildren.
    However, 61 children who were schoolbus occupants died in 
crashes between 2008 and 2017, and this is 61 children too 
many.
    States across the Nation have responded to these tragedies 
with laws that NCSL has determined fall into three distinct 
categories: laws requiring seatbelts on schoolbuses; laws 
authorizing cameras mounted on stop-arms to cite drivers that 
illegally pass a stopped schoolbus; and laws making changes to 
requirements for schoolbus drivers.
    Overall, 35 States have debated more than 250 school safety 
bills in 2018 and 33 States have considered more than 200 bills 
in 2019 thus far. Compare this only to 132 bills in 2014 and 
173 bills in 2015. You can see that there has been an uptick in 
legislative interest in schoolbus safety.
    Schoolbuses are designed to protect riders through 
compartmentalization using structural safety features, such as 
high, energy-absorbing seat backs and closely spaced seats so 
children are kept snug.
    However, these features do not necessarily protect children 
the way seatbelts do during side-impact crashes or high-speed 
rollovers when passengers can be thrown from their seats.
    In May of 2018, a schoolbus crash took the life of one 
student and one teacher in Paramus, New Jersey. In response, 
New Jersey enacted legislation requiring lap/shoulder seatbelts 
instead of solely lapbelts.
    In addition to New Jersey, seven other States require 
seatbelts on schoolbuses.
    In 2018, more than 108,000 schoolbus drivers observed 
almost 84,000 vehicles illegally passing schoolbuses in 1 
single day. Thankfully, most State laws require vehicles on 
both sides of the road without a median to stop and remain 
stopped while a schoolbus stop-arms and flashing red lights are 
deployed.
    In 2014, Wyoming became the first State to require all 
schoolbuses to be equipped with a camera system to capture 
images of motorists illegally passing stopped schoolbuses. 
States have also added language to address privacy concerns.
    Alabama's law requires that images or videos not include 
the face of a driver or passengers and be destroyed within 90 
days if there is no violation.
    Overall, 21 States explicitly allow local governments or 
school districts to use cameras to capture images and issue 
tickets for drivers who illegally pass stopped schoolbuses. 
States have also moved to increase penalties for illegally 
passing a stopped schoolbus.
    Illinois now requires the revocation of a driver's license 
when someone illegally passes a schoolbus and the violation 
leads to a motor vehicle crash resulting in death.
    Finally, I would like to highlight how States have 
strengthened their requirements for schoolbus drivers. For 
example, New York enacted a bill that requires all schoolbus 
drivers to take preemployment alcohol and drug testing, as well 
as be subject to random testing, with all drivers required to 
be included in the random testing pool.
    States have also increased schoolbus driver training 
requirements. Rhode Island, for example, enacted a law 
requiring that annual training for schoolbus drivers include 
NHTSA's schoolbus driver in-service training series.
    This is my fourth term serving as State legislator in the 
Maine House of Representatives and my third term chairing our 
Transportation Committee, and I can say that this past session 
was the most active in terms of legislation addressing 
schoolbus safety.
    Just over a month ago, in mid-June, Maine passed two 
specific bills focused on schoolbus safety. LD19 will now 
require schoolbuses purchased after this year to be equipped 
with a schoolbus crossing arm, and LD166 addressed the issue of 
cars passing schoolbuses.
    Initially there was simply interest in increasing fines for 
violators, but we know that simply increasing the penalties 
does not actually solve the problem. We engaged stakeholders, 
including community members and local and State police, and 
this working group identified that enforcement of existing laws 
is the challenge because there is no way to identify a vehicle 
when the busdriver is the only person to have witnessed the 
violation.
    Thus, the working group recommended allowing the use of a 
traffic surveillance camera mounted on a schoolbus in 
conjunction with a lighted traffic control device to improve or 
enforce a violation in order to identify the violator. This 
bill was very controversial, given our State's high regard for 
privacy.
    However, the testimony from grieving parents and community 
members was powerful and convincing. Too many kids are being 
hurt or killed while they are near a schoolbus.
    Madam Chairman, I thank you for this opportunity to testify 
before the subcommittee on this important topic, and I look 
forward to the subcommittee's questions.
    [Mr. McLean's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Hon. Andrew J. McLean, House Chairman, Joint 
   Standing Committee on Transportation, Maine State Legislature, on 
        behalf of the National Conference of State Legislatures
    Chairman Holmes Norton, Ranking Member Davis, and distinguished 
members of the House Subcommittee on Highways and Transit, my name is 
Andrew McLean, House chairman of the Maine Joint Committee 
Transportation and co-chair of the National Conference of State 
Legislatures (NCSL) Natural Resources and Infrastructure Committee. I 
appear before you today on behalf of NCSL, a bi-partisan organization 
representing the 50 state legislatures and the legislatures of our 
nation's commonwealths, territories, possessions, and the District of 
Columbia.
    Madam Chairman, I would like to take this opportunity to thank you 
and the committee for your leadership on this important issue. Every 
school day, more than 25 million children climb into 485,000 buses 
around the country that take them to and from school and related 
activities, according to the National Association for Pupil 
Transportation. Thankfully, school buses are statistically the safest 
way to transport school children, as school transportation-related 
fatalities between 2008 and 2017 made up less than half a percent of 
all fatal crashes. However, 61 children who were school bus occupants 
died in crashes between 2008 and 2017 and this is 61 children too many.
    States across the nation have responded to these tragedies with 
laws that NCSL has determined fall into three distinct categories:
    <bullet>  laws requiring seatbelts on school buses;
    <bullet>  laws authorizing cameras mounted on stop-arms to cite 
drivers that illegally pass a stopped school bus; and
    <bullet>  laws making changes to requirements for school bus 
drivers.

    Overall, 35 states debated more than 250 school safety bills in 
2018, and 33 states have considered more than 200 bills in 2019, thus 
far. Contrast this to only 132 bills in 2014 and 173 bills in 2015 and 
you can see there has been an increase in interest to legislate school 
bus safety.
                       Seatbelts on School Buses
    School buses are designed to protect riders through 
compartmentalization, using structural safety features such as high, 
energy-absorbing seat backs and closely spaced seats so children are 
kept snug. However, these features don't necessarily protect children 
the way seatbelts do during side-impact crashes or high-speed 
rollovers, when passengers can be thrown from their seats.
    In May of 2018, a school bus crash took the life of one student and 
one teacher in Paramus, N.J. In response, New Jersey enacted 
legislation (HB 4110) requiring lap-shoulder seatbelts instead of 
solely lap belts. The new requirement applies to buses manufactured 
beginning 180 days after the bill signing. In addition to New Jersey, 
seven other states require seatbelts on school buses. These states 
inlcude Arkansas, California, Florida, Nevada, and Texas which require 
lap and shoulder belt and Louisiana and New York require lap. However, 
the requirements in Arkansas, Louisiana, and Texas are subject to 
appropriations or approval or denial by local jurisdictions. 
Additionally, Iowa's Board of Education is pursuing an internal rule 
[https://stnonline.com/news/iowa-preliminary-approval-lap-shoulder-
seatbelts-school-buses/] and has approved a preliminary requirement for 
lap/shoulder seatbelts to be included in the purchase of all new school 
buses.
                     Illegally Passing School Buses
    Students boarding and exiting school buses are at risk of being hit 
by motorists passing and failing to yield to stopped school buses. The 
National Highway Traffic Safety Administration (NHTSA) found that 97 
pedestrians under the age of 18 were killed in school transportation-
related crashes between 2008 and 2017. Further, according to a survey 
[https://www.schoolbusfleet.com/news/730974/national-stop-arm-survey-
counts-over-80k-illegal-passes-of-school-buses] by the National 
Association of State Directors of Pupil Transportation Services, in 
2018, more than 108,000 school bus drivers observed almost 84,000 
vehicles illegally passing school buses in a single day. Thankfully, 
most state laws require vehicles on both sides of a road without a 
median to stop, and remain stopped, while school bus stop arms and 
flashing red lights are deployed.
    In 2014, Wyoming became the first state to require all school buses 
(approximately 1,500) to be equipped with a camera system to capture 
images of motorists illegally passing stopped school buses. Wyoming HB 
5 required all school buses to be equipped with cameras by the 2016-
2017 school year and appropriated $5 million to pay for installation. 
After feedback from law enforcement that some authorities were 
reluctant to cite drivers for violations unless both the license plate 
and driver's face could be clearly seen, Wyoming tweaked their law in 
2019 to clarify that a recording of images produced by a video system 
equipped on a school bus shall be prima facie evidence of the facts 
contained in it. Further, Wyoming clarified that a recorded image 
evidencing a violation shall be admissible in a judicial or 
administrative proceeding to adjudicate liability for the violation and 
that if the identity of the driver of a vehicle that violates this 
section is unknown, the registered owner of the vehicle recorded by a 
video system as provided in this subsection shall be fined $195. 
Wyoming also added language to address privacy concerns, including 
stipulating that recordings or images made from a video system shall be 
destroyed within one year of the recording date.
    Further, state laws concerning school bus stop arm cameras also 
address how any revenue from violations is allocated while safeguarding 
privacy. Illinois' law requires that proceeds from fines be divided 
between a school district and municipality or county. It also states 
that ``the compensation paid for an automated traffic law enforcement 
system must be based on the value of the equipment or the services 
provided and may not be based on the number of traffic citations issued 
or the revenue generated by the system.'' In Virginia, the fine revenue 
is allocated to the local school division where the violation occurred. 
Washington directs fine revenue to school districts for school zone and 
school bus safety projects, minus administrative and operational costs. 
In Pennsylvania, violators are subject to a fine of $250, plus a 
surcharge of $35. The surcharge must be deposited in the school bus 
safety grant program account and the Pennsylvania Department of 
Transportation must develop a competitive grant program using the funds 
to increase school bus safety, education, and training in the state.
    To help protect the privacy of drivers, Alabama's law requires that 
images or video not include the face of the driver or passengers and be 
destroyed within 90 days if there was no violation. Rhode Island's law 
stipulates that images must be destroyed within 24 hours if no 
violation is identified and within one year if there was a violation.
    Overall, 21 states, including five enacted just this year--Alabama, 
Arkansas, Connecticut, Georgia, Illinois, Indiana, Maine, Maryland, 
Mississippi, New York, North Carolina, Oklahoma, Pennsylvania, Rhode 
Island, South Carolina, Tennessee, Utah, Virginia, Washington, West 
Virginia, and Wyoming--explicitly allow local governments or school 
districts to use cameras to capture images and issue tickets for 
drivers who illegally pass stopped school buses. The laws in five 
states--Indiana, Maine, New York, Tennessee, and Oklahoma--were enacted 
in 2019.
    In addition to making it illegal to pass a stopped school bus, 
states have also moved to increase penalties for illegally passing a 
stopped school bus.
    Illinois now requires the revocation of a driver's license when a 
driver illegally passes a school bus and the violation leads to a motor 
vehicle crash resulting in death. Florida recently passed legislation 
to allow a court to mandate that a driver who causes serious bodily 
injury or death when passing a stopped school bus serve 120 hours of 
community service in a trauma center or hospital that regularly treats 
victims of vehicle crashes and to participate in a victims' impact 
panel or attend a driver-improvement course relating to the rights of 
vulnerable road users. It also sets the penalty at $1,500 for causing 
serious bodily injury or death by illegally passing a school bus and 
increases it to a six-point offense. Maryland increased the penalty for 
illegally passing a school bus from $250 to $500. The law also requires 
that Montgomery County report to the legislature the number of 
violations recorded by school bus monitoring cameras after theeffective 
date of the new penalty legislation.
    In the fall of 2018, three northern Indiana children died, and 
another was injured while crossing a rural highway to board their 
school bus. Indiana enacted a bill in 2019 allowing the installation of 
school bus stop-arm cameras. Indiana also took several comprehensive 
steps to try and ensure the placement of school bus stops is safe 
including:
    <bullet>  Except when within the boundary of a city or town, when a 
school bus is operated on a: (1) U.S. route or state route, the driver 
may not load or unload a student at a location that requires the 
student to cross a roadway unless no other safe alternatives are 
available; and (2) when a school bus is operated on a street or highway 
other than a U.S. route or state route, the driver shall load and 
unload a student as close to the right-hand curb or edge of the roadway 
as practicable.
    <bullet>  On or before Sept. 1, 2019, and each Sept. 1 thereafter, 
each school corporation, charter school, and accredited nonpublic 
school that provides transportation for students must review the 
school's school bus routes and school bus safety policies to improve 
the safety for students and adults.
    <bullet>  The state school bus committee, in consultation with the 
department of education, shall develop and post on the department's 
website, school bus safety guidelines or best practices. The guidelines 
or best practices must include procedures to be taken to ensure that 
students do not enter a roadway until approaching traffic has come to a 
complete stop.
    <bullet>  The department of education, in consultation with the 
department of transportation, shall include on the department's 
website, information on how an individual or school may petition to 
reduce maximum speed limits in areas necessary to ensure that students 
are safely loaded onto or unloaded from a school bus.
                           School Bus Drivers
    Finally, I'd like to highlight how states have strengthened their 
requirements for school bus driver testing, training, and penalties for 
unsafe driving, failing a drug or alcohol test, or moving violations.
    For example, New York enacted a bill (AB 208) that requires all 
school bus drivers to take pre-employment drug and alcohol testing, as 
well as be subject to random testing, with all drivers required to be 
included in the random testing pool. The bill also extended the time 
limit for consuming alcohol before operating a school bus from six to 
eight hours for school bus operators. Connecticut recently increased 
the penalty for DUI when driving a school bus, making this a new 
offense. The new law includes longer mandatory prison terms, increased 
maximum fines, and a 45-day license suspension.
    States have also increased school bus driver training requirements. 
Virginia recently changed (SB 557/HB 810) their requirements for 
training school bus drivers. The training program for applicants 
without a commercial driver's license must include: a minimum of 24 
hours of classroom training and 6 hours of behind-the-wheel training on 
a school bus that contains no pupil passengers. For applicants with a 
commercial driver's license, they must receive a minimum of 4 hours of 
classroom training and 3 hours of behind-the-wheel training on a school 
bus that contains no pupil passengers. Behind-the-wheel training shall 
be administered under the direct on-board supervision of a designated 
school bus driver trainer. Rhode Island passed a law requiring that 
annual training for school bus drivers include NHTSA's school bus 
driver in-service training series. Indiana now allows a driver's 
certificate of completion of the school bus driver safety education to 
be revoked in certain instances, including when the driver endangers 
the safe transportation of students.
    And of course, states have also sought to ensure school bus drivers 
are not distracted when driving. Georgia recently modified the ban on 
cell phone use by school bus drivers to specify that phone use is 
permitted if the phone is used in a way similar to a two-way radio in 
order to communicate with school or public safety officials. Tennessee 
expanded the state's prohibition of cell phone use by school bus 
drivers, applying the ban to a wider range of portable electronic 
devices beyond simply cell phones.
                       School Bus Safety in Maine
    I'd like to take a quick minute and take off my NCSL hat and put on 
my Maine transportation chairman hat. This is my fourth term serving as 
state legislator in the Maine House of Representatives, and third term 
chairing our Transportation Committee, and I can say that this past 
session was the most active in terms of legislation addressing school 
bus safety.
    Just over a month ago, in mid-June, Maine entertained nearly a 
dozen bills and passed two bills specifically focused on school bus 
safety. LD 19 will now require school buses purchased after this year 
to be equipped with a school bus crossing arm and LD 166 addressed the 
issue of cars passing school busses.
    Initially, there was interest in simply increasing fines for 
violators, but we know that simply increasing the penalties does not 
actually solve the problem. We engaged stakeholders, including 
community members, and local and state police. The working group 
identified that enforcement of existing laws is the challenge because 
there is no way to identify a vehicle when the bus driver is the only 
person to have witnessed the violation. Thus, the working group 
recommended allowing the use of a traffic surveillance camera mounted 
on a school bus in conjunction with a lighted traffic control device to 
prove or enforce a violation in order to identify the violator. This 
bill was very controversial given our state's high regard for privacy. 
However, the testimony from grieving parents and community members was 
powerful and convincing: too many kids are being hurt or killed while 
on or near a school bus.
                               Next Steps
    Finally, I'd like to end by noting that NCSL supports a continued 
federal role in helping to set national performance and safety goals 
with federal safety programs being expanded to incorporate emerging 
safety issues, while respecting state sovereignty. However, NCSL 
strongly opposes the use of federal sanctions or redirection penalties 
to enforce federal safety standards as well as the use of federal 
mandates that are enforced using ``reprogramming'' sanctions. States 
stand ready to work with our federal partners to ensure that school 
buses remain the safest way to transport school children.
    Madam Chairman, I thank you for this opportunity to testify before 
the subcommittee on this important topic. If you or your staff have any 
additional questions, please contact NCSL staff Ben Husch and Doug 
Shinkle. We look forward to working with you and the members of the 
subcommittee on this increasingly important safety issue.
                         School Bus Safety Laws
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Ms. Norton. Thank you very much, Mr. McLean.
    Next, the chief administrator of the New Jersey Motor 
Vehicle Commission, Brenda Sue Fulton.
    Ms.  Fulton. Thank you and good afternoon, Chair Norton, 
Ranking Member Davis, members of the subcommittee.
    I am here representing the New Jersey Motor Vehicle 
Commission and Governor Murphy, and we are grateful for the 
opportunity to speak on such an important topic.
    Last year, as you heard, a schoolbus crash in Mount Olive, 
New Jersey, tragically took the lives of East Brook Middle 
School fifth-grader Miranda Vargas, and Paramus social studies 
teacher, Jennifer Williamson, and injured dozens of children. 
This crash broke our hearts and caused us to take a hard look 
at how we keep our kids safe.
    New Jersey is second to none in ensuring that children who 
ride our schoolbuses are safe. Every one of our 23,000 
schoolbuses are inspected at least twice a year with a review 
of driver qualifications as well as vehicle safety.
    Our Governor's School Bus Safety Task Force conducts an 
additional 100 unannounced inspections. Unannounced inspections 
have been particularly critical to help identify private 
operators who have unlicensed or otherwise unqualified drivers 
operating their schoolbuses.
    We started requiring lapbelts on all schoolbuses in 1992, 
and we remain one of only seven States that require belts on 
all schoolbuses.
    In 1996, we started requiring every bus to be equipped with 
a crossing arm that swings out and prevents children from 
passing directly in front of the bus. This was modeled after 
Betsy's Law in Washington State.
    In 2017, with the passing of Abigail's Law, all New Jersey 
schoolbuses were required to have sensors in front and in back 
to detect an object or small child below the field of view.
    Every work night, the Motor Vehicle Commission generates a 
report of any schoolbus driver whose license has been suspended 
and transmits that report directly to the New Jersey Department 
of Education for action.
    But after the devastating loss of Jennifer Williamson and 
10-year-old Miranda, we resolved to do even more. In the first 
2 years of his administration, Governor Murphy signed eight 
laws aimed at improving the safety of schoolbuses, drivers, and 
supervisors. These laws now require the following:
    One, all newly purchased schoolbuses must have three-point 
belts;
    Two, in the past, schoolbus drivers who accumulated 12 or 
more points were scheduled for suspension. Under recently 
enacted legislation, they are now scheduled for suspension if 
they receive three or more moving violations in a 3-year period 
or six or more points, and they must complete a defensive 
driving course before being restored.
    Three, local boards of education or the bus contractor that 
provides the pupil transportation services are notified by the 
department of education of suspensions within 1 working day and 
must confirm within 1 business day that the suspended driver is 
no longer operating a schoolbus.
    Four, in addition to the commercial driver license 
requirement for medical certification from a Federal medical 
examiner every 2 years, schoolbus drivers age 70 to 74 must 
provide evidence of a medical exam every year, and drivers age 
75 and over much provide evidence of an exam every 6 months.
    Five, the State is conducting a study of schoolbus 
passenger safety.
    And six, finally, at the local level schoolbus drivers and 
schoolbus aides must now complete training biannually and 
school district transportation supervisors must complete an 
approved certification program at an institute of higher 
education.
    In some respects, we are fortunate that our Governor, 
education commissioner, State legislators, and Members of 
Congress have all pulled together to enact measures to make our 
kids safer. But it has not escaped anyone's notice that too 
many of these laws have names: Betsy, Abigail, Miranda. Too 
many tragedies, too much loss.
    If I could convey any message to our sister States and to 
you, members of this committee, it would be this: do not wait 
for another child to die before you take action.
    I welcome your questions. Thank you for the opportunity to 
testify.
    [Ms. Fulton's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Sue Fulton, Chief Administrator, New Jersey 
                        Motor Vehicle Commission
    Good afternoon, Chair DeFazio, Ranking Member Graves, Chair Norton, 
Ranking Member Davis, and members of the Subcommittee.
    I'm here representing the New Jersey Motor Vehicle Commission and 
Governor Murphy, and we're grateful for the opportunity to speak on 
such an important topic.
    Last year, a school bus crash in Mount Olive, New Jersey, 
tragically took the lives of East Brook Middle School fifth-grader 
Miranda Vargas, and Paramus Social Studies teacher Jennifer Williamson, 
and injured dozens of children.
    This crash broke our hearts--and caused us to take a hard look at 
how we keep our kids safe.
               New Jersey's History of School Bus Safety
    New Jersey is second to none in ensuring that children who ride our 
school buses are safe.
    Every one of our 23,000 school buses is inspected at least twice a 
year, with a review of driver qualifications as well as vehicle safety. 
Our Governor's School Bus Safety Task Force conducts an additional 100 
unannounced inspections. Unannounced inspections have been particularly 
crucial to help identify private operators who have unlicensed or 
otherwise unqualified drivers operating their school buses.
    We started requiring lap belts on all school buses in 1992, and we 
remain one of only seven states that require belts on all school buses.
    In 1996, we started requiring every bus to be equipped with a 
crossing arm, that swings out and prevents children from passing 
directly in front of the bus. This was modeled after Betsy's Law in 
Washington State.
    In 2017, with the passing of Abigail's Law, all New Jersey school 
buses were required to have sensors in front and in back to detect an 
object or small child below the field of view.
    Every work night, the Motor Vehicle Commission generates a report 
of any school bus driver whose license has been suspended and transmits 
that report directly to the New Jersey Department of Education for 
action.
    But after the devastating loss of beloved teacher Jennifer 
Williamson and 10-year-old Miranda, we resolved to do even more in New 
Jersey.
                              New Measures
    In the first two years of his administration, Governor Murphy 
signed eight laws aimed at improving the safety of school buses, 
drivers, and supervisors. These laws now require the following:
    1.  All newly-purchased school buses must have 3-point belts.
    2.  In the past, school bus drivers who accumulated 12 or more 
points were scheduled for suspension. Under recently enacted 
legislation, they are now scheduled for suspension if they receive 3 or 
more moving violations in 3 years or 6 or more points, and they must 
complete a defensive driving course before being restored.
    3.  Local boards of education, or the bus contractor that provides 
pupil transportation services for a local board of education, are 
notified by the NJDOE of suspensions within one working day and must 
confirm within one business day that the suspended driver is no longer 
operating a school bus.
    4.  In addition to the Commercial Driver License requirement for 
medical certification from a federal medical examiner every two years, 
school bus drivers age 70-74 must provide evidence of an annual medical 
exam, and drivers age 75 and over must have an exam every six months.
    5.  The State will conduct a study of school bus passenger safety.
    6.  And finally, at the local level, school bus drivers and school 
bus aides must now complete trainings biannually and school district 
transportation supervisors must complete an approved certification 
program at an institution of higher education.
                               Conclusion
    In some respects, we are fortunate that our Governor, Education 
Commissioner, state legislators, and members of Congress have all 
pulled together to enact measures to make our kids safer.
    But it hasn't escaped anyone's notice that too many laws have 
names. Betsy. Abigail. Miranda.
    Too many tragedies. Too much loss.
    If I could convey any message to our sister states, and to you, 
members of this Committee, it would be this: Don't wait for a child to 
die to take action; do it now.
    I welcome your questions.

    Ms. Norton. I appreciate that moving testimony.
    Dr. Poland, Deputy Director, Office of Highway Safety, 
National Transportation Safety Board.
    Ms. Poland. Good afternoon, Chairwoman Norton, Ranking 
Member Davis, and the members of the subcommittee.
    Thank you for inviting the NTSB to testify today regarding 
schoolbus safety.
    Schoolbus travel, as you have heard, is one of the safest 
forms of transportation on our roads today. Children are safer 
traveling in schoolbuses than in any other vehicle, but still, 
improvements can be made.
    Today I will focus my remarks on NTSB recommended 
improvements related to occupant protection, driver oversight, 
fire protection, and the safety of children in the schoolbus 
loading zone.
    Compartmentalization, the current form of occupant 
protection on large schoolbuses, is a passive system that 
performs well in frontal collisions. Unfortunately, in side-
impact collisions and rollovers, compartmentalization is 
incomplete and provides insufficient protection.
    Twenty years ago, we recommended that NHTSA develop 
performance standards for schoolbus occupant protection systems 
that account for all types of collisions and rollovers. In 
2008, NHTSA published a final rule that established standards 
for both lap and lap/shoulder belts if voluntarily installed on 
large schoolbuses.
    With the Federal regulation in place, some jurisdictions 
are now equipping buses with this safety improvement. However, 
there still is no Federal requirement for large schoolbuses to 
be equipped with passenger lap/shoulder belts.
    Additionally, more recent schoolbus crashes have emphasized 
the need for change. Last year, following the catastrophic 
schoolbus crash in Chattanooga, Tennessee, the NTSB recommended 
that each State require passenger lap/shoulder belts to be 
installed in new large schoolbuses.
    Poor driver oversight resulted in unsafe schoolbus 
operations in both the Chattanooga crash and another 2016 crash 
in Baltimore, Maryland. In each case, the drivers continued to 
operate schoolbuses unsafely with no remedial action being 
taken even in the face of known driver safety issues.
    Improving driver oversight can prevent crashes. In the 
Chattanooga crash, the busdriver had about 5 months of 
schoolbus driving experience during which he had accumulated 
numerous complaints about his driving performance. There was no 
systematic method for recording, tracking, or investigating 
complaints of driver behavior.
    In the Baltimore crash, the driver had a longstanding 
seizure disorder, yet was allowed to continue driving the 
schoolbus. We concluded that the driver understood his 
diagnosis of epilepsy and intentionally hid this during his 
medical examination.
    Further, although Baltimore City Public Schools was 
responsible for driver oversight, it failed to identify the 
busdriver as high risk.
    The NTSB has investigated several bus fires dating back to 
the 1988 bus collision near Carrollton, Kentucky, that resulted 
in 27 deaths.
    More recently, in December 2017, a fire ignited in the 
engine compartment of a schoolbus in Oakland, Iowa, and spread 
into the bus' passenger compartment resulting in two deaths. 
The bus was not equipped with an automatic fire suppression 
system that would have delivered a fire suppressant inside the 
vehicle's engine compartment, increasing the time to evacuate.
    We issued recommendations to NHTSA to require the 
installation of fire suppression systems in schoolbuses. We 
also addressed similar recommendations directly to the 
schoolbus manufacturers.
    In addition, we recommended that NHTSA update the 
requirements for flammability of schoolbus interior materials.
    We know that more children are injured or killed in the 
schoolbus loading zone than on the bus itself. Following our 
investigation of a 2016 collision in which a child was fatally 
struck while crossing the roadway to board his schoolbus in 
Thief River Falls, Minnesota, the Board recommended that NHTSA 
assess and update the guidelines on pupil transportation safety 
to address pedestrian issues related to conspicuity and route 
selection.
    We are now investigating three additional loading zone 
crashes in Indiana, Georgia, and Mississippi in order to 
identify countermeasures for preventing or mitigating future 
injuries and fatalities in the schoolbus loading zone.
    Thank you for the opportunity to provide our 
recommendations for improving schoolbus safety. I would be 
pleased to answer any questions you have.
    [Dr. Poland's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Kristin Poland, Ph.D., Deputy Director, Office of 
          Highway Safety, National Transportation Safety Board
    Good morning, Chairwoman Norton, Ranking Member Davis, Chairman 
DeFazio, Ranking Member Graves, and Members of the Subcommittee. Thank 
you for inviting the National Transportation Safety Board (NTSB) to 
testify before you today regarding our investigations and safety 
recommendations on school bus safety.
    In 1967, Congress established the NTSB as an independent agency 
within the United States Department of Transportation (USDOT) with a 
clearly defined mission to promote a higher level of safety in the 
transportation system. In 1974, Congress reestablished the NTSB as a 
separate entity outside of the USDOT, reasoning that ``no federal 
agency can properly perform such (investigatory) functions unless it is 
totally separate and independent from any other . . . agency of the 
United States.'' \1\ Because the USDOT has broad operational and 
regulatory responsibilities that affect the safety, adequacy, and 
efficiency of the transportation system, and transportation accidents 
may suggest deficiencies in that system, the NTSB's independence was 
deemed necessary for proper oversight.
---------------------------------------------------------------------------
    \1\ Independent Safety Board Act of 1974 Sec.  302, Pub. L. 93-633, 
88 Stat. 2166-2173 (1975).
---------------------------------------------------------------------------
    The NTSB is charged by Congress with investigating every civil 
aviation accident in the United States and significant accidents in 
other modes of transportation--highway, rail, marine, and pipeline. We 
determine the probable cause of the accidents we investigate, and we 
issue recommendations to federal, state, and local agencies, and other 
entities, aimed at improving safety, preventing future accidents and 
injuries, and saving lives. The NTSB is not a regulatory agency--we do 
not promulgate operating standards and do not certificate organizations 
and individuals. The goal of our work is to foster safety improvements, 
through safety alerts, reports, and formal safety recommendations, for 
the traveling public.
    School bus travel is one of the safest forms of transportation in 
the United States. Every day, nearly 600,000 buses carry more than 25 
million students to and from school and activities. Children are safer 
traveling in school buses than in any other vehicle.\2\
---------------------------------------------------------------------------
    \2\ See the NHTSA road safety webpage on school bus safety [https:/
/www.nhtsa.gov/road-safety/school-bus-safety], accessed July 10, 2019.
---------------------------------------------------------------------------
    The NTSB has a long history of investigating school bus crashes and 
making recommendations to improve the safety of the system. However, we 
continue to investigate school bus crashes that result in preventable 
fatalities and injuries. In 2018, we completed a special investigation 
report regarding selective issues in school bus transportation safety 
following crashes in Baltimore, Maryland, and Chattanooga, 
Tennessee.\3\ We also recently completed the investigation of a 
December 12, 2017, school bus fire in Oakland, Iowa.\4\ We have made 
recommendations regarding improving occupant protection, enhancing 
driver oversight, and increasing pedestrian safety, as well as 
emphasizing the need for crash-prevention technologies, fire-resistant 
materials, and fire suppression systems on school buses.
---------------------------------------------------------------------------
    \3\ NTSB. Selective Issues in School Bus Transportation Safety: 
Crashes in Baltimore, Maryland, and Chattanooga, Tennessee [https://
www.ntsb.gov/investigations/AccidentReports/Reports/SIR1802.pdf]. NTSB/
SIR-18/02. Washington, DC: NTSB.
    \4\ NTSB. School Bus Run-Off-Road and Fire [https://ntsb.gov/
investigations/AccidentReports/Reports/HAR1901.pdf]. NTSB/HAR-19/01. 
Washington, DC: NTSB.
---------------------------------------------------------------------------
                   Lap/Shoulder Belts on School Buses
    School buses are one of the safest modes of transportation because 
of their robust design and unique operating environment. School buses 
are designed with a passive form of occupant protection, termed 
``compartmentalization,'' which requires no action by the passenger and 
functions by forming a compartment fore and aft of the bus occupant. 
Compartmentalization is designed to contain passengers within their 
seating compartments during frontal and rear-impact collisions, while 
the seatback is designed to absorb impact energy and reduce occupant 
injury. A key aspect of this occupant protection system is that 
passengers remain within the compartment prior to and during an impact 
so that they benefit from the energy-absorbing seat design. However, 
for many years, we have recommended enhancements to school bus occupant 
protection systems, particularly to address side-impact collisions and 
rollovers in which compartmentalization is incomplete and provides 
insufficient protection for occupants.
    In 1999, we released a special investigation report regarding bus 
crashworthiness.\5\ In this report, we issued two recommendations 
requesting that the National Highway Traffic Safety Administration 
(NHTSA) develop performance standards for school bus occupant 
protection systems that account for frontal, side-, and rear-impact 
collisions and rollovers, then require that newly manufactured school 
buses install systems to retain passengers within the seating 
compartments throughout the crash sequence for all accident 
scenarios.\6\
---------------------------------------------------------------------------
    \5\ NTSB. Bus Crashworthiness [https://www.ntsb.gov/safety/safety-
studies/Documents/SIR9904.pdf]. NTSB/SIR-99/04. Washington, DC: NTSB.
    \6\ NTSB Safety Recommendations H-99-45 [https://www.ntsb.gov/
investigations/AccidentReports/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=H-99-045] and -46 [https://www.ntsb.gov/
investigations/AccidentReports/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=H-99-046].
---------------------------------------------------------------------------
    In 2008, NHTSA published a final rule (with an effective date of 
October 21, 2011) that upgraded the school bus occupant protection 
requirements of various Federal Motor Vehicle Safety Standards 
(FMVSSs), including the requirement for lap and shoulder belts (rather 
than lap-only belts) for all passenger seating positions on school 
buses with a gross vehicle weight rating (GVWR) equal to or less than 
10,000 pounds; and the establishment of performance standards for seat 
belts voluntarily installed by states or school districts on school 
buses with a GVWR greater than 10,000 pounds (these vehicles are 
referred to as ``large school buses'').\7\
---------------------------------------------------------------------------
    \7\ (a) See Title 49 Code of Federal Regulations (CFR) Part 571, 
``Federal Motor Vehicle Safety Standards, Seating Systems, Occupant 
Crash Protection, Seat Belt Assembly Anchorages, School Bus Passenger 
Seating and Crash Protection, Final Rule.'' (b) The final rule 
developed performance standards for both lap belts and lap/shoulder 
belts on large school buses if the belts were voluntarily installed. 
The rule requires higher seatbacks for all school buses, but does not 
require that passenger lap or lap/shoulder belts be installed in large 
school buses.
---------------------------------------------------------------------------
    Now that there is a federal regulation defining performance 
standards for large school bus passenger lap/shoulder belts, school bus 
and seat manufacturers are designing large school buses with this 
safety improvement. In addition, design improvements--such as flexible 
seating systems--have reduced the impediments to equipping large school 
buses with this key safety feature. States and local school districts 
that have required or installed lap/shoulder belts in large school 
buses report additional improvements beyond occupant protection, 
including reduced driver distraction and improved student behavior. 
However, to date, there is no federal requirement for large school 
buses to be equipped with lap/shoulder belts, and most states do not 
require them. For large school buses, NHTSA has continued to maintain 
that compartmentalization, rather than lap/shoulder belts, is the best 
way to provide crash protection.\8\
---------------------------------------------------------------------------
    \8\ See the NHTSA road safety webpage on school bus safety [https:/
/www.nhtsa.gov/road-safety/school-bus-safety], accessed July 10, 2019.
---------------------------------------------------------------------------
    In February 2012, a school bus transporting students to 
Chesterfield Elementary School in Chesterfield, New Jersey, was struck 
at an intersection by a Mack roll-off truck with a fully loaded dump 
container, resulting in 1 bus passenger fatality, 5 serious passenger 
injuries, and 11 minor passenger injuries. After being struck by the 
truck, the bus rotated nearly 180 degrees and subsequently struck a 
traffic beacon support pole. The fatally and severely injured 
passengers were seated in the back half of the school bus, in the area 
of higher impact forces and accelerations. The bus was equipped with 
lap belts, but some students on the school bus wore them improperly or 
not at all.
    Although compartmentalization makes school buses extremely safe, 
precrash, lateral, and rollover motions still expose unbelted 
passengers to injury-producing components within the vehicle, 
intrusion, movement out of the seating compartment, and ejection. Lap 
belts can be beneficial in some circumstances, but injuries may still 
result from upper-body flailing. As a result of our investigation of 
the Chesterfield crash, we concluded that, in severe side-impact 
crashes, properly worn lap/shoulder belts reduce injuries related to 
upper-body flailing that are commonly seen with lap-only belts and, 
therefore, provide the best protection for school bus passengers. 
Further, better student, parent, and school district education and 
training may increase the use and proper fit of passenger seat belts in 
school buses. Thus, we recommended that school districts provide 
improved information to parents and students regarding the importance 
of properly using seat belts on school buses.
    Another large school bus crash that we investigated demonstrated 
the safety benefit of lap/shoulder belts in protecting bus passengers. 
On November 27, 2017, a school bus in Helena, Montana, was struck at an 
intersection by a pickup truck towing a trailer.\9\ Following the 
collision, the school bus departed the roadway, struck an electrical 
equipment box, and overturned 90 degrees onto its right side. The bus 
was occupied by the driver, an adult aide, and two student passengers. 
All of the bus passengers were wearing lap/shoulder belts, and there 
were only minor injuries as a result of the crash. We concluded that 
the passenger lap/shoulder belts mitigated injuries in this side-impact 
and rollover crash.
---------------------------------------------------------------------------
    \9\ NTSB. Intersection Collision and Rollover Involving School Bus 
and Pickup Truck [https://www.ntsb.gov/investigations/AccidentReports/
Reports/HAB1902.pdf]. NTSB/HAB-19/02. Washington, DC: NTSB.
---------------------------------------------------------------------------
    In the Chattanooga, Tennessee, bus crash that occurred on November 
21, 2016, 6 students died and more than 20 others were injured when the 
bus struck a utility pole, rolled onto its right side, and collided 
with a tree. The Chattanooga school bus passengers were at risk due to 
the precrash vehicle motions that threw them from their seating 
compartments prior to the bus striking the utility pole. This rendered 
compartmentalization ineffective during the rollover sequence. 
Therefore, we have recommended that each state that has not already 
done so require that passenger lap/shoulder belts be installed in all 
new large school buses to provide the best protection for all their 
occupants.\10\
---------------------------------------------------------------------------
    \10\ NTSB Safety Recommendations H-18-9 [https://www.ntsb.gov/
investigations/AccidentReports/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=H-18-009] and -10 [https://www.ntsb.gov/
investigations/AccidentReports/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=H-18-010].
---------------------------------------------------------------------------
                    Fire Protection on School Buses
    We have investigated several bus fires and identified safety issues 
regarding flammability, fire suppression, and emergency evacuation.
    In 1988, a school bus operating as a church activity bus was struck 
head-on by a pickup truck on Interstate 71 near Carrollton, 
Kentucky.\11\ The bus's fuel tank was punctured during the collision 
and a fire ensued, engulfing the bus. The bus driver and 26 passengers 
were fatally injured, 34 bus passengers sustained minor to serious 
injuries, and 6 passengers were uninjured. During our investigation, we 
identified safety issues with, among other things, the federal safety 
standards used in school bus manufacture, the flammability and toxicity 
of school bus seating materials, and emergency egress on school buses.
---------------------------------------------------------------------------
    \11\ NTSB. Pickup Truck/Church Activity Bus Head-on Collision and 
Fire [https://www.ntsb.gov/investigations/AccidentReports/Reports/
HAR8901.pdf]. NTSB/HAR-89/01. Washington, DC: NTSB.
---------------------------------------------------------------------------
    All school buses in the United States are required to meet FMVSS 
302 (flammability of interior materials), established by NHTSA, 
specifying the fire-resistance requirements for materials used in the 
occupant compartments of motor vehicles.\12\ Since its adoption in 
1971, FMVSS 302 has remained essentially the same. All 27 fatalities in 
the Carrollton crash resulted from smoke injuries, not from the 
collision with the pickup truck. Thirty years later, we are still 
addressing the adequacy of FMVSS 302 to prevent the rapid spread of 
fire and smoke inside school buses.
---------------------------------------------------------------------------
    \12\ The standard (49 CFR 571.302 [https://www.govinfo.gov/content/
pkg/CFR-2011-title49-vol6/pdf/CFR-2011-title49-vol6-sec571-302.pdf]) 
specifies a horizontal burn rate of not more than 102 millimeters per 
minute within 13 millimeters of the passenger compartment air space.
---------------------------------------------------------------------------
    FMVSS 302 is intended to reduce deaths and injuries caused by 
vehicle fires; however, flammability testing under FMVSS 302 is 
performed using a small-scale fire to represent a fire originating in 
the passenger compartment from sources such as matches or cigarettes. 
The test does not represent the most common causes of school bus fires, 
most of which begin in the engine and can ignite after a crash. The 
current standard for school buses remains less stringent than the 
flammability standards applied in other modes of transportation under 
USDOT safety oversight, such as aviation and rail, and is clearly 
outdated.
    Following our investigation of the April 2014 collision and 
postcrash fire involving a truck-tractor double trailer and a 
motorcoach that occurred on Interstate 5 in Orland, California, we 
recommended that NHTSA revise FMVSS 302 to adopt the more rigorous 
performance standards for interior flammability and smoke emissions 
characteristics already in use for commercial aviation and rail 
passenger transportation.\13\ In 2017, NHTSA publicly announced it was 
pursuing a research effort, titled Test Procedures for Evaluating 
Flammability of Interior Materials, and that final results were 
expected to be published in June 2018; however, no results have yet 
been published, more than a year after the deadline.
---------------------------------------------------------------------------
    \13\ (a) NTSB. Truck-Tractor Double Trailer Median Crossover 
Collision With Motorcoach and Postcrash Fire on Interstate 5 [https://
www.ntsb.gov/investigations/AccidentReports/Reports/HAR1501.pdf]. NTSB/
HAR-15/01. Washington, DC: NTSB. (b) NTSB Safety Recommendation H-15-12 
[https://www.ntsb.gov/investigations/AccidentReports/_layouts/
ntsb.recsearch/Recommendation.aspx?Rec=H-15-012].
---------------------------------------------------------------------------
    The Oakland, Iowa, bus fire occurred when a school bus backing out 
of a driveway got stuck in a drainage ditch. While the driver was 
attempting to drive the bus forward and back onto the road, a fire 
ignited in the engine compartment and spread into and through the bus's 
passenger compartment. The driver and 16-year-old passenger sustained 
thermal injuries and died in the fire as a result of smoke and soot 
inhalation.
    The Oakland school bus was not equipped with an automatic fire 
suppression system (AFSS). Typically, such systems deliver a fire 
suppressant inside a vehicle's engine compartment when a fire sensor is 
activated. An AFSS uses either thermal sensors to detect heat or 
optical sensors to detect flame on specific ignition points or 
flammable agents on or near the engine block. Following detection, the 
system alerts the driver and automatically releases a water mist or 
chemical (powder) suppressant. The systems can be installed during or 
just after new manufacture, or retrofitted into buses already in 
service. No national standards exist for AFSS installation or 
performance; however, specifications have been defined for AFSS testing 
as well as voluntary performance certification, both in the United 
States and internationally.
    In 2012, the Moving Ahead for Progress in the 21st Century Act 
(MAP-21) instructed NHTSA to research motorcoach fires and ways to 
prevent them.\14\ This requirement, while directed at motorcoach fire 
safety, has helped pave the way for the testing fire suppression 
systems that have been shown to prevent or mitigate the spread of fire 
into a passenger compartment and are now widely available and already 
installed in some school buses. If the Oakland school bus had been 
equipped with such a system, the system likely would have slowed or 
stopped the growth and spread of the fire and its progression into the 
passenger compartment. As a result of this investigation, we have 
recommended that NHTSA require all new school buses to be equipped with 
fire suppression systems that, at a minimum, address engine fires.\15\ 
Further, we have recommended that the USDOT require in-service school 
buses to be equipped with fire suppression systems that, at a minimum, 
address engine fires.\16\ Absent such requirements, we recommended that 
school bus manufacturers install fire suppression systems that, at a 
minimum, address engine fires as standard equipment on all newly 
manufactured school buses.\17\
---------------------------------------------------------------------------
    \14\ Section 32704(a) of MAP-21, Public Law 112-141 [https://
www.govinfo.gov/content/pkg/PLAW-112publ141/pdf/PLAW-112publ141.pdf] 
(July 6, 2012), directs the secretary of the USDOT to ``conduct 
research and testing to determine the most prevalent causes of 
motorcoach fires and the best methods to prevent such fires and to 
mitigate the effect of such fires, both inside and outside the 
motorcoach.'' Research and testing were to include automatic fire 
suppression systems.
    \15\ NTSB Safety Recommendation H-19-4 [https://www.ntsb.gov/
investigations/Accident
Reports/Reports/HAR1901.pdf].
    \16\ NTSB Safety Recommendation H-19-3 [https://www.ntsb.gov/
investigations/Accident
Reports/Reports/HAR1901.pdf].
    \17\ NTSB Safety Recommendation H-19-11 [https://www.ntsb.gov/
investigations/Accident
Reports/Reports/HAR1901.pdf].
---------------------------------------------------------------------------
    We also found during the Oakland investigation that small 
penetrations through the firewall protecting the interior of the bus 
from the engine compartment were not blocked with fire-resistant 
material. More importantly, the firewall did not prevent the spread of 
fire from the engine compartment because the engine block's penetration 
into the passenger compartment was covered only in fiberglass cowling, 
which provided no fire protection or containment and acted as fuel 
load. This resulted in a firewall gap and a direct pathway for the fire 
to enter the passenger area. We concluded that the lack of a complete 
firewall between the school bus engine compartment and the passenger 
compartment led to the rapid spread of superheated gases, smoke, and 
fire into the passenger compartment; and the interior components of the 
bus were flammable when exposed to ignition sources greater than those 
used in tests under FMVSS 302 and in fire block tests.
    Even without a fire suppression system, if the Oakland school bus 
had been equipped with a complete firewall or with fire-resistant 
materials between the engine and the passenger compartment, the spread 
of fire and smoke into the bus's interior would have been reduced or 
slowed. As a result, the occupants would have been exposed to less 
smoke and heated gas, and they would have had more time to evacuate the 
bus, which might have prevented their fatal injuries. As a result of 
this investigation, we recommended that NHTSA develop standards and 
that school bus manufacturers ensure that, for newly manufactured 
school buses--especially those with engines that extend beyond the 
firewall--no hazardous quantity of gas or flame can pass through the 
firewall from the engine compartment to the passenger compartment.\18\
---------------------------------------------------------------------------
    \18\ NTSB Safety Recommendations H-19-5 and -12.
---------------------------------------------------------------------------
    The Oakland, Iowa, fire, along with other school bus fires reported 
nationally and as shown in school bus fire demonstrations, illustrates 
that once a school bus compartment is breached (even when an exterior 
fire enters the bus), a fire spreads quickly, and smoke, toxic gases, 
and heat make the interior untenable for occupants. On April 16, 2018, 
as a training exercise, the Stafford County (Virginia) Public Schools 
and the Stafford County Fire and Rescue Department held a school bus 
fire demonstration. The fire department placed a hay bale in front of a 
school bus and ignited it; the bus was fully engulfed in flames within 
3 minutes.\19\ That demonstration led to another on October 27, 2018, 
in Kansas City, Kansas, in which the National Association for Pupil 
Transportation partnered with the Lee Summit Fire Department to show 
the time it takes for flames to engulf a school bus and demonstrated 
realistic evacuation scenarios. A bale of hay was set on fire inside 
the open front door of one bus; by the 3-minute mark, the bus was 
filled with smoke and temperatures had reached 900 +F to 1,000 +F.\20\
---------------------------------------------------------------------------
    \19\ School Bus Fleet. School Bus Fire Demo Highlights Need for 
Preparedness [https://www.schoolbusfleet.com/news/730179/school-bus-
fire-demo-highlights-need-for-preparedness]. June 19, 2018.
    \20\ School Bus Fleet. School Bus Fire Demo Shows Importance of 
Evacuation Training [https://www.schoolbusfleet.com/news/731812/school-
bus-fire-demo-shows-importance-of-evacuation-training]. October 27, 
2018.
---------------------------------------------------------------------------
    Two critical components of school bus safety are emergency training 
for school bus drivers and passengers, and emergency drills involving 
both drivers and students. Proper response in an emergency depends on 
the quality of training, the types of drills (which should supplement 
classroom instruction), and the frequency of refresher training and 
drills.
                      School Bus Driver Oversight
    Although the specific safety issues differed, the Baltimore, 
Chattanooga, and Oakland crashes shared one common factor: poor driver 
oversight by the school districts and contracted motor carriers, which 
resulted in unsafe school bus operations. In each case, the drivers 
continued to operate school buses unsafely with no remedial action 
being taken, even in the face of known driver safety issues.
    In the Chattanooga crash, the bus driver was speeding as he 
transported students from the school to their drop-off locations. While 
driving, he answered a cell phone call, which was still active when he 
lost control of the bus and departed the roadway. We concluded that the 
Chattanooga school bus driver's speeding, combined with his cell phone 
use while driving, led to the crash. At the time of the crash, the 
driver had about 5 months of school bus driving experience, during 
which he had accumulated numerous complaints about his driving 
performance. However, investigators found no record of disciplinary or 
corrective training in the driver's file. The day of the crash was not 
the first time the bus driver had exhibited unsafe driving maneuvers. 
Shortly after the beginning of the 2016 school year, he began reporting 
student disciplinary problems to Hamilton County Department of 
Education (HCDE) school staff. As the school year progressed, the 
problems between the driver and the students continued, and the driver 
sent even more discipline referrals to school administrators, who told 
him he should not be submitting so many. About a week later, the HCDE 
and Durham School Services (Durham), the contract carrier for the 
school district, received the first complaint that the driver was 
intentionally trying to make students fall.
    After the crash, our investigators found e-mails and letters from 
parents and students about the bus driver's performance in the months 
leading to the crash, which provided insight into how the driver dealt 
with student behavioral issues during this period. Student passengers 
who normally rode this bus told our investigators that when there was 
excessive noise or when some students refused to sit down, the driver 
would slam on the brakes or swerve, causing them to fall. No action was 
taken to relieve the driver of duty, nor were definitive steps taken to 
resolve the safety complaints. We concluded that Durham had no 
systematic method for recording, tracking, or investigating complaints 
of driver behavior, and that it was deficient in driver oversight. 
Following this crash, the state of Tennessee enacted a law establishing 
a program to monitor and oversee transportation services for local 
education authorities, school districts, and charter schools.
    We also have a long history of investigating crashes in which 
drivers who failed to report their medical conditions were issued 
medical certificates and were subsequently involved in fatal crashes in 
which their medical condition contributed to the event.
    On November 1, 2016, a Baltimore City school bus struck a private 
auto and a Maryland Transit Administration (MTA) bus, killing four MTA 
passengers and both bus drivers. Medical records from the school bus 
driver's primary care physician document the driver's history of 
seizures dating back to his childhood. Additionally, the driver 
experienced several incapacitating medical events while on duty as a 
school bus driver, including three incidents in the previous 5 years. 
We determined that the Baltimore school bus driver was likely 
incapacitated by a seizure due to his long-standing seizure disorder, 
which resulted in the collisions with the car and transit bus.
    Maryland Motor Vehicle Administration (MVA) records showed that the 
Baltimore school bus driver had repeated license revocations and 
suspensions over several decades. He fraudulently obtained his driver's 
license by providing documents with different name spellings or birth 
dates to circumvent the MVA verification system. We concluded that the 
Baltimore school bus driver understood his diagnosis of epilepsy and 
intentionally hid this disqualifying medical condition and his use of 
treatment medications during his medical examinations to prevent being 
denied certification. Further, although Baltimore City Public Schools 
(BCPS) was responsible for driver oversight, it failed to address 
multiple deficiencies and to identify the bus driver as high risk. 
Similarly, the MVA verification system failed to prevent the Baltimore 
school bus driver from obtaining a driver's license through fraudulent 
means.
    The Federal Motor Carrier Safety Administration establishes 
regulations for commercial driver licensing, including licensing school 
bus drivers employed either by a local school district directly or by a 
contracted motor carrier that provides student transportation services. 
A person who operates a commercial vehicle in commerce must be 
medically certified as physically qualified to operate the vehicle. The 
Baltimore crash might have been prevented had a coworker or a BCPS 
employee reported the driver to the MVA. We concluded that school 
districts and their contracted student transportation service providers 
would benefit from awareness training on federal and state commercial 
driver fitness regulations and on the avenues available to report 
drivers with medical conditions that may make it unsafe to operate a 
school bus.
    In the Oakland crash, the driver was found qualified for a 
commercial driver's license during an examination on March 6, 2017, and 
he held a medical certificate valid for 2 years. However, after the 
examination, the driver's degenerative spinal condition worsened, 
resulting in his inability to walk without a cane or a walker. The 
driver understood his diagnosis of degenerative disc disease, had seen 
a specialist, and was scheduled for back surgery 2 days after the 
crash. The school district was also aware of the driver's condition and 
that he was scheduled for surgery. When a school district, as an 
intrastate motor carrier, identifies a physical impairment that could 
affect a driver's ability to operate a school bus and could lead to a 
crash or result in the driver's inability to safely render assistance--
such as an inability to walk without a cane or move quickly in an 
emergency--the district should require the driver (even if he or she 
has a medical certificate) to demonstrate physical ability or provide a 
doctor's clearance for duty. Although school bus drivers undergo 
federally required medical examinations and can be medically certified 
for 2 years, their physical condition may change during the interval 
between examinations and render the driver incapable of performing 
critical emergency duties. As a result of the Oakland investigation, we 
recommended that states revise their school bus driver requirements so 
that all drivers must pass a physical performance test on hiring and at 
least annually, and also whenever their physical condition changes in a 
manner that could affect their ability to physically perform school bus 
driver duties, including helping passengers evacuate a bus in an 
emergency.\21\
---------------------------------------------------------------------------
    \21\ NTSB Safety Recommendation H-19-6 [https://www.ntsb.gov/
investigations/Accident
Reports/Reports/HAR1901.pdf].
---------------------------------------------------------------------------
                    School Bus Route and Stop Safety
    Following our investigation of a 2016 collision in which a 7-year-
old was fatally struck by a pickup truck while crossing the roadway to 
board his school bus in Thief River Falls, Minnesota, we recommended 
that NHTSA assess, and if necessary, update, its guidelines on pupil 
transportation safety to specifically address pedestrian issues related 
to conspicuity and route selection.\22\
---------------------------------------------------------------------------
    \22\ (a) NTSB. Fatal Pedestrian Collision with Minivan Thief River 
Falls [https://www.ntsb.gov/investigations/AccidentReports/Reports/
HAB1817.pdf]. NTSB/HAB-18/17. Washington, DC: NTSB. (b) NTSB Safety 
Recommendation H-18-50 [https://www.ntsb.gov/investigations/
AccidentReports/_layouts/ntsb.recsearch/Recommendation.aspx?Rec=H-18-
50].
---------------------------------------------------------------------------
    We are continuing to investigate collisions involving school bus 
passenger loading and unloading. On October 30, 2018, three children 
were killed and one seriously injured in Rochester, Indiana, when they 
were struck by a pickup truck while they were crossing the roadway to 
board their bus to school.\23\ The school bus had its warning lights on 
and the driver had deployed the stop arm, but the pickup truck driver 
did not stop on the 55-mph roadway. In addition to the Rochester crash, 
we are also investigating two other crashes--one in Hartsfield, 
Georgia, and one in Baldwyn, Mississippi--involving school bus 
passenger loading and unloading where drivers did not stop for stopped 
school buses with their warning lights on and stop arms deployed, and 
struck children crossing the roadway. These two crashes resulted in the 
deaths of two children and serious injury to another child.
---------------------------------------------------------------------------
    \23\ NTSB. Crash between Pickup Truck and Children Boarding a 
School Bus [https://www.ntsb.gov/investigations/Pages/HWY19MH003.aspx]. 
NTSB/HWY19MH003 (preliminary). Washington, DC: NTSB.
---------------------------------------------------------------------------
    Our investigations continue to focus on school districts' student 
transportation policies, bus route planning and development, and safety 
issues related to school bus loading and unloading on high-speed 
roadways.
                      Crash Prevention Technology
    We have advocated for collision avoidance systems in commercial 
motor vehicles, including buses, for more than 20 years. Collision 
avoidance technology mitigates or prevents crashes by detecting moving, 
stopped, or stationary vehicles ahead. When appropriate, vehicles 
equipped with automatic emergency braking systems apply brakes to 
prevent or mitigate a collision.
    NHTSA issued a final rule, effective in August 2015, requiring 
electronic stability control systems on most truck-tractors and over-
the-road buses weighing more than 26,000 pounds; however, the 
requirement does not apply to school buses. Even without this 
requirement, though, some school bus manufacturers are beginning to 
voluntarily install these systems in school buses. Our crash 
investigations and industry research have shown that collision 
avoidance systems significantly help prevent or mitigate the severity 
of crashes and reduce the frequency of rear-end or loss-of-control 
crashes, such as the one that occurred in Baltimore. In support of this 
effort, last year we recommended that NHTSA require, and that all 
school bus manufacturers install, collision avoidance systems with 
automatic emergency braking as standard equipment in all newly 
manufactured school buses.\24\
---------------------------------------------------------------------------
    \24\ NTSB Safety Recommendations H-18-8 [https://www.ntsb.gov/
investigations/AccidentReports/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=H-18-008] and -19 [https://www.ntsb.gov/
investigations/AccidentReports/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=H-18-019].
---------------------------------------------------------------------------
                               Conclusion
    Although school buses are extremely safe, more needs to be done to 
ensure that our most vulnerable road users--our children--arrive at 
school and home again safely. Our investigations have shown that 
improved occupant protection, driver oversight, pedestrian safety, fire 
protection, and collision avoidance technologies are needed to prevent 
crashes, deaths, and injuries on the nation's roadways. Thank you for 
this opportunity to discuss our recommendations for improving school 
bus safety. I would be pleased to answer any questions you might have.

    Ms. Norton. Thank you, Dr. Poland.
    Mr. Benish, president and COO, Cook-Illinois Corporation, 
is testifying on behalf of the National School Transportation 
Association.
    You may proceed for 5 minutes.
    Mr. Benish. Good afternoon, Chairwoman Norton, Ranking 
Member Davis, Chairman DeFazio, Ranking Member Graves, members 
of the subcommittee. Thank you for calling this hearing today 
and the invitation to testify.
    My name is John Benish, Jr. I am the president and chief 
operating officer of Cook-Illinois Corporation based in Oak 
Brook, Illinois.
    I would like to also acknowledge my wife, Christine, who is 
here with me today.
    My dad, John Benish, Sr., started a company in 1958 with 75 
buses. Today the company operates 2,200 schoolbuses, and we 
transport over 100,000 children each day in the Chicagoland 
area.
    I started in the business as a teenager and have worked 
nearly every position, including CDL-licensed driver, and 
occasionally you will even see me driving one of our buses to 
keep in touch with our drivers and our students.
    I am here today on the behalf of the National School 
Transportation Association, the trade association for private 
schoolbus companies that provide schoolbus service under 
contract. Private companies provide approximately 38 percent of 
the Nation's schoolbus service.
    I just became the new president yesterday at our annual 
meeting in Austin, Texas.
    We have a saying in our industry that we bleed yellow, 
which signifies our commitment to safety for the children we 
transport. Each day nearly 500,000 schoolbuses transport over 
26 million students to and from school, more than intercity 
transit, rail and aviation combined. According to DOT, the 
schoolbus is the safest form of surface transportation, and 
NHTSA states the schoolbus is the safest vehicle on the road.
    Schoolbuses operate in road and highway environments where 
approximately 37,000 fatalities occur annually. Schoolbus 
transportation averages only four to six occupant fatalities 
annually, which is .01 percent of the total fatalities.
    We mourn with the entire school transportation community 
and families when these rare instances occur and attempt to 
learn from these accidents to ensure continued safe student 
transportation.
    Despite the unparalleled safety record of schoolbus 
transportation, children remain vulnerable during the portion 
of the trip when they are waiting at bus stops, crossing 
streets, and loading and unloading from the schoolbus. DOT 
statistics show an average of 22 students are killed annually 
outside of the schoolbus compared to the average of 4 to 6 
students who are killed inside the schoolbus.
    Passing of stopped schoolbuses, illegal in all 50 States, 
has reached epidemic proportions. Observational surveys 
indicate an estimated 15 million vehicles illegally pass 
stopped schoolbuses in a 180-day school year.
    Sometimes pictures speak louder than words. So at this 
point, I would like to ask you to view this short video clip of 
an illegal passing incident that occurred with one of our 
members in New Jersey last December.
    [Video played.]

                                 <F-dash>
 ``Illegal Passing Video, Student Injury--New Jersey,'' Submitted for 
                the Record by Hon. Eleanor Holmes Norton
    [The video referenced includes graphic content.]
    https://www.youtube.com/watch?v=rlhKsR8ZdXQ&feature=youtu.be

    Mr. Benish. This child walked away with a few broken bones, 
but sometimes illegal passing has tragic consequences.
    Last October in Rochester, Indiana, three children from one 
family were killed by an oncoming driver who failed to stop as 
the kids were crossing the road to board the schoolbus.
    These tragedies can be prevented. We believe this is the 
most important issue facing the schoolbus transportation 
industry, eclipsing all others. This is why we are 
enthusiastically supporting the bipartisan bill introduced in 
the House by Representatives Walorski and Brownley, the Stop 
for School Buses Act.
    I would like to ask for a revised support letter from 
multiple additional associations to be inserted into the 
record.
    If we are serious about saving more children's lives, this 
is the issue to tackle.
    Regarding seatbelts in schoolbuses, we believe this issue 
is most appropriately decided at the State and local level 
closest to the funding streams for school transportation, and 
where all ramifications of the decision to mandate schoolbuses 
can be fully examined.
    NHTSA has refused to mandate schoolbus seatbelts on large 
buses at the Federal level due to the fact that it would force 
more children into more unsafe modes of transportation. As 
communities are compelled to make difficult budget decisions, 
we stand with NHTSA on this issue.
    We look forward to continued work with the committee toward 
the common goal of keeping our children safe.
    Thank you for the opportunity to testify, and I look 
forward to answering any of your questions.
    [Mr. Benish's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of John Benish, Jr., President and Chief Operating 
 Officer, Cook-Illinois Corporation, on behalf of the National School 
                       Transportation Association
    Chairwoman Norton, Ranking Member Davis, Chairman DeFazio, Ranking 
Member Graves, and Members of the Subcommittee, on behalf of the 
National School Transportation Association, thank you for calling this 
hearing today and the invitation to testify. This Committee has a long 
and distinguished record of promoting safety on our roadways, and 
nothing is more important than keeping our children safe in the yellow 
school bus going to and from school.
    My name is John Benish, Jr. and I am President and Chief Operating 
Officer for Cook-Illinois corporation headquartered in Oak Brook, 
Illinois. Cook-Illinois is a family-owned and operated school bus 
transportation company established in 1951. My Dad, John Benish Sr., 
joined the company in 1958. Beginning with 75 school buses, the company 
has grown to be one of the largest family-owned and operated school bus 
contractors in the nation operating over 2200 school buses and 
transporting over 100,000 children each day in and around the Chicago 
area. I started in the business as a teenager and have worked nearly 
every position in the business, including as a CDL-licensed driver. 
Occasionally you will even see me driving one of our buses to keep in 
touch with the drivers and the students. For nearly 70 years our 
company has provided superior service to the school districts we serve. 
We are members of the Illinois School Transportation Association and 
the Illinois Association for Pupil Transportation.
    I am here today on behalf of the National School Transportation 
Association (NSTA), the trade association for private school bus 
companies that provide school bus service under contract. Private 
companies provide approximately 38% of the nation's school bus service. 
I have served on its Board of Directors for 10 years and just became 
its new President yesterday at its annual meeting in Austin, Texas.
    My family's business has been successful not just because we have 
followed sound business practices, but because our focus has always 
been on our communities and, most importantly, our precious cargo--the 
children we transport to and from school every day. We have a saying in 
our industry that we ``bleed yellow,'' which signifies our commitment 
to the safety of the children we transport. School transportation is a 
uniquely American industry, and it is part of our country's commitment 
to a free public education. Each day, nearly 500,000 school buses 
transport over 26 million school children to and from school--more than 
inter-city and intra-city bus transportation, rail and aviation 
combined.
    While this hearing is focused on safety, I'd like to mention that 
school buses are not only safe, they are also environmentally friendly. 
They help ease congestion, save energy and reduce pollution by taking 
an average of 36 cars off the road for each trip. Taken together this 
represents 17 million fewer cars and a savings of 20 million tons of 
CO2 each year. The technology of today's school bus is tremendously 
improved, incorporating clean engine and emission reduction 
technologies. Our company has been at the forefront of environmental 
issues by powering our school buses using more costly but cleaner 
alternative fuels over our history, starting with CNG, then propane and 
four years ago, to bio-diesel. NSTA is committed to green 
transportation through its Green Fleet certification program which was 
established in cooperation with EPA and an annual Go Yellow Go Green 
award which recognizes one company that has shown outstanding 
leadership in environmental stewardship. I am proud to say that my 
company won this award in 2016.
    According to DOT statistics, the school bus is the safest form of 
surface transportation. The website of the National Highway Traffic 
Safety Administration states, ``The school bus is the safest vehicle on 
the road''. School buses operate in an array of road and highway 
environments where approximately 37,000 fatalities occur annually 
(National Highway Traffic Safety Administration (NHTSA) 2017 FARS 
data). In the midst of this environment, the school bus industry 
averages only 4-6 occupant fatalities annually, which is 0.01% of the 
total fatalities. NSTA mourns with the entire school transportation 
community and families when these rare incidents occur and attempts to 
learn from these accidents to ensure continued safe student 
transportation.
    This remarkable safety record is no small achievement and requires 
vigilance and safe practices from the men and women that drive, 
maintain, own, operate and manufacture our equipment, as well as the 
men and women that enforce traffic safety laws on our Nation's roads 
and highways. School buses are among the most regulated forms of 
transportation in the country and rightly so given the precious cargo 
they carry. School buses have unique design and safety features built 
in as well as dedicated and specially trained drivers. The U.S 
Department of Transportation's National Highway Traffic Safety 
Administration (NHTSA) and the Federal Motor Carrier Safety 
Administration (FMCSA) play an important role in ensuring the vehicle, 
operators and drivers are all safe, as well as the National 
Transportation Safety Board (NTSB) that investigates accidents, and all 
50 States. All these elements contribute to ensuring school bus 
transportation's extraordinary safety record.
    Despite the unparalleled safety record of school bus 
transportation, school bus riders remain vulnerable during the portion 
of their trip when they are waiting at bus stops, crossing streets and 
loading or unloading from the school bus. DOT statistics show an 
average of 22 students are killed annually outside the school bus, 
compared to an average of 4-6 students who are killed inside the school 
bus. Passing of stopped school buses during loading or unloading, 
illegal in all 50 States, has reached epidemic proportions. In the most 
recent annual observational survey in 2018, 105,306 school bus drivers 
in 38 States reported 83,944 vehicles illegally passed their stopped 
school buses in ONE day. Based on these observations, an estimated 15 
million vehicles illegally pass stopped school buses in a 180-day 
school year. The problem is likely much worse, because this alarming 
figure does not factor in illegal passing that may have been 
experienced among the other 80% of the nation's school bus drivers who 
were unable to participate in the voluntary national survey. 
[www.nasdpts.org/StopArm/2018/index.html]
    Sometimes pictures speak louder than words, so at this point I'd 
like to ask you to view this short video clip of an illegal school 
passing incident that occurred with one of our members in New Jersey 
last December: [https://www.youtube.com/
watch?v=rlhKsR8ZdXQ&feature=youtu.be] This child walked away with a few 
broken bones, but sometimes illegal passing can have tragic 
consequences. Last October, in Rochester, Indiana, three children from 
the same family were killed by an oncoming driver who failed to stop as 
the kids were crossing the road to board their school bus. These 
tragedies CAN be prevented.
    NSTA believes this is the most important school bus issue facing 
the school transportation industry, eclipsing all others. This is why 
we are enthusiastically supporting a bipartisan bill introduced in the 
House and Senate by Congresswomen Walorski and Brownley, the STOP for 
School Buses Act (STOP Act) (HR 2218), and Senators Young and Peters, 
(S. 1254), to address this issue of illegal passing of school buses. 
The bill directs DOT to review state laws, enforcement and penalties, 
technology, driver education, distraction and all issues that are 
impacting this illegal activity. It calls upon DOT to create a public 
safety messaging campaign on the danger of illegally passing stopped 
school buses. The bill does not predetermine any solutions but asks DOT 
to do a full evaluation of all aspects of this issue and make best 
practice recommendations. The bill has a growing list of cosponsors in 
both chambers, is supported by our partners in the school bus industry, 
the National Association of Pupil Transportation and the National 
Association of State Directors of Pupil Transportation, national, State 
and regional private bus and school bus associations across the country 
and the National Education Association. I have attached these letters 
of support at the end of my testimony. We look forward to working with 
this Committee and the rest of Congress to see this bill enacted into 
law as soon as possible or as part of a surface transportation 
reauthorization bill. If we are serious about saving more children's 
lives this is the issue to tackle.
    I'd like to address another issue that is periodically debated here 
in Congress and in the general public, and that is the issue of seat 
belts in school buses. NSTA is aware of a bill introduced in the House 
by Congressman Gottheimer in May, the Secure Every Child Under the 
Right Equipment Standards Act (SECURES Act--HR 2792) in May to mandate 
seat belts on school buses. NSTA believes this issue is most 
appropriately decided at the State and local level closest to the 
funding streams for school transportation and where all ramifications 
of a decision to mandate belts can be fully examined as school bus 
transportation is not funded at the federal level. Unfunded mandates 
that increase costs of school buses often put States in the position of 
reducing school bus service and giving less children access to the 
safest mode of transportation to school. We know from DOT statistics 
that children who travel to school by walking, bicycle, parents' or 
friend's car, or driving themselves have crashes and fatalities at far 
higher rates than in a yellow school bus, with or without belts. NSTA 
believes as many children as possible should have access to safest mode 
of transportation and service should not be reduced to fund new buses 
with seat belts. NSTA does not support a federal mandate unless 
accompanied by full funding to which public and private providers have 
equal access. Lap shoulder belts are only appropriate consideration and 
we do not support any requirement to retrofit as it could compromise 
structural integrity of the bus.
    It is quite noteworthy that the National Highway Traffic Safety 
Administration, the agency charged with keeping people safe on the 
nation's roadways, has declined to mandate seat belts on large school 
buses at the federal level due to the fact that it would force more 
children into more unsafe modes of transportation as communities are 
compelled to make difficult budget decisions. The latest pronouncement 
was from 2011 when NHTSA denied a petition for rulemaking to mandate 
seat belts on new large school buses. [https://www.regulations.gov/
document?D=NHTSA-2011-0131-0001] In the Denial, NHTSA stated, ``We are 
denying the petition because we have not found a safety problem 
supporting a Federal requirement for lap/shoulder belts on large school 
buses, which are already very safe. The decision to install seat belts 
on school buses should be left to State and local jurisdictions, which 
can weigh the need for, benefits and consequences of installing belts 
on large school buses and best decide whether their particular pupil 
transportation programs merit installation of the devices.'' NHTSA also 
stated, ``We estimated that lap/shoulder seat belts would save about 2 
lives per year and prevent about 1,900 crash injuries, of which 97 
percent are minor/moderate severity (mainly cuts and bruises), assuming 
every child wore them correctly on every trip.'' ``Under the described 
conditions, the Agency estimates that the increased risk from students 
finding alternative, less safe means of getting to and from school 
could result in an increase of 10 to 19 school transportation 
fatalities annually.''
    NHTSA's statements show that the unintended effect of requiring 
seat belts on large school buses could endanger more children (10 to 
19) than it would potentially benefit (2). It is for these reasons that 
NSTA stands with the nation's federal agency charged with ensuring 
vehicle safety and believes seat belts on school buses should be 
decided at the Federal level but should be a State and local decision.
    I have also attached a link to a Louisiana School Transportation 
Task Force report from 2017 which took an exhaustive look at this issue 
and declined to mandate belts without funding or attendants [https://
goo.gl/rGscND] and a recent report from this Committee's counterpart in 
Canada, the House of Commons Standing Committee on Transportation, 
Infrastructure and Communities, on Bus Passenger Safety issued just 
last month which declined to mandate seat belts on school buses. 
[https://www.ourcommons.ca/DocumentViewer/en/42-1/TRAN/report-31/page-
57#9]
    There are other issues that have come up over the last few years 
that I will touch on briefly. Regarding driver training, NSTA 
participated as a member of FMCSA's Negotiated Rulemaking Advisory 
Committee on Entry Level Driver Training and supports its conclusions. 
NSTA also supports efforts to assure that school bus drivers are fully 
trained in school bus operations and emergency procedures. NSTA 
supports periodic certification of driver physical fitness and periodic 
evacuation training for drivers and students. NSTA believes sleep apnea 
and other sleep disorders are being adequately addressed in driver 
physicals and it is not necessary to create a separate prescriptive and 
burdensome regulatory schematic for screening, testing and treatment. 
NSTA generally supports the employer notification systems for drivers 
that are currently operated by States but has concerns with 
complexities with that being done at the national level, but wants to 
work with the Committee on this issue. NSTA supports the CDL Drug and 
Alcohol Clearinghouse Database as it will serve to provide operators 
the necessary tools to identify drivers who should not be behind the 
wheel.
    NSTA consistently works with its Federal and State regulatory 
agencies and legislative bodies towards common-sense initiatives to 
improve pupil transportation safety. Whenever NSTA evaluates new laws 
or regulations affecting school bus equipment, technology, operators, 
drivers or practices, we evaluate them with the simple formula that 
they must be proven to increase safety while keeping as many children 
as possible in the yellow school bus. Well-meaning initiatives should 
not have the unintended effect of reducing the availability of yellow 
buses, thereby forcing more children into less safe modes of 
transportation for their trips to and from school. We look forward to 
continuing to work with this Committee towards the common goal of 
keeping our children safe.
    On behalf of the National School Transportation Association, thank 
you for the opportunity to testify before this Subcommittee. I look 
forward to answering any of your questions.
                              Attachments:
    <bullet>  NSTA/NAPT/NASDPTS Letter in Support of STOP Act
    <bullet>  National Education Association letter in Support of STOP 
Act
    <bullet>  National, State and Regional Private Bus and School Bus 
Associations letter in Support of STOP Act

                               __________
            nsta/napt/nasdpts letter in support of stop act
    Dear Member of Congress:
    The National School Transportation Association (NSTA), the National 
Association for Pupil Transportation (NAPT), and the National 
Association of State Directors of Pupil Transportation Services 
(NASDPTS) request your help in addressing an important school bus 
safety issue, illegal passing of stopped school buses.
    Collaboratively, our three organizations represent the nation's 
school transportation community, including all operators of school 
buses both public and private and state regulators of school buses. We 
are specifically requesting your co-sponsorship of the STOP for School 
Buses Act of 2019 (H.R.2218/S.1254), introduced in the House by 
Congresswomen Jackie Walorski (R-IN) and Julia Brownley (D-CA), and in 
the Senate by Senators Todd Young (R-IN) and Gary Peters (D-MI). This 
bipartisan legislation calls upon the Department of Transportation to 
undertake a comprehensive review of all issues involved with illegal 
passing of school buses and make recommendations to Congress on best 
practices to deal with this pervasive, national safety problem.
    The bill directs DOT to review state laws, enforcement and 
penalties, technology, driver education, and distraction. It calls upon 
DOT to create a public safety messaging campaign on the danger of 
illegally passing stopped school buses. The ongoing efforts of the 
National Highway Traffic Safety Administration (NHTSA) to study illegal 
passing and develop safety countermeasures are recognized and 
appreciated. We believe guidance from Congress will enable NHTSA to 
broaden its efforts on all aspects of illegal passing and expedite best 
practice recommendations.
    School bus transportation remains the safest form of transportation 
compared to all other modes, according to DOT statistics. Children are 
70 times safer going to and from school in a yellow school bus than by 
walking, biking, being driven by parents, or, especially, as occupants 
of vehicles driven by teenagers. Despite the unparalleled overall 
safety record of school bus transportation, school bus riders remain 
vulnerable during the portion of their trip when they are waiting at 
bus stops, crossing streets, and loading or unloading from the school 
bus. Passing of stopped school buses, illegal in all 50 states, has 
reached epidemic proportions. In the most recent annual observational 
survey in 2018, 105,306 school bus drivers in 38 states reported 83,944 
vehicles illegally passed their stopped school buses in one day. Based 
on these observations, an estimated 15 million vehicles will illegally 
pass stopped school buses in a 180-day school year. The problem is 
likely much worse, because this alarming figure does not factor in 
illegal passing that may have been experienced among the other 80 
percent of the nation's school bus drivers who were unable to 
participate in the voluntary national survey. [http://www.nasdpts.org/
StopArm/index.html].
    Illegal passing can have tragic consequences. Last October, in 
Rochester, Indiana, three children from the same family were killed by 
an oncoming driver who failed to stop as the kids were crossing the 
road to board their school bus. These tragedies CAN be prevented.
    We look forward to your support of the STOP for School Buses Act. 
Thank you for your consideration of this important issue.
        Sincerely,
                                                Blake Krapf
              President, National School Transportation Association
                               Barry R. Sudduth, CDPT, CSNT
           President, National Association for Pupil Transportation
                                         Michael A. LaRocco
       President, National Association of State Directors of Pupil 
                                            Transportation Services

                               __________
                               
      national education association letter in support of stop act
                                                      July 1, 2019.
Hon. Jackie Walorski
United States House of Representatives, 419 Cannon House Office 
        Building, Washington, DC 20515

    Dear Representative Walorski:
    On behalf of our 3 million members and the 50 million students they 
teach, support, and protect, the National Education Association thanks 
you for introducing the Stop for School Buses Act, H.R. 2218. We 
applaud you for calling attention to something that has become all too 
commonplace: the dangerous passing of stopped school buses that are 
transporting students to or from school.
    Your bill seeks to better-safeguard students by requiring the U.S. 
Department of Transportation to take several steps, including:
    <bullet>  Compiling existing laws and indicating their levels of 
enforcement and penalties;
    <bullet>  Reviewing existing public safety measures and programs to 
prevent dangerous passing of school buses;
    <bullet>  Recommending best practices for preventing dangerous 
passing; and
    <bullet>  Creating a public safety campaign to promote safe driving 
when students are present.

    By gaining a thorough understanding of the laws on passing stopped 
school buses, analyzing which are more or less effective, and providing 
a set of best practices and recommendations, we can do more to protect 
our students and avoid tragedies like the one that occurred in Indiana 
last year. The NEA is proud to support this legislation and, once 
again, appreciates your attention to this important issue.
        Sincerely,
                                                  Marc Egan
   Director of Government Relations, National Education Association

                               __________
 national, state and regional private bus and school bus associations 
                     letter in support of stop act
    Dear Member of Congress:
    The national, regional and State school bus and bus associations on 
this letter request your help in addressing an important school bus 
safety issue, illegal passing of stopped school buses. We are 
specifically requesting your co-sponsorship of the STOP for School 
Buses Act of 2019 (H.R.2218/S.1254), introduced in the House by 
Congresswomen Jackie Walorski (R-IN) and Julia Brownley (D-CA) and in 
the Senate by Senators Todd Young (R-IN) and Gary Peters (D-MI). This 
bipartisan legislation calls upon the Department of Transportation to 
undertake a comprehensive review of all issues involved with illegal 
passing of school buses and make recommendations to Congress on best 
practices. The bill directs DOT to review state laws, enforcement and 
penalties, technology, driver education, distraction and create a 
public safety messaging campaign on illegal passing of stopped school 
buses.
    School bus transportation remains the safest form of transportation 
over all other modes, according to DOT statistics. Children are 70 
times safer going to and from school in a yellow school bus than by 
walking, biking, being driven by parents in cars or teens driving 
themselves. However, passing of stopped school buses, illegal in all 50 
States, has reached epidemic proportions. In the most recent annual 
one-day observational survey in 2018, 105,306 school bus drivers in 38 
states reported 83,944 vehicles illegally passing a stopped school bus 
in one day. Based on these observations, an estimated 15 million 
vehicles will illegally pass stopped school buses in a 180-day school 
year. [http://www.nasdpts.org/StopArm/]
    Illegal passings can have tragic consequences. Last October, in 
Rochester, Indiana, three children from the same family were killed by 
an oncoming driver who failed to stop as the kids were crossing the 
road to board their school bus. These tragedies CAN be prevented. We 
look forward to your support of the STOP for School Buses Act.
    Thank you for your consideration of this important issue.
        Sincerely,

 
 
 
Alabama Motorcoach Association              National Association of
                                             Motorcoach Operators
Asian-American Motorcoach Association       National School
                                             Transportation Association
Bus Association of New York State           New Jersey School Bus
                                             Contractors Association
California Bus Association                  New York School Bus
                                             Contractors Association
California School Transportation            North Carolina Motorcoach
 Association                                 Association
Connecticut School Transportation           Northwest Motorcoach
 Association                                 Association
Georgia Motorcoach Operators Association    Pennsylvania Bus Association
Maryland Motorcoach Association             Pennsylvania School Bus
                                             Association
Maryland School Bus Contractors             School Transportation
 Association                                 Association of
                                             Massachusetts
Midwest Bus and Motorcoach Association      Tennessee Motor Coach
                                             Association
Minnesota Charter Bus Operator's            The Greater New Jersey
 Association                                 Motorcoach Association
Minnesota School Bus Operators Association  United Motorcoach
                                             Association
Montana School Bus Contractors Association  Wisconsin School Bus
                                             Association
Motorcoach Association of South Carolina
 


    Ms. Norton. Thank you, Mr. Benish.
    President Anne Ferro, American Association of Motor Vehicle 
Administrators, you may proceed.
    Ms. Ferro. Thank you, Madam Chair.
    Chair Norton, Ranking Member Davis, thank you for the 
opportunity to be here today with this distinguished panel to 
speak on the important issue of schoolbus safety.
    I am here on behalf of AAMVA, a tax-exempt, nonprofit 
organization that develops model programs in motor vehicle 
administration, law enforcement, and highway safety. Our 
mission is to support the State and Provincial and Territorial 
officials in the U.S. and Canada who administer and enforce 
motor vehicle laws.
    Our North Star is safety, safe divers, safe vehicles, 
secure identities, and saving lives. With our members' 
guidance, we develop programs to encourage uniformity and 
reciprocity in the administration of these challenges across 
State and international borders.
    A good illustration of AAMVA's work is in our support of 
our State members and their efforts to comply with national 
laws governing commercial drivers, just one example. In that 
role, the supporting role, we support and facilitate the 
development of best practices on CDL testing. We facilitate an 
understanding and communication on Federal requirements and 
those changes that come about periodically, and we work on both 
building and supporting and operating the IT applications and 
networks across which CDL driver convictions, suspensions, and 
other cancel actions are transmitted, otherwise known as CDLIS.
    We rely heavily on our jurisdiction members to guide our 
association's work, and we consider the DMVs and highway safety 
agency members to be the experts in these areas.
    So with this in mind and understanding we have got a very 
distinguished panel of jurisdiction leaders at the table, far 
more qualified to speak on their State-specific programs, I 
have limited my written comments to several national programs 
in which AAMVA may or may not or is currently involved: the 
national employer notification system, the concept or I should 
say the transmission of driver medical fitness data, and some 
background in that written testimony on the Commercial Driver's 
License Information System and network across which so much of 
that travels.
    I look forward to the committee's discussion and your 
questions, and thank you again for the opportunity to join this 
panel today.
    [Ms. Ferro's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Anne Ferro, President and Chief Executive 
     Officer, American Association of Motor Vehicle Administrators
                              Introduction
    Chairman Norton, Ranking Member Davis, thank you for the 
opportunity to speak on the important issue of school bus safety and 
protecting children. According to the National Highway Traffic Safety 
Administration, the school bus remains the safest method of 
transporting children to school by far. We must continue our efforts to 
make that so in every way, including driver fitness.
    The American Association of Motor Vehicle Administrators (AAMVA) is 
a tax-exempt, nonprofit organization that develops model programs in 
motor vehicle administration, law enforcement, and highway safety. The 
association also serves as an information clearinghouse in these areas.
    Founded in 1933, AAMVA represents the state, provincial and 
territorial officials in the United States and Canada who administer 
and enforce motor vehicle laws. AAMVA's programs encourage uniformity 
and reciprocity among the states, provinces and territories.
    The majority of our members work directly with federal and state 
safety partners, thus AAMVA relies heavily on its state members to 
guide the direction of the association's work with respect to 
commercial driver safety. They are, and always will be, the experts. 
While Congress has established federal requirements establishing a 
commercial vehicle operator safety framework, many of our state members 
have implemented additional laws and regulations to fill additional 
safety gaps, particularly regarding school bus operations. With this in 
mind, and understanding our state members are more qualified to speak 
on their state-specific programs, AAMVA will focus on the national 
program efforts concerning an Employer Notification Systems (ENS) and 
driver medical fitness with background on the Commercial Driver License 
Information System (CDLIS).
                      Employer Notification System
    In 2016, AAMVA developed a report [https://www.fmcsa.dot.gov/sites/
fmcsa.dot.gov/files/docs/registration/commercial-drivers-license/
396341/aamva-ens-design-and-best-practices-recommendations-ver-102.pdf] 
entitled, ``Employer Notification System Design and Best Practices 
Recommendations'' for the Federal Motor Carrier Safety Administration 
(FMCSA). Under the Commercial Motor Vehicle Safety Act of 1986 (CMVSA), 
within 30 days of a conviction for any traffic violation, except 
parking, a commercial vehicle operator must notify their employer, 
regardless of the nature of the violation or the type of vehicle which 
was driven at the time. If an operator's commercial driver's license 
(CDL) is suspended, revoked, canceled, or if they are disqualified from 
driving, the driver must notify their employer within one business day 
following notice. Prior research has estimated that only 50 to 80 
percent of commercial drivers actually self-report. As a result, 
employers may unknowingly use a driver whose license is suspended.
    The current regulatory requirement is for motor carriers to 
annually check the driving history record of their drivers. As a 
result, if a driver does not self-report, it could take up to 364 days 
for the disqualifying event to be discovered. In the commercial motor 
vehicle operations safety net envisioned under federal law and overseen 
by FMCSA, employers are responsible for monitoring and taking action on 
their employees. However, the availability of driver data for employers 
could be improved to allow for real-time, automatic notification of 
convictions or disqualifying events. This type of an effort would 
entail additional federal investment in supporting states' efforts to 
improve their safety systems and automated reporting through an 
Employer Notification System (ENS).
    In 2007, a pilot ENS program was conducted in Colorado and 
Minnesota to assess the feasibility, costs, safety impacts, and 
benefits of such a system; and to assess methods for efficient exchange 
of driver safety data from existing state systems. This system allowed 
motor carriers to register, with the driver's expressed permission, to 
receive timely electronic notification of convictions and suspensions. 
Other states have independently pursued their own ENS systems. FMCSA 
provides [https://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/
registration/commercial-drivers-license/405406/jurisdictional-ens-
implementation-final.pdf] an updated listing of Employer Notification 
Services by state.
    Congress supported efforts to establish an employer notification 
system for commercial drivers by establishing section 32303 of the 
Moving Ahead for Progress in the 21st Century Act (MAP-21). That 
section would permit employers to satisfy the requirements to check 
their drivers' histories annually by ``receiving occurrence-based 
reports of changes in the status of a driver's record from one or more 
driver record notification systems that meet minimum standards issued 
by the Secretary.'' For most states that would include continuing the 
best practice of an annual driver history record as well.
    At the request of FMCSA, AAMVA researched potential options on how 
an ENS system might work in 2016. This included the following options:
      Solution 1 --Each jurisdiction builds its own ENS using common 
standards
      Solution 2 --Build a national ENS that jurisdictions can 
participate in.
        Option 1 --Build a national ENS independent of the Commercial 
Driver License Information System (CDLIS).
        Option 2 --Build a national ENS leveraging the AAMVAnet network 
and CDLIS.

    The AAMVA membership discussed and analyzed the various options and 
recommended that if a national ENS system were to be pursued and 
developed, it utilize the existing networking capabilities of CDLIS. 
While the membership discussed these as potential options, they did so 
under the assumption that participation be voluntary and take into 
account the numerous state-specific requirements of their driver 
systems. There are also several private sector entities that specialize 
in providing driver histories to the CMV industry who would be capable 
of building such a solution.
                        CDL and Medical Fitness
    With respect to medical fitness of commercial drivers, states rely 
upon the federal oversight of ensuring driver fitness. One of FMCSA's 
tools to do this is by setting standards for qualified medical 
professionals and tracking them through the federal National Registry 
of Certified Medical Examiners (NRCME). Medical examiners perform the 
function of evaluating and qualifying a driver for duty. CMV operators 
are required to have that evaluation performed and submitted in a 
timely manner. The evaluation is conducted by a U.S. DOT certified 
medical examiner who is required to submit qualification information to 
the state driver's license agencies as a prerequisite for licensure. 
This process is partially automated through the NRCME and eventually 
will be fully automated so the record of medical fitness will be 
submitted and accessed electronically by all parties, including 
roadside enforcement.
    In addition to facilitating driver testing standards, AAMVA's role 
in support of CDL driver fitness is primarily one of enabling 
confirmation and exchange of information that a driver has a valid 
medical certification on record with the state of license. When 
enabled, the exchange of this data among states will be made through 
the Commercial Driver License Information System (CDLIS). Under its 
Medical Examiner's Certification Integration final rule, U.S. DOT-FMCSA 
is working to make this an electronic process, but the system is 
currently not fully available for the exchange of information between 
medical examiners and state driver licensing agencies.
         Commercial Driver's License Information System (CDLIS)
    CDLIS is a nationwide computer system that enables state driver 
licensing agencies to ensure each commercial driver has only one 
driver's license and one complete driver record. AAMVA's role as 
operator of the CDLIS system is based upon a cooperative agreement with 
the U.S. Department of Transportation's Federal Motor Carrier Safety 
Administration (FMCSA).
    State driver licensing agencies use CDLIS to complete various 
procedures, including:
    <bullet>  Transmitting out-of-state convictions and withdrawals for 
commercial drivers
    <bullet>  Transferring the driver record when a commercial driver's 
license holder moves to another state
    <bullet>  Responding to requests for driver status and history.

    CDLIS was established under the Commercial Motor Vehicle Safety Act 
(CMVSA) of 1986 [https://www.congress.gov/bill/99th-congress/senate-
bill/1903] and is based on the Federal Commercial Motor Vehicle Safety 
Act (CMVSA) of Motor Carrier Safety Regulations (FMCSRs) in 49 CFR 383 
and 384 [https://www.fmcsa.dot.gov/regulations/title49/b/5/3].
    Authorized users can report and access commercial driver 
identification information, commercial driver's license information, 
and driver history information needed to regulate commercial drivers in 
the U.S. CDLIS enables the jurisdictions to satisfy the requirements of 
federal laws and regulations related to commercial drivers [https://
www.fmcsa.dot.gov/registration/commercial-drivers-license].
    The state driver license agency maintain records of the drivers 
they license. A state will host databases, application programs, and 
system software to support its CDLIS functions and maintain its 
``pointer'' records on the CDLIS Central Site. ``Pointer'' records 
consist of the driver's name, date of birth, social security number 
(last 5 digits), driver's license number and state.
    Authorized Federal and State government agencies and personnel may 
also access CDLIS to utilize CDL-related information for compliance and 
enforcement monitoring and analysis.
    Third party service providers can access CDLIS on behalf of 
employers of commercial drivers to obtain the list of jurisdictions 
where the driver is/was licensed. Once the jurisdictions are 
identified, the service providers must contract with the individual 
jurisdictions to obtain additional driver data/information. Authorized 
employers or third party service providers can retrieve the basic 
identification data from the CDLIS Central Site. Based on this 
information, the employers or third party service providers can make 
inquiries to the jurisdictions they have contracts with to obtain 
driver status and history.
    Information on Mexican CDL holders is accessible by U.S. 
jurisdictions. Jurisdictions can post convictions and withdrawals to 
Mexican driver records via the FMCSA foreign convictions and 
withdrawals database which as a gateway to CDLIS. The U.S. and Canadian 
jurisdictions can also exchange driver status data within the 
allowances of their data privacy laws.
    AAMVA thanks the Committee for its consideration, the opportunity 
to testify, and its continued dedication towards improving safety. We 
stand as partners in this effort and look forward to continued dialogue 
on how to improve safety for all road users.

    Ms. Norton. Thank you, President Ferro.
    Secretary-Treasurer Matthew Condron, Teamsters Local 384, 
Norristown, Pennsylvania. Please step forward.
    Mr. Condron. Chairwoman Norton, Chairman DeFazio, Ranking 
Member Davis, members of the subcommittee, thank you for having 
me here to testify today.
    My name is Matt Condron, and I am the secretary-treasurer 
of Teamsters Local 384 out of Norristown, Pennsylvania.
    I also work as a member of the First Student National 
Master Agreement Negotiating Committee for the Teamsters, where 
I set up national contracting goals and policies for Teamster 
schoolbus drivers across the country.
    I am honored to be here today to convey the safety concerns 
of the more than 30,000 schoolbus drivers, monitors, and 
mechanics we represent. These hardworking men and women who I 
have had an honor of representing for over 18 years need your 
help to make their industry and their jobs safer.
    Federal laws and regulations do almost nothing to help 
schoolbus drivers. Once a schoolbus comes off the manufacturing 
line, there are no Federal rules requiring it to be kept in a 
safe working condition.
    Many people are shocked to learn that the U.S. Government 
plays almost no role in setting minimum standards for schoolbus 
operations in our country. This is a recipe for disaster.
    Private companies whose business is to make money or small 
school districts strapped for cash are often left to decide 
whether investing in safe drivers and new buses is a smart 
financial decision instead of whether it is the right one. This 
should never be just a dollars and cents calculation. It should 
be based on what is safest for our children each and every 
time.
    In my view, many of these problems come down to the lack of 
rules governing schoolbus operations across the country. The 
privatized schoolbus industry gives us a perfect example of 
this. Almost one-third of schoolbus operations in this Nation 
are privatized, but there are no national standards dictating 
what an unsafe or unreasonable bid by the private contractor to 
do this work is.
    Almost any bus company can come off the street and make a 
bid to take your kids to school. Oftentimes this means that 
small ``mom and pop'' bus companies who do not have the money 
to invest in new buses or who do not pay the drivers enough to 
keep qualified people in the driver's seat will come in and 
offer way less than they should to do this work.
    You may think that no school district would accept this 
kind of offer, and I wish you were right, but in many cases, 
school districts are forced by law to accept the lowest bid 
they receive, and for cash-strapped school districts, saving 
money anywhere they can, can be appealing no matter what the 
long-term cost.
    This practice also puts safe and responsible carriers who 
are trying to do the right thing at a disadvantage. Unionized 
carriers who are forced to take care of their buses and reward 
safe drivers are punished for making those investments. They 
are undercut by companies who do not invest in things that 
every bus company should be forced to invest in, proper 
maintenance of their buses, paying drivers a decent wage so 
that good drivers will stick around from year to year, and 
more.
    Safety should not be open for competition. It should be 
something that every school district has to invest in no matter 
what.
    So what can Congress and the Federal Government do to fix 
this? You can make sure there are basic standards in place so 
that no school district falls through the cracks.
    When companies bid on a job, you should make sure they 
actually have enough buses to do the work. When they do not, 
kids are taken to school in overcrowded vehicles, sitting in 
the aisles on top of each other, putting them in enormous 
danger.
    If there is a crash or even a sharp turn on a winding road, 
you need to make sure that anyone bidding on a bus route has a 
real maintenance program in place so that the kids are not 
being taken to school on a bus with a broken stop sign, bald 
tires, broken mirrors, brakes that have never been inspected or 
worse.
    You need to make sure that companies have real driver 
training programs in place so that a driver who just got his 
CDL and has never driven a day in his life knows the basics of 
what to do and what not to do when there are 50 screaming 
children in the back of their bus.
    And most importantly, you need to make sure drivers get a 
decent wage and real benefits so that good, safe drivers want 
to do this job, and once they are here, they stay here. The 
people we ask to drive our children to school are some of the 
lowest paid professional drivers in this country. They make a 
national median wage of $16 an hour and usually do not get to 
work 40 hours in a week. They only get paid for 9 months a 
year, unlike other school employees.
    Many of them cannot afford to take a day off if they are 
too sick to drive, and oftentimes they will be reprimanded or 
fired if they do. Many drivers need to work multiple jobs just 
to make ends meet. So they are exhausted when they show up to 
drive their route.
    Is that how you want someone who is driving your kid to 
school to be treated?
    The lack of Federal oversight of even the most basic safety 
standards for schoolbus drivers puts us all at risk. It is time 
for Congress to take the lead and drive up standards in this 
industry so that no child is put in harm's way on their way to 
school.
    Thank you, and I look forward to your questions.
    [Mr. Condron's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Matthew Condron, Secretary-Treasurer, Teamsters 
                  Local 384, Norristown, Pennsylvania
    Chairwoman Norton, Ranking Member Davis, Members of the 
Subcommittee. My name is Matthew Condron, I am the Secretary-Treasurer 
of Teamsters Local 384 out of Norristown, Pennsylvania, and I also work 
under the Passenger Transportation Division of the International 
Brotherhood of Teamsters as a member of the First Student National 
Master Agreement Negotiating Committee. I have represented school bus 
drivers in Pennsylvania for over 18 years in both the private and 
public sectors. Thank you for inviting me here to represent the safety 
concerns of the over 30,000 school bus drivers, monitors, and mechanics 
represented by the International Brotherhood of Teamsters. Teamster 
drivers and monitors are the first line of defense in making sure our 
kids get to school and back home safely each day. Our International 
Union works closely with many of the top school bus contractors to 
ensure safe and fair working conditions across the country. Our 
national and local contracts with these companies have all translated 
into a safer transportation environment for students nationwide. But we 
can't do it all ourselves. We need your help to hold bus contractors 
and school districts who refuse to meet basic safety standards 
accountable.
               Maintenance, Inspections, and Procurement
    Some of the harrowing stories you may hear about today could have 
been directly prevented by stronger federal oversight and increased 
safety measures on the physical buses being used in our country. In my 
role as a school bus worker representative with the International 
Brotherhood of Teamsters, I have seen what works and what doesn't. At a 
minimum, it takes well-resourced private contractors and well-funded 
school districts to fulfill many of the responsibilities needed to run 
a safe bus fleet. School buses are expensive. The maintenance they 
require to be kept in good operating condition is expensive. The 
prevalence of small ``mom-and-pop'' sized private contractors as well 
as underfunded school districts that don't have the resources to meet 
basic maintenance and procurement needs is a serious problem across the 
industry. But even in areas where the funds are available, it's not a 
guarantee of safe vehicles. Proper maintenance and procurement rules 
need to be put into place, and they need to be actively enforced. Our 
union has identified a number of ways to ensure that buses receive 
proper maintenance and servicing. We have specific remedies outlined in 
our contracts for when there is a failure or possibility of a failure 
to meet these standards. But, we don't represent every school district 
in the country. We believe that the federal government should take a 
stronger role in setting a national floor for operational bus standards 
so that all bus operators are using a fleet that meets a basic level of 
safety.
    Currently, the only federal rules for school bus equipment are 
focused on the manufacturing of school buses. Once buses are being used 
by a company or school district, there is no federal requirement that 
those buses be maintained in safe, working order. Requirements for 
ongoing maintenance of school buses are currently the responsibility of 
individual states, and many times, the privatized school bus company or 
school district themselves. Unfortunately, those maintenance standards 
are often lacking. One driver, working for a small contractor in my 
state of Pennsylvania was concerned about the thoroughness of the state 
safety inspections, specifically the inspection of the brakes on his 
bus. The wheels must be removed to inspect the breaks, so he put 
aluminum foil on his lug nuts on the evening prior to the inspection to 
make sure the wheel was actually being removed, and the brakes were 
actually being inspected. When he returned to work the next day, the 
new state inspection sticker was on his bus, while the aluminum foil 
was still sitting on the lug nuts. While anecdotal, this experience is 
enough for me to urge you to recognize the limits of our current 
system.
    Safety should also not be seen as a competitive advantage that can 
be used by one bus contractor over another. Private contractors often 
underbid one another by refusing to buy new buses for their fleet, or 
by failing to budget for the actual cost of maintenance into their 
contracts. We believe Congress can and should enact minimum contracting 
and procurement standards which school districts and private 
contractors must adhere to in order for any company they hire to be 
eligible to engage in home-to-school transport. This should include 
nationwide inspection and maintenance standards that prescribe 
preventative and corrective maintenance programs. These programs should 
be coupled with fines on privatized school bus companies, school 
districts, and the state agencies charged with completing the 
inspections if they fail to enforce these standards.
                               Fleet Size
    Even under the most comprehensive of inspection regimes, buses will 
sometimes break down. That's a fact of life. It is how these breakdowns 
are handled that is another crucial step for safety. When a bus breaks 
down, it must be taken out of service for maintenance and spare buses 
must be utilized to cover scheduled routes. Contractors must have an 
adequate number of spare buses in rotation in order to ensure that only 
safe buses are put on the road. Without enough quality spare buses, 
contractors and school districts are often left to put unsafe buses on 
the road or double up on routes, putting children at risk in an 
overcrowded bus. Policies should be put in place setting minimum number 
of spare buses any school bus fleet must hold. We believe this number 
should be at least 10-15% of the total fleet. That would drastically 
reduce the risks posed to our students who are being forced to ride on 
overcrowded or unsafe buses. Additionally, the age of a school bus 
directly correlates to the cost of maintenance and rate of equipment 
failure. Limiting the age of school buses on the road to an average 
fleet age of 7 years and capping the age of any bus at 15 years would 
help to prevent school districts and contractors from using unsafe 
buses by pulling those vehicles most likely to break down out of the 
equation entirely.
                  Manufacturing and Capacity Standards
    There are currently no federal regulations limiting the number of 
students who can be loaded onto a school bus at one time. School bus 
manufacturers determine the maximum capacity of their vehicles, often 
by assuming three students can fit on one bench seat, and then 
multiplying that by the number of benches and adding any other seats on 
the bus to that total. Three students on a bench may be appropriate for 
young children, but it is wildly deficient for middle and high school 
students. If older and larger students are loaded onto buses in numbers 
meant for young children, it leads to unsafe situations like students 
sitting on each other's laps or sitting in the aisles. In the event of 
a crash, those students are at a much higher risk of injury than those 
on a bus with an appropriate number of students.
    Some districts and contractors have rightly taken it upon 
themselves to lower the maximum capacity of their buses. But without 
national rules enforcing these sorts of limits, it is another area that 
can be ignored by bad actors. As many school districts look to run 
their bus routes as inexpensively as possible, overcrowding is one of 
the most preventable dangers our students face. Seat belts and other 
pieces of technology aimed at safety become irrelevant if children are 
forced to sit in the aisles.
    Working Conditions and Retention of Qualified School Bus Drivers
    While many preventable tragedies can be traced back to human error, 
the causes of the error must also be closely examined. Many drivers 
working for under-resourced contractors report being pressured to work 
even when they are too sick to do so for fear of retribution or 
discipline. We support a number of proposals to improve driver health 
because they are morally right, and important for safety. This includes 
treatment for those with sleep apnea and other conditions which may 
impede a driver's ability to provide safe transportation for students. 
Unfortunately, in the current state of the industry, many drivers are 
not able to even take a sick day and get properly diagnosed and treated 
for illnesses for fear of harassment or job loss. Many drivers who work 
for small contractors also earn significantly less per hour than 
drivers who work for reputable contractors and are unlikely to be 
covered by health insurance in the first place. Drivers without health 
insurance may not be able to get diagnosed or treated for an illness 
that directly impedes their ability to drive. The ability of a school 
bus driver to maintain their own health must be considered as important 
as the operational condition of the bus itself.
    The pay and scheduling issues inherent with the school bus industry 
also directly contribute to safety on the job. Low pay by many 
companies leads to some drivers working two or more jobs to make ends 
meet, leading to greater fatigue when they show up to drive their bus. 
Scheduling issues are present an enormous hurdle. Many drivers aren't 
able to work as many hours a week as they'd like because of the nature 
of a school's schedule. They don't get paid for the time in between 
their morning and evening routes, and they often don't get paid at all 
when school is out of session. Even many safe and experienced drivers 
who work for reputable, well-resourced contractors leave the industry 
every year when they do not qualify for unemployment insurance in the 
summer months and there is not enough summer work to go around. This 
leads to high turnover in the industry, and new drivers, fresh out of 
training, or without any quality training at all, are learning routes 
as they go and building relationships with the students on the fly. 
This leads to challenges in keeping track of students who the driver 
just met, identifying obstacles outside the bus like a child walking 
through the blind spot, and other issues that become much easier as the 
driver gains more experience on the job.
                               Conclusion
    I am pleased to be here to and help you understand the wide variety 
of safety issues plaguing the school bus industry. The Teamsters are 
committed to working with you to push forward meaningful, national 
safety reforms that keep our nation's students and drivers safe. I look 
forward to your questions.

    Ms. Norton. Thank you, Secretary Condron.
    I am amazed to see that so many schoolbus drivers might not 
even be in anybody's jurisdiction because they have been 
privatized. This is something the committee has to look at.
    I am going to begin with questions. First of all, we heard 
many things that need to be changed and many helpful 
suggestions from you. Now, remembering that we are Federal 
authorities, this is the Congress, and much of the jurisdiction 
lies in the States.
    So I would like to ask each of you as my first question to 
focus on the Federal Government, and I am looking for you to 
indicate what priority do you think Congress should place.
    Of the improvements that are needed, that the Congress 
could implement, which would be your priority?
    Many of you had a number of different kinds of things that 
needed to be done. I am going to start with Mr. McLean and go 
on down the line and ask you that first question.
    What priority for the Congress?
    Mr. McLean. Thank you very much for your question.
    Generally speaking, we prefer, the States prefer a carrot 
versus a stick. One of the great things about our democracy is 
that we have so many laboratories of democracy. Different 
States are exploring different solutions.
    Ms. Norton. So you do not think there is something that the 
Congress can do for a carrot or a stick?
    Mr. McLean. I do think that there are several different 
things that the Federal Government can do. One is research the 
effectiveness of different solutions that States are exploring.
    So one of the things that I mentioned in my testimony was 
exploring the stop-arms. We are exploring the crossing guards.
    There is very little data on what is actually going to 
solve the problem of kids being hurt and killed on and around 
schoolbuses, and so continuing with the research about 
effective strategies is one way the Federal Government can play 
a role.
    Additionally, incentivizing safety programs within States 
is a really important tool to incentivize different States.
    Ms. Norton. I need to go down the line. ``Incentivizing'' 
is a very broad word.
    Ms. Fulton?
    Ms. Fulton. Thank you, Madam Chair.
    From our standpoint, I would prioritize a notification 
system that crosses States. You know, in New Jersey, our 
drivers are driving in other States quite frequently.
    Ms. Norton. Identification systems?
    Ms. Fulton. Notification system. Let me give you an 
example. If a New Jersey driver is convicted outside the State, 
we do get notice that they have got a suspension, and we can 
notify, but if a New York driver offends in our State, that 
notice may be sent through the mail and may take a period of 
time before New York finds out that the schoolbus driver was 
convicted of something that put them over the number of points.
    So we have gotten a lot of support from the American 
Association of Motor Vehicle Administrators, AAMVA, and I am 
sure Ms. Ferro can speak to this, but while there are some ways 
to cross States in terms of identifying a driver that should be 
taken out of that driver's seat----
    Ms. Norton. I am going to get all before my 5 minutes is 
up. But that is a classic thing that the Congress can do. So I 
thank you for that, Ms. Fulton.
    Dr. Poland.
    Ms. Poland. Thank you for the question.
    The NTSB has long advocated for vehicle design aspects 
dealing with crash prevention, stability control systems for 
collision avoidance, automatic emergency braking systems, 
occupant protection.
    Everyone has talked about lap/shoulder belts, passenger 
lap/shoulder belts, and then most recently talking about post-
crash events, so fire protection to----
    Ms. Norton. Those are things that you think Congress and 
only Congress can do?
    Ms. Poland. Vehicle design aspects.
    Ms. Norton. Yes, yes.
    Ms. Poland. We focus those recommendations to NHTSA.
    Ms. Norton. Mr. Benish? Because my time is going to run 
out.
    Mr. Benish. I would say one of the things which I mentioned 
in my testimony is the Stop for School Buses Act, illegal 
passing laws, and we do have a bill that is out there right 
now, and as I mentioned, most----
    Ms. Norton. And you say that the Federal Government can do 
that?
    Mr. Benish. Yes.
    Ms. Norton. OK.
    Mr. Benish. Like I said, the statistics, each day we figure 
there are at least 80,000 illegal passes.
    Ms. Norton. I'm just trying to get the priority.
    Mr. Benish. Yes.
    Ms. Norton. Ms. Ferro.
    Ms. Ferro. Yes, ma'am. In support of Chief Fulton's comment 
regarding oversight of drivers, resources, and tools to ensure 
that States and companies have timely access to driver 
convictions, suspension, cancellation data.
    Ms. Norton. Thank you.
    Secretary Condron.
    Mr. Condron. Yes, just one thing that we do not want to 
look for is there is a shortage of busdrivers generally across 
this country, and legislation that would eliminate or diminish 
the pool of drivers would be a detrimental issue on trying to 
find who is taking these children to school.
    But we agree that there should be a standardization. We 
think the bidding process needs to be adjusted where all 
schools can look at the safety aspects as opposed to accepting 
the lowest bid.
    And the other thing is we believe in certainly bus safety, 
but the standardization of the safety rules across the country 
so that every bidder is bidding the same.
    Ms. Norton. Thank you very much, Secretary Condron.
    Those are very helpful suggestions as we prepare for the 
next bill. It sounds to me that the Federal Government is way 
behind, given those suggestions, on things we can do. So I 
appreciate those suggestions, those recommendations from all of 
you.
    I am going to ask Mr. Davis, our ranking member, if he 
could offer his questions at this time.
    Mr. Davis. Thank you, Madam Chair.
    And thanks, again, to the witnesses. I enjoyed your opening 
testimony.
    Vic Zimmerman, he is the superintendent of the Monticello 
School District in Piatt County, Illinois, and it is in my 
congressional district, and he has been active in ensuring 
children get safely to and from school. He had been 
particularly focused on the role technology can play in keeping 
our children safe when they exit the bus and cross the street.
    In fact, this past January, his school district purchased 
stop-arm cameras to report vehicles illegally passing a 
schoolbus. I know though that he does not want to stop there, 
and he is always looking for new technology to help keep his 
students and our kids safe.
    With that in mind, I want to start with Mr. Benish.
    With that in mind, are there existing technologies that we 
can better utilize to increase safety as children cross the 
street in front of a stopped bus?
    Mr. Benish. Well, what we are looking at right now is 
illegal passing laws, making sure that we look at not only the 
technology as far as radar. We discussed the other day that if 
there is a stopped bus or something with yellows on, just like 
you have a system where ambulances can go right through red 
lights when they make them turn green, a system where that 
would be hooked up to a bus that would talk to all of the cars 
in the area, knowing that there is a slowing down and/or a 
stopped schoolbus.
    But we would also like to do creative public safety 
messaging, and we also would like to do more technology as far 
as training with the drivers.
    Mr. Davis. OK. Anybody else want to take that question, 
technology innovation?
    Mr. Condron. Yes, I will add to that. A little technology, 
it is available out there. A little story real quick is I had a 
schoolbus driver with four first grade boys, and he let three 
off at one stop, and the fourth one at the following stop. One 
day the mom picked up one of the boys to take home herself.
    So the busdriver is on his run. Instead of having three at 
one stop he only had two, but unbeknownst to him, the second 
stop the other one-stop kid got off with the other two. So he 
pulls up to the stop to let three boys off when he only had 
two, and three get off.
    He goes to the following stop, and what does he find? He 
secures the vehicle, and the mom is waiting for her son to get 
off, and there is no child. Where is that child? The mom does 
not know and the driver does not know that that child got off 
at the previous stop.
    We have technology out there. We can scan a bar code in 
easily in any dimension, any store, anywhere. Why are we not 
having a lanyard on a child or any child that scans it in when 
he gets on the bus. He scans it when he gets off the bus. 
Everybody knows where these children are. It is easy to check. 
It helps the drivers. It helps the parents, and it helps keep 
these kids safe.
    And if there was some kind of fatality or accident, the 
first responders would certainly know how many children, boys 
and girls, and what their ages are on that bus so that they do 
not have to chase shadows when they get there.
    Mr. Davis. Thank you very much. Excellent advice.
    So, Ms. Ferro, welcome back.
    Ms. Ferro. Thank you.
    Mr. Davis. Are there any existing barriers at the Federal 
level that prevent States and local governments from adopting 
innovative safety solutions?
    Ms. Ferro. Ranking Member Davis, I am trying to position 
that question in the context of AAMVA to see what that would be 
in regard to.
    From the perspective of motor vehicle administrators and 
highway safety enforcement, they would be working closely on 
any national programs with the Federal agency, and as I think 
Chief Fulton indicated, structuring a program at the State 
level.
    Are you speaking to the technology, such as an employer 
notification system?
    Mr. Davis. No. I have kind of gotten beyond the technology 
issues unless you have something else you want to add to my 
previous question.
    But I just want to know. You have got some experience 
sitting at that witness table before, and are there any 
barriers that you see at the Federal level that would stop 
States and local governments from implementing some of the 
suggestions we just heard from Mr. Benish and Mr. Condron or 
any other innovative approach?
    Ms. Ferro. Well, I really appreciate that question. I am 
just not in a position to answer what would be a barrier at the 
Federal level at this time.
    Mr. Davis. How about you, Ms. Fulton?
    Ms. Fulton. Thank you, Ranking Member.
    We have not run into any barriers to strengthening the 
protections for our own kids, other than what I mentioned which 
is, you know, keeping track of what happens interstate.
    Mr. Davis. OK.
    Ms. Fulton. And keeping track of drivers outside the State.
    Mr. Davis. Well, that is OK. I saved Mr. McLean for last 
based upon who he is representing.
    What barriers do you think exist? Because clearly, we see 
in the panel others do not feel that there are any barriers to 
State and local legislatures and local officers being able to 
change and implement more safety standards.
    Mr. McLean. I think one of the most significant barriers is 
money, and so when we enact bills at the local level, we are 
considering what local school districts and local cities and 
towns have for a budget.
    So every time we put a requirement on local cities and 
towns, we have to incorporate any sort of fiscal impacts. So 
that is a significant barrier at the State level that we have 
to consider when passing these laws.
    Mr. Davis. Right. I would ask you how we can fix it, but I 
am out of time. So I yield back.
    Ms. Norton. I must note that my very good friend, and he is 
my good friend, asked the very opposite of the question I 
asked, which is what the Federal Government can do and he wants 
to know is the Federal Government in the way, and it looks like 
there is more it can do than to get out of the way at least at 
the moment.
    Mr. Garcia.
    Mr. Garcia. Thank you, Chairwoman Norton and Ranking Member 
Davis, for organizing this hearing.
    As a father of three, I know how stressful it can be to 
worry about our children's safety, and I applaud the efforts of 
this committee to evaluate these safety measures today.
    A question for Ms. Poland. As you mentioned in your written 
testimony, an emergency braking system can serve to prevent and 
mitigate collisions. Earlier this year, I joined my colleague, 
Hank Johnson from Georgia, to introduce the Safe Roads Act to 
require commercial motor vehicles to be equipped with an 
automatic emergency brake, or AEB, system.
    In 2015, in an agreement with the National Highway Traffic 
Safety Administration, or NHTSA, the NTSB recommended that all 
AEB come standard with all passenger vehicles to help mitigate 
and avoid collisions.
    Briefly, would you extend this same recommendation to 
schoolbuses and/or commercial motor vehicles as my legislation 
does?
    Ms. Poland. The NTSB actually has recommended automatic 
emergency braking for commercial vehicles and schoolbuses. Most 
recently we recommended this technology for schoolbuses in our 
Baltimore and Chattanooga special investigation report.
    As you are emphasizing in the work that you are talking 
about, automatic emergency braking provides a protection in the 
last moments if there is a crash that is imminent and provides 
that braking to mitigate the forces involved with the crash and 
in some cases to avoid it.
    The NTSB has been a long advocate for this type of 
technology.
    Mr. Garcia. Thank you.
    Just switching gears slightly, crash avoidance and 
mitigation technologies are critical to schoolbus safety. I'd 
like to transition, however, to a safety issue that is too 
often overlooked, the safety of the air our children breathe on 
schoolbuses.
    I am working with Senator Kamala Harris and colleague 
Representative Jahana Hayes, a former educator from 
Connecticut, to introduce the Clean School Bus Act to 
accelerate the electrification of the Nation's bus fleet.
    Over 25 million schoolchildren rely on the Nation's 
schoolbus fleet to get to and from school daily. The tailpipe 
emissions that they are exposed to in transit and while idling 
in these buses are extremely toxic, especially if some of the 
schoolbus yards are located in urban areas next to the 
residential areas.
    Madam Chair, I ask unanimous consent to enter into the 
record the 2019 American Lung Association ``State of the Air 
Report,'' which further highlights the toxicity of air in 
heavy-duty diesel engines, including schoolbuses.
    Ms. Norton. So ordered.
    [The information follows:]

                                 <F-dash>
 Report, ``State of the Air 2019--20th Anniversary,'' by the American 
 Lung Association, Submitted for the Record by Hon. Jesus G. ``Chuy'' 
                                 Garcia
    The report is retained in committee files and is available online 
at http://www.stateoftheair.org/assets/sota-2019-full.pdf.

    Mr. Garcia. Thank you.
    This pollution negatively affects school attendance, 
health, and test scores, a burden that also tends to fall 
disproportionately on low-income students and students of 
color, like those in the district I represent, Chicago 
Southwest and Northwest Sides.
    The Clean School Bus Act would provide grants to help 
States replace diesel buses with electric buses to reduce 
student exposure to tailpipe emissions and curb our 
contribution to the climate crisis.
    A question for Mr. McLean. As a former county commissioner 
and State legislator, I understand the struggles that States 
deal with to find funding for safety measures like these. Do 
you believe that States and local governments would be 
supportive of additional Federal grants to modernize and 
electrify the schoolbus fleet?
    Mr. McLean. I do. I think that is a perfect example of one 
of the incentives that the Federal Government could use to 
provide increased safety measures for kids on schoolbuses.
    Mr. Garcia. Great. And back to Ms. Poland. In your 
investigation of the Oakland bus fire, you noted that the 
schoolbus engine designs often fail to mitigate the spread of 
gases into the passenger compartment. That can exacerbate a 
situation involving a fire.
    But can you speak to whether or not these fumes can get 
regularly into the passenger compartment even in the absence of 
a fire?
    Ms. Poland. Our investigation, of course, focused on the 
post-crash fire in that event, and when there was that 
significant fire in the engine compartment, how the incomplete 
firewall led to the fire being able to spread into the 
passenger compartment.
    Mr. Garcia. Can you comment on the entrance of fumes into 
the bus cavity?
    Ms. Poland. The NTSB currently does not have a position on 
that aspect.
    Mr. Garcia. OK. Thank you.
    I yield back, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Garcia.
    Mr. Gallagher.
    Mr. Gallagher. Thank you.
    Ms. Poland, Representative Krishnamoorthi and I have 
introduced H.R. 2416, which is the SAFE TO DRIVE Act, which 
would direct the Department of Transportation to use some of 
the money that has already been appropriated for grants 
combatting distracted driving to new grants for the same 
purpose, but which would be easier to qualify for.
    So my question is: to what extent does the National Highway 
Traffic Safety Administration see distracted driving, 
especially from cell phone use, as affecting the safety of 
schoolbuses?
    Ms. Poland. So the NTSB has commonly looked at distraction, 
and in fact, this has been an item on our ``most wanted list'' 
for many years. Distraction can come from a variety of 
different forms, and we focused on distraction for schoolbus 
drivers.
    Of course, in all of the discussions that you are hearing 
today, we think that oversight of the drivers is critical, and 
that is dealing with the actions of the driver, including 
medical fitness and some of the many other aspects, but also 
there are technological solutions that if there is distraction 
involved that we can mitigate the effects of a crash before 
they happen or even make that crash less vulnerable to the 
occupants inside.
    Mr. Gallagher. And as you look at the data of just crashes 
over--take your time period--has there been a consistent 
primary factor that has contributed to schoolbus crashes over 
the last several years or is each case just unique such that 
you cannot establish a trend or is the sample size not large 
enough?
    Ms. Poland. So the NTSB typically investigates extremely 
severe crashes that may not be representative of all crashes, 
but obviously, there is a wide variety of causes, and that is 
why we look at different recommendations to address those 
countermeasures.
    So you are hearing some of those today from proper 
oversight of the drivers to technological interventions, to 
also increasing the time to evacuate in post-crash events, such 
as fires or water immersion.
    Mr. Gallagher. And a final question for you or for anyone 
on the panel who wants to take a swing. I mean, to what extent 
do we think overall congestion on the roads, increasing 
congestion, which obviously would vary regionally, locally, is 
creating more safety concerns?
    So, for example, I have a bill that would allow logging 
trucks access to highways to get them off local roads, which I 
view as not only an environmentally friendly thing, but a 
safety thing, right? I mean, it is sort of easier to transit 
than going around with a lot of roundabouts in northeast 
Wisconsin, Green Bay, Wisconsin.
    We also know that according to the National Highway Traffic 
Safety Administration, getting on and off the bus, crossing the 
street, waiting for the bus can put children in significant 
danger. Schoolbuses operate on local roads, which include 
intersections, crosswalks, curves, stop signs, and other 
variations in the flow of traffic.
    So in your expert opinion, would reducing congestion, in 
general, but specifically reducing sort of large vehicles like 
logging trucks, from local roads improve the safety of 
schoolbuses?
    Ms. Poland. So schoolbuses are large vehicles, and 
typically in most crashes with passenger vehicles they fare 
very well. Unfortunately in crashes with other large vehicles, 
that is where we see the vulnerability, especially in side-
impact collisions and high-speed rollovers.
    We also have to be very careful of unintended consequences 
because the NTSB has investigated a number of commercial motor 
vehicle crashes, especially in work zones where there may be 
some sort of a vehicle that is not stopped for a queue that has 
developed for a work zone.
    So I guess I would encourage you to consider unintended 
consequences and also technological solutions, such as we were 
discussing earlier of forward collision avoidance and automatic 
emergency braking for all commercial vehicles.
    Mr. Gallagher. Interesting. Yes, ma'am.
    Ms. Fulton. Congressman, I would just add certainly NTSB is 
the expert on statistics, but our tragic crash happened on a 
highway so, you know, with a large vehicle striking a schoolbus 
on a highway, a major highway.
    Mr. Gallagher. Sure.
    Ms. Fulton. So clearing the local roads would not have been 
helpful in that situation.
    I think, again, unintended consequences, there are a lot of 
different ways to look at it.
    Mr. Gallagher. Well, I certainly respect that. Unintended 
consequences are part of the main reason that I am sitting on 
this side of the aisle, but I appreciate all of your answers, 
and thank you for the dedicated work that you do.
    Ms. Norton. I am sure it was not unintended that you are on 
that side of the aisle.
    [Laughter.]
    Ms. Norton. Thank you very much, Mr. Gallagher.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Madam Chair.
    And Mr. Gallagher is always welcome to switch sides of the 
aisle. We can talk afterwards.
    Mr. Gallagher. And I would have to not respect unintended--
never mind.
    Mr. Malinowski. Ms. Fulton, first of all, welcome as a 
fellow New Jerseyan. I am happy to see you here and very 
pleased to see the strides that New Jersey has been making in 
improving schoolbus safety going forward, especially after the 
tragic accident in Mount Olive, which happened in my district, 
as you know.
    I was able to meet Miranda's father and sister just a 
couple of weeks ago when they came to Washington to advocate 
for greater Federal involvement in preventing tragedies like 
that bus crash from ever happening again.
    In that context, I wanted to ask you to say a little bit 
more about New Jersey's employer notification system. I think 
you began to a little bit earlier.
    As I understand, it was recently updated to better prevent 
bad drivers from getting behind the wheel of a bus, and I 
wonder if you could explain how the system works and some of 
the changes that we have made.
    Ms. Fulton. Yes. Thank you, Congressman Malinowski.
    So we at the Motor Vehicle Commission, when a notice of 
suspension is posted by courts or law enforcement to a driver's 
license and that driver's license has a schoolbus endorsement, 
a report is automatically generated, and we do this on a daily 
basis, every business day, and for us Saturday is a business 
day.
    So 6 days a week we generate a report, anyone who holds 
that schoolbus endorsement whose license has been suspended, 
and that goes directly to the department of education, and then 
the department of education was notifying operators.
    The change in the law, first, shortens the time that the 
employer has and the department of education. So department of 
education has 24 hours to notify the operator, whether it is 
the board of education or the private operator, that this 
driver has been suspended.
    And they must confirm within another 24 hours that that 
driver is off the road, that the driver is not driving a 
schoolbus.
    And the second piece of the legislation is that we do not 
just do that for suspensions or 12 points or over, which 
generates a suspension. We are now required to do that if you 
get six points or more or three moving violations in a 3-year 
period.
    So there are more stringent requirements, and the 
notification has shortened. This is still relatively new, but 
that is how it works.
    Mr. Malinowski. And so let's move from that to the across 
State lines issue. If somebody had an infraction, let's say 
someone had the equivalent of six points in another State, 
moved to New Jersey, what would happen and how soon would it 
happen?
    Ms. Fulton. Well, first, Congressman, if there is a notice 
of suspension that comes from another State, we may get that 
any number of ways depending on whether we have an agreement 
with that State where we get something electronically or 
whether we get it in the mail the way that we communicate with 
some of our sister States.
    So it may come in the mail, and that can take time. It has 
to be managed manually.
    The six points, now that is a new New Jersey rule, and we 
have not yet gotten that to happen automatically, right? So 
there is not an automatic trigger of six points that come in 
from another State.
    Now, I guess once it gets posted to the New Jersey driver's 
license, then we are instate, and we can manage it. But the 
real trick is getting notice from the other State. How long 
does it take for a conviction that happens in Pennsylvania or 
New York? How long does it take for that conviction to get 
posted in New Jersey?
    That is manual process many times.
    Mr. Malinowski. So that just leads to the obvious final 
question, which is whether a national ENS, employer 
notification system, would be helpful.
    Ms. Fulton. A national notification system would be helpful 
for us for sure, and you know, I have referenced AAMVA before, 
but we actually use AAMVA's existing system for other CDL 
information. So that would be helpful.
    Mr. Malinowski. Great. Thank you.
    I yield back.
    Ms. Norton. Thank you, Mr. Malinowski.
    It may be that there is something that this committee can 
do to make sure that that national system occurs. So I 
appreciate those questions.
    Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairman.
    Ms. Poland, the NHTSA found that 97 pedestrians under the 
age of 18 were killed in school transportation-related crashes 
between 2008 and 2017. Do you know how many were struck by 
vehicles going around the bus out of that 97?
    The National Transportation Safety Board, do you all have 
that? Does anyone have an idea?
    Ms. Poland. Certainly there is data available on those 
crash statistics. The NTSB accidents are a portion of those 
numbers that you are looking at, and as I mentioned in my 
opening statement, we have three ongoing investigations in 
three different States where we are looking at what is 
happening on those high-speed roadways.
    Mr. Palmer. I have got several questions that I want to ask 
about this, but I think it is important to know how many of 
these fatalities were the result of people going around the bus 
as opposed to the bus actually running over the child.
    You have got both of those situations, and the reason I 
bring that up is that in reading the testimonies here, Mr. 
Benish's testimony pointed out that the passing of stopped 
schoolbuses during loading or unloading, illegal in all 50 
States, has reached epidemic proportions. A most recent annual 
observational survey in 2018, 105,306 schoolbus drivers in 38 
States reported almost 84,000 vehicles had illegally passed 
their stopped schoolbus in 1 day.
    That is incomprehensible to me that that many people are 
that stupid or that unconcerned about the safety of the kids on 
that bus.
    And based on the observations, have you projected that out 
over a 180-day school year? That is 15 million vehicles 
illegally passing a schoolbus.
    So I think it is important to know, Madam Chairman, how 
many of these fatalities and injuries are because people are 
passing schoolbuses, and I think we may need to take a look 
particularly at the State level for those of you who are 
involved with the State legislature, as the Honorable Ms. 
Fulton and Mr. McLean, that the penalties ought to be much more 
severe for going around a schoolbus when it is stopped.
    I think it would be important to know what is going on with 
that, and the other thing that I want to ask is that a number 
of these accidents are in rural areas.
    Any idea, Ms. Poland, about why so many of them are in 
rural areas?
    I mean, we had a lot of discussion about congested streets. 
That is really not an issue out where I grew up, and I rode a 
schoolbus when I was a kid. That was 1964, by the way.
    Ms. Poland. Well, I guess it is unfortunate to report that 
the National Association of State Directors of Pupil 
Transportation Services yesterday put out the new statistics 
for the last school year, and now they are reporting that there 
is over 95,000 illegal passings in that single day, from 39 
States that are reporting that information.
    As I mentioned earlier, the NTSB is looking at three 
crashes. All of those are in what you would classify as rural 
areas from high-speed roadways, 55-mile-per-hour roadways.
    And so our investigators are currently looking at a variety 
of different countermeasures, including conspicuity, route 
planning, and technological countermeasures to be able to make 
recommendations to our Board to assist in this process.
    Mr. Palmer. I want to get to some questions that will lead 
to some solutions. OK? So what I am suggesting here is that we 
look at these crash statistics, rural versus suburban, urban, 
look at the number of vehicles that are going around 
schoolbuses. I would like to know whether or not these are 
rural incidents or in other areas.
    In regard to these higher speed highways, where I currently 
live, we have a highway where it is 55, but during certain 
times of the day when kids are coming to school and when kids 
are leaving the school, that speed limit is reduced to about 25 
miles an hour.
    And it may be that particularly in rural areas, you treat 
this like you would a construction zone. Somebody brought this 
up, Madam Chairman. I think it is a pretty good idea that maybe 
during those times we do it like a construction zone. We notify 
you ahead of time you have got to bring your speed down because 
you have got schoolbuses operating in the area.
    I know that is going to create some issues for transport 
vehicles and things like that, but I will pay the extra cost 
for a loaf of bread or a bottle of water, whatever, if it saves 
the life of a kid.
    One last thing, if I may, Madam Chairman. I am kind of on a 
roll. I look at this, too, and this is something that I wanted 
to ask Mr. McLean about, the legislative role in this, and Ms. 
Fulton, too.
    My concern is about the abuse of alcohol, and some States 
have requirements for how many hours after a busdriver consumes 
alcohol. That should also include recreational marijuana.
    And the thing that concerns me is that there are commercial 
drivers who lose their license, and in a lot of cases they 
self-report. I think we need to have a database where if 
someone applies for a license to drive a schoolbus, there is a 
database that is searchable, and you can determine whether or 
not someone has lost their license before we put them behind 
the wheel of a bus carrying our kids.
    What do you think about that?
    I do not know that I want to make it a Federal law, but----
    Ms. Norton. He is over time. So I wish you would take those 
suggestions under advisement.
    Mr. Palmer. I thank the chairman for her indulgence.
    I yield back.
    Ms. Norton. And I thank Mr. Palmer for his comments, 
especially his notion about ways to make the penalties more 
severe for passing of a schoolbus. That is something that we 
need to look into, raising a Federal issue as to whether or not 
we could do that, recognizing that most of these laws are 
local.
    And Mr. Palmer raised a number of issues. I think this was 
raised before about studies that we need to do, statistics we 
simply do not have. It seems to me we cannot pass another bill 
without making sure that those studies and statistics are 
mandated.
    So I thank you, Mr. Palmer.
    Mr. Cohen.
    Mr. Cohen. Thank you, Madam Chair.
    First, I would like to address my question to Ms. Fulton.
    Thank you for the good work you have done in New Jersey. 
You all seem to have been way ahead of the game and done super.
    Why has New Jersey been able to make significant progress 
toward improving schoolbus safety with three-point safety belts 
when it has been so difficult in other States?
    Ms. Fulton. Well, Congressman, I will be honest with you. 
It makes a difference when the Governor and the members of our 
New Jersey congressional delegation make it a priority, 
continue to work actively educating the community, speaking out 
about it and speaking to our State legislators.
    We have had incredible support across the board from 
Members of Congress and the Governor to say we are going to do 
this.
    Mr. Cohen. Who is your Governor?
    Ms. Fulton. Governor Phil Murphy, and this has been 
something that was important to him and important to our 
Members of Congress, and they made it happen.
    Listen. No one wants to wait for a tragedy, but when it 
happens, you know, that is an opportunity where people in a 
position to make a difference can choose to really----
    Mr. Cohen. Were you part of the campaign to make it happen, 
the lobbying effort?
    Ms. Fulton. I was not. I do not lobby for legislation in my 
position as motor vehicle commissioner. We provided----
    Mr. Cohen. As an observer, do you recall who were the main 
people against the bills?
    Ms. Fulton. Against the bill?
    Mr. Cohen. Yes. Was it----
    Ms. Fulton. There was not significant opposition. You know, 
there were questions about the additional cost, but the 
additional cost of a couple thousand on a 54-passenger bus, it 
is a cost for school districts, but there was a lot of support 
from the school districts where they had had accidents to go 
forward with it.
    Mr. Cohen. Thank you, ma'am.
    Ms. Poland, let me ask you as part of a special report 
examining schoolbus safety, the NTSB clearly and unequivocally 
recommended that all new large schoolbuses be equipped with lap 
and shoulder belts. You probably remember that from my opening 
statement. Everybody does. It is probably enshrined in 
everybody's mind.
    In addition, the American Academy of Pediatrics has a 
longstanding position that new schoolbuses should be equipped 
with seatbelts.
    Why is it so important that this commonsense safety 
equipment that has already saved thousands of lives in 
passenger motor vehicles be placed in all large schoolbuses?
    Ms. Poland. As I mentioned in my opening statement, we know 
that schoolbuses are extremely safe, but they are vulnerable in 
certain types of crashes, and over and over again we are seeing 
children that are injured and killed in these types of very 
severe crashes.
    The technologies have changed over time. We initially 
recommended occupant protection systems, but now we are seeing 
that lap/shoulder belts are well designed and, in fact, in 
certain circumstances we are able to study how they are 
performing in crashes and finding that occupants are very well 
protected in these new designs of lap/shoulder belts.
    So that is why we came out with our recommendations to the 
States to have new large schoolbuses be equipped with passenger 
lap/shoulder belts.
    Mr. Cohen. I kind of vaguely recall from when I sponsored 
this as a State senator, which is like 20-odd years ago maybe, 
that there was some discussion about the safety belts that the 
seats are like perpendicular. They are at right angles, and 
that they are stiff and they do not move, and it would hurt the 
kids' necks if they were strapped in.
    Is that an argument that has been made?
    Ms. Poland. That is an argument that has been made, but 
fortunately, the technologies have advanced so they are able to 
protect an occupant that may be unbelted behind occupants that 
are belted as well.
    And, again, we have been able to study some of these 
crashes when there have been onboard video camera systems that 
are showing the outcome and seen that there is good protection 
with these modern lap/shoulder belts in schoolbuses.
    Mr. Cohen. Thank you.
    The NTSB also recommended automatic emergency braking 
technology. It is widely available. You also concur that that 
should be part of the schoolbus?
    Ms. Poland. Correct. So the NTSB is always advocating for 
crash prevention. So technologies like forward collision 
avoidance, automatic emergency braking, electronic stability 
control, if they can activate at that last moment before a 
crash happens, in some cases we can avoid the crash altogether.
    In other cases, we can just lower the severity of that 
crash, but it is very important for schoolbuses as well as all 
vehicles.
    Mr. Cohen. Thank you.
    And those are the reasons which have been discussed here, 
why Senator Duckworth and I introduced H.R. 3959, the School 
Bus Safety Act, and we hope that we can have it included in 
some measure as time goes on and pass it into law.
    Thank you, Madam Chair, and I yield back the balance of my 
time.
    Ms. Norton. Thank you, Mr. Cohen.
    I allowed Mr. Palmer to ask a question when it was slightly 
out of time, but it was impossible given the time remaining for 
the question to be answered.
    So I invite those of you who do have answers to Mr. 
Palmer's question to submit it in writing, and I will make sure 
that those answers get into the record.
    Mr. Balderson.
    Mr. Balderson. Thank you, Madam Chair.
    And I will assist that because Representative Palmer took 
some of my questions talking about rural communities and the 
impact of bus travel for those students.
    I did have a stat here that 52 percent of the schoolbus 
crashes do occur in rural communities, and that is done by the 
National Highway Traffic Safety Administration that was done.
    Could all of you elaborate on some of the things, of any 
recommendations that we can do to improve safety?
    In rural communities and some of the areas that I represent 
in Ohio's 12th Congressional District, I mean, there is one 
county that is not in the district anymore, but right close 
that has no four-lane roads. So it is all State route or gravel 
roads, and a student is on that bus one way 2 to 2\1/2\ hours 
for travel.
    So I will ask the whole panel if there is anything, any 
thoughts that you would have of safety concerns that have been 
addressed for the rural communities since 52 percent of the 
schoolbus incidents happen in rural communities.
    The Honorable Andrew McLean, lead the way.
    Mr. McLean. I am not sure I am in a position to say what 
would help rural communities specifically. So I do not know 
that I have suggestions for rural communities, but I do think 
that allowing States to explore the solutions and having the 
Federal Government permit the States to explore those solutions 
is really important to figure out what the best solutions are.
    You know, we are probably never going to eliminate all 
accidents, but we need to figure out the best ways to reduce 
the number of accidents.
    Sir, I do not have specific recommendations.
    Mr. Balderson. Does anybody have a suggestion? Honorable 
Fulton.
    Ms. Fulton. Well, Congressman, I do not know that this is 
specific to rural communities, but in our State, rural and 
urban communities both may have less resources at their school 
board than the suburban communities.
    But one of the things that is critically important for us 
is the inspection from the State level of the schoolbus to 
ensure that they are not allowing a lack of resources to lead 
to the schoolbuses not staying maintained and not meeting the 
standards.
    And just as important, when we do those inspections, both 
the announced and the unannounced, we check the driver records. 
Are you sure that the drivers that you are putting behind the 
wheel or does every one of them have a current medical 
certification? Does every one of them have a current CDL with a 
legitimate endorsement and no suspensions?
    You would be surprised how often private operators are 
often used when funds run low. We had 330 summonses in the 
space of 1 year in our inspections where private operators, and 
for the most part it was private operators, had failed to keep 
those things current, and that leads to people behind the wheel 
that are not qualified.
    Mr. Balderson. Madam Chairman, I will switch gears for the 
panel a little bit.
    According to the National Highway Traffic Safety 
Administration, the greatest risk to schoolchildren is getting 
on and off the schoolbus. Have any States successfully 
implemented reforms to better prevent these violations?
    Mr. Condron?
    Mr. Condron. I was just going to comment on the last 
question on the rural busdrivers, if I may comment on that 
question.
    Mr. Balderson. You may comment.
    Mr. Condron. Traditionally, on the coast, the east and west 
coast, you do not see this much, but in the rural area you see 
more they call it ``park-out,'' where the driver takes the bus 
home with them. They do not report to a terminal or a yard. The 
driver just gets in the bus and then goes on their route.
    So in the rural areas, I think you probably would need to 
make sure that the vehicles are inspected and up to date, a 
little more oversight, and also that the driver is current in 
their training on what is current in that area.
    Mr. Balderson. OK.
    Mr. Benish. I would like to comment, being one of the 
busdrivers, and I do drive a bus and have had a CDL and driven 
for over 25 years.
    I think what Mr. Palmer said also, too, is more signage in 
those areas, especially rural; making sure we put specific 
speed limits down at certain times of the day to slow down just 
as we do in a construction site in our slowdown.
    And, again, as I mentioned in my opening statement, we do 
have a new act out, the Stop for School Buses Act of 2019 by 
Representative Walorski, and we want more public messaging, 
especially for new drivers, and especially more talk about 
distracted driving, which was involved in an accident in 
Rochester, where exactly that happened. Three students were 
killed this past year in rural Indiana, all from the same 
family early in the morning.
    Mr. Balderson. Thank you.
    Madam Chair, thank you.
    Ms. Norton. Thank you very much, Mr. Balderson.
    Mr. Payne.
    Mr. Payne. Thank you, Madam Chair.
    And, Ms. Fulton, it is good to have you here. I do not know 
if you are aware of this, probably not, but before my time in 
Congress, as the president of the city council in Newark, New 
Jersey, I was in student transportation for 10 years. I started 
out actually for one of the educational commissions, Essex 
County Educational Services Commission, and started out as a 
schoolbus monitor where I was out on routes in the morning 
doing spot inspections and making sure children, parents if 
they had problems with children being picked up, all of those 
types of issues, and worked my way up to supervisor of 
transportation, where I was responsible for 10,000 children on 
schoolbuses a day, handling Newark Public Schools 
transportation and special needs throughout Essex County of our 
most vulnerable students, stretcher-bound children that were 
paraplegic.
    So this is really where I cut my teeth in public service. 
So I'm really glad to see that we are here discussing these 
issues. I also am proud that New Jersey is on the cutting edge 
of safety.
    And so I fully understand the need for safe schoolbuses and 
commend you for your work to increase their safety.
    My children, I have triplets, and in New Jersey they have 
early school intervention where children go to school as early 
as 3, and so my children were on schoolbuses in Newark at 3 
years old. As a matter of fact, there is one of them taking 
pictures of me right now. So he has made it pretty far.
    So New Jersey is a leader when it comes to schoolbus 
safety, requiring all schoolbuses to have the three-point 
safety belts. Yet the Federal Government does not require that 
all schoolbuses have them.
    Can you explain how the three-point safety belts improve 
bus safety?
    And do you think it would be in the country's best interest 
to have these belts required nationwide?
    Ms. Fulton. Thank you, Congressman Payne.
    And if I might use a moment to say I did not get a chance 
to agree with my friend Mr. Condron from the Teamsters, but 
schoolbus drivers are incredibly valuable and incredibly 
underpaid for the responsibility that we give them.
    Mr. Payne. I agree.
    Ms. Fulton. So let me say that.
    And then with that, in terms of the statistics on three-
point belts, we get all of our stats from the National 
Transportation Safety Board. So to make sure I do not screw 
that up, I am going to pass off to Ms. Poland----
    [Laughter.]
    Ms. Fulton [continuing]. And defer to her for the 
information on that.
    Ms. Poland. So the NTSB has looked at a wide variety of 
crashes. I have investigated crashes in schoolbuses for over 20 
years now, looking at schoolbus passengers, what happens during 
crashes when there is just compartmentalization inside the 
schoolbus, when it is lap only belts and when there are lap/
shoulder belts, and we have found that the recent advancements 
in the design of the lap/shoulder belt has provided excellent 
protection for the occupants inside the schoolbus in a variety 
of different crashes, knowing that the baseline level, the 
minimum performance for large schoolbuses right now, 
compartmentalization is incomplete.
    And many of these catastrophic crashes involve side impacts 
and rollovers, which lap/shoulder belts provide that protection 
for our occupants.
    Mr. Payne. You know, I also was able to meet with Miranda's 
father and her family several weeks ago, and I am wondering--
the laws that we have in New Jersey, are they really a good 
foundation for the possibility of Federal laws across the 
country?
    And anybody that wants to weigh in, please feel free.
    Ms. Fulton. Well, Congressman, we already have the laws, 
and I feel perhaps my friend from Maine can weigh in on whether 
the States feel. You know, we still are learning in terms of 
how to execute some of these things and what is going to have 
the greatest impact, but we will see.
    Mr. Payne. Yes or no from anybody that wants to because my 
time is running out.
    Mr. McLean. And it is the position of NCSL that the Federal 
Government should leave it to the States to explore different 
solutions because there are different solutions for each State.
    Ms. Poland. And speaking with a variety of people that have 
implemented the lap/shoulder belts in various jurisdictions, we 
are pleased to see that best practices are being shared amongst 
this community because I think we are all in agreement here 
that ultimately, we want the safe transportation of our 
students to and from school.
    Mr. Payne. OK. Thank you.
    My time has expired. I yield back.
    Ms. Norton. Thank you, Mr. Payne.
    Mr. Stauber.
    Mr. Stauber. Thank you, Madam Chair.
    I appreciate the witnesses giving us the opportunity to 
listen to your expertise.
    I come from a little bit different background. I was 
actually a schoolbus monitor many years ago, but I also had the 
privilege of serving my community in Duluth, Minnesota, as a 
police officer.
    One of the worst things we can do is respond to a crash of 
a student getting on or off the bus, and it is just 
unconscionable that we see drivers do this every single day in 
this country. It is uncalled for.
    I have been in a fully marked squad car, the second car 
behind a stopped schoolbus. The light is on. The gate is out 
right in front of me. That is unconscionable.
    And so for me to see it, I have cited it. I have testified 
in court. For me we are in this together. When we put our kids 
at the end of the sidewalk or the corner, we expect them to 
arrive safe to and from school.
    And from my perspective, we talked about the greatest 
concern is the crossing of the roads. Are we putting enough 
emphasis in our driver's education classes in each of our 
States? Because they are all a bit different.
    Mr. McLean, what does your State require for driver's 
education, total hours, and what do they put for this subject, 
or do they not specify this subject?
    Mr. McLean. I am not a motor vehicle administrator so I 
cannot speak to the exact requirements, but we do have a pretty 
rigorous system and process for a beginning license.
    Mr. Stauber. No, you are talking about 16-year-old drivers 
going through the driver's education?
    Is there anybody that thinks that we could enhance our 
driver's education? Because if the majority of it is happening, 
the driver is not paying attention or what have you, it seems 
to me, the educational component and the seriousness of 
teaching our young drivers.
    Mr. Benish.
    Mr. Benish. Yes, that is something, again, with the Stop 
for School Buses Act that we have proposed in my opening 
statement about putting more education.
    I recently had this discussion with my three teens about 2 
months ago about stopping in and around a schoolbus, and 
knowing that I own a schoolbus company and am a driver, it was 
very interesting to hear the perspective from McKenzie, George 
and Jack, what they did know and did not know about stopping 
around a schoolbus.
    They are brandnew drivers, and it was just plain scary.
    Mr. Stauber. Yes, and I think that we have to actually 
allow our States to adopt real strict educational parts of 
stopping in and around schoolbuses, and by the way, I am a 
cosponsor of the Stop for School Buses Act.
    Mr. Benish. Thank you.
    Mr. Stauber. For me, one driver on a schoolbus is too much, 
one in this entire country because the safety of our kids is 
paramount.
    One of the things I wanted to talk about, Ms. Poland, you 
talk about the restraints and what have you. Do you feel 
comfortable saying that the restraints in a fire or water 
emergency for young kids, especially in rural areas where you 
are not going to get the help right away; do you feel 
comfortable in putting that mandate forth for the entire 
country?
    Ms. Poland. That is a good question, and many people, of 
course, are asking that question. I can just lend some of the 
experience that we have had where we have looked at crashes, 
very severe crashes, where there have been onboard camera 
systems, and we have studied the evacuation and seen that the 
passengers that have maintained consciousness during the crash 
are able to self-evacuate.
    So it is important for those students to be protected 
during the crash to give them the best chance to be able to 
self-evacuate.
    If they are unable to be protected during that crash, then 
of course the injuries may negatively affect their ability to 
quickly and safely evacuate the schoolbus.
    Mr. Stauber. Thank you very much.
    And to the witnesses, I really appreciate we all want the 
schoolbus and the kids and their safety. That is the utmost 
importance, and you all are experts in your respective field. 
So I appreciate this opportunity to listen to you, and together 
we can increase, in my mind, safety exponentially using, I 
think, some commonsense measures.
    So with that I yield back, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Stauber.
    Mr. Babin.
    Dr. Babin. Thank you, Madam Chair. I appreciate it.
    And thank you, witnesses, for your expertise. I appreciate 
you being here.
    Ms. Poland, thank you for being here with us today. Each 
and every member of this committee cares deeply about the 
safety and the security of our school-age children, as we have 
heard numerous of our Members say, and we want to ensure that 
when they do get on the schoolbus to go to and from school that 
they arrive safely at their destination.
    However, I also want to make sure that our States and local 
communities are allowed the flexibility they need to implement 
proper regulations for their unique jurisdictions.
    And with that in mind, how can Congress balance the need 
for improved schoolbus safety without imposing a heavy-handed, 
overregulating, one-size-fits-all approach for our States and 
school districts?
    Ms. Poland. Thank you for the queestion.
    NTSB has made recommendations about vehicle design, and we 
think it is important for the Federal Government to provide 
that minimum level of vehicle design, including the crash 
protection and occupant protection.
    We have investigated many crashes where oversight of the 
drivers is a concern. We recognize that there are minimum 
standards at the Federal level, but much of that oversight 
happens at the State and local level, and so many of our 
recommendations have focused on that State and local level.
    So, again, we think that those minimum standards should be 
provided at the Federal level, but we do think it is important 
and critical that the State and local levels can implement them 
and many times exceed them, as you have heard today.
    Dr. Babin. Exactly. I have a niece that was involved in an 
accident in Beaumont, Texas, a charter bus, not a schoolbus, 
and it was a terrible accident with some fatalities, and my 
niece was injured.
    I think they have implemented in the State of Texas 
seatbelts because of that one accident.
    Then a followup on that question, could you talk about some 
of the recent actions that you have seen States and school 
districts take in order to increase the safety of students 
traveling to and from school on schoolbuses?
    And I know we have talked about that already. You have 
already hit on it a little bit, but if you would elaborate a 
little further, I would appreciate it.
    Ms. Poland. Yes, of course. So we are very pleased to see 
so much movement on occupant protection. There are so many 
States that are now looking at passenger lap/shoulder belts for 
large schoolbuses, and we think that this is a critical move.
    We are also seeing a lot of motion in the schoolbus 
manufacturers where they are looking at some of the 
technologies for preventing crashes, and they are implementing 
these in some buses as standard equipment. So we also think 
that that is also very critical for the crash avoidance aspect.
    So there is a lot of movement. We are seeing a lot of 
sharing of best practices, including some of the aspects that 
do not necessarily address injuries and fatalities, but some of 
the aspects of driver retention and distraction that may have 
improved with some of the technologies and some of the 
installations that we are talking about like lap/shoulder 
belts.
    Dr. Babin. Absolutely.
    I will yield back the balance of my time. Thank you, Madam 
Chair.
    Ms. Norton. Thank you, Mr. Babin.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chair.
    I have actually got a little bit of good news on this 
subject here. We have in northern California the town of 
Paradise, which had a horrendous fire almost coming up on a 
year ago now, and we had one story of a local schoolbus driver, 
Kevin McKay, who during this fire crisis without being told by 
anyone decided to drive his schoolbus back into town to the 
Ponderosa Elementary School in Paradise when the Camp Fire hit 
town. His wife and family were already on the way to safety.
    In coordination with the Ponderosa School principal, Mr. 
McKay loaded 22 kids and several teachers onto his bus and took 
them to safety. At one point, Mr. McKay literally tore off his 
own shirt and gave it to the teachers who ripped it up and made 
it into breathing masks because the bus was filling up with 
smoke from the fire.
    Well, thanks to the efforts of Mr. McKay and other 
Ponderosa teachers, all the kids escaped Camp Fire without 
major injury. So a really good piece.
    Now, being California, as dangerous as the wildfires are 
there and still will be, schoolbuses are under fire in another 
way. California Air Resources Board, over the objections of 
heavy vehicle users, decided to implement the installation of 
the diesel particulate filters, refitting these existing buses 
with these devices.
    They can reach and exceed 600 degrees Celsius when the 
engine is operating and have been prone to clogging with ash 
and unburned fuel, which causes them to catch fire. These are 
not isolated cases to buses. We have plenty of anecdotes with 
trucks and other vehicles that have been forced to be refitted 
with these devices.
    Just like freight trucks, these, again, schoolbuses are 
vulnerable to these issues and have caught on fire.
    Now, being California is the largest population, it also 
has the largest schoolbus fleet and also the largest number of 
students of any State. So California usually has the most 
restrictive regulations on schoolbuses as well. So CHP has to 
inspect each bus every year, and the drivers themselves review 
their own vehicles every 45 days.
    So despite these regulations, these buses still catch on 
fire because of the diesel particulate filter that was required 
was not suitable to be used. That technology had not caught up 
to what was a requirement on these buses.
    Hundreds of thousands of vehicles were required to install 
them anyway, no matter the cost. So I will throw this to Ms. 
Poland.
    The Federal Government does set a pretty low bar for 
schoolbuses and typically allows States to increase those 
standards as they see fit. Are you aware of any intervention 
the Federal Government has made when States are endangering 
students and implementing standards that are causing 
schoolbuses to catch fire?
    Ms. Poland. Our experiences with the schoolbus fires are 
not related to the issue that you are bringing up, but some of 
the countermeasures that we have recommended may ultimately----
    Mr. LaMalfa. You have not heard of any cases of trucks or 
buses that have been refitted with these filter systems 
catching fire?
    Ms. Poland. So our Oakland, Iowa, crash that we just made 
public recently had a schoolbus fire, but in that case the 
engine compartment caught on fire from overheating of the 
turbocharger.
    Of course, in that case, I also mentioned that there was an 
incomplete firewall that allowed the smoke and fumes and fire--
--
    Mr. LaMalfa. Well, that is one case there. Now, a turbo 
that was coming apart or lost a bearing or something, that 
could be something that would happen, but we are talking about 
the diesel particulate filters that have been forced to be 
refitted to many buses and trucks and lots of equipment in 
California and maybe other States that have joined in that.
    So is there any kind of protection from the Federal 
Government over a regulation that is causing fires simply by 
the fitting of this equipment?
    Ms. Poland. The NTSB's position is on fire suppression 
systems in the engine compartment and also on flammability of 
the interior components. It would not address specifically the 
cause of your fire, but may mitigate the consequences and 
increase the time for passengers to be evacuated if those 
systems were fitted with those countermeasures.
    Mr. LaMalfa. Well, the Federal EPA is taking a look at how 
States sometimes go beyond to the harm of consumers, to the 
harm of the safety of buses on that. Would NTSB be looking more 
at the possible harm in this case that fitting these devices on 
untested, the technology not having made fully applicable in a 
safety factor, would they look at, say, maybe that they should 
not be fitted until they are more properly engineered?
    Ms. Poland. If there was a circumstance where that was the 
cause of a fire that the NTSB is investigating, I am confident 
that we would look into that and certainly address 
countermeasures that may be able to mitigate the consequences.
    Mr. LaMalfa. Might be able to look at countermeasures. So 
you have no statistics on how many fires have been caused by 
the refitting of these vehicles with these filters?
    Ms. Poland. No, sir, we do not.
    Mr. LaMalfa. Have you actually heard of it? Have you heard 
of this happening anecdotally yourself?
    Ms. Poland. As I mentioned earlier, that has not been the 
cause of any of our schoolbus fires nor our motorcoach fires.
    Mr. LaMalfa. In general, trucks, buses, diesel vehicles 
that have had these filters refitted to them?
    Ms. Poland. Not that specific issue.
    Mr. LaMalfa. You never heard of that.
    Ms. Norton. The gentleman's time has expired.
    Mr. LaMalfa. You never heard of that.
    Ms. Norton. Mr. Katko.
    Mr. Katko. Thank you, Madam Chairman.
    And thank you all for being here today.
    I will say at the outset I am a very proud sponsor of the 
Stop for School Buses Act of 2019, and I am pleased that this 
legislation includes a review of technologies to enhance 
schoolbus safety. So I am very happy with that.
    Mr. Condron, I just want to congratulate you on last 
night's vote. It was very important for Teamsters, and I was 
very supportive of that as well. So let's hope that moves in 
the Senate. That is a very big vote.
    Mr. Condron. Thank you.
    Mr. Katko. Something you said and I believe Ms. Poland said 
it. The most recent studies, that 95,000 people pass 
schoolbuses with lights on illegally a day now. That is the 
most recent study. That is really stunning to me.
    And one of the things that the Stop for School Buses Act of 
2019 includes is a review of technologies to enhance schoolbus 
safety.
    I am exposed to some of these in different settings of law 
enforcement. I was a Federal organized crime prosecutor for 20 
years. So I am aware of all of the emergent technologies. Let's 
talk about a few of them.
    I think there are some technologies out there that would 
pay for themselves, and if you will indulge me for a second, 
for example, if there is something mounted outside the bus 
which shows it can take a picture of these cars' license plates 
as they are passing and then they are subsequently fined, and 
you have got 95,000 cars doing this a day, those very quickly 
pay for themselves.
    So I do not know if that is something you are 
contemplating, but something that is going to absolutely get to 
the distracted driver, because I think that is a big part of 
it, and something that absolutely gets to the lack of respect 
for these warning signs.
    And I think we need to take the gloves off with these 
knuckleheads that are doing this because recent statistics 
showed in a 10-year study or whatever it was that 90-some-odd 
children were killed as pedestrians, not on the bus, in 
different accidents, you know.
    Getting off a bus or getting on, as you have noted, is the 
most dangerous time. So I would like to hear what you think 
about that possible proposal. I know it is being used in other 
applications. For example, there is technology out there that 
as the car goes by, you can take a quick picture of it and you 
can tell right away whether its registration has expired or 
not, and they get sent a ticket.
    I mean, why can we not do something similar with buses? If 
we had that, I think it would pay for itself. So I would like 
to hear from you and some of the others.
    Ms. Poland. So the NTSB has looked at some aspects 
revolving around the schoolbus loading zone, including the 
route selection, in order to minimize the exposure in these 
circumstances and also conspicuity.
    We have three investigations that are ongoing right now 
where we are exploring a variety of these technologies that can 
aid in the loading zone in preventing or mitigating these 
injuries and fatalities.
    Our investigators are looking at a variety of different 
aspects, and I guess I will open it up to some of our State 
partners here at the table because we are also exploring that 
there may be some barriers at the State level for some of the 
technological interventions that you are talking about.
    Mr. Katko. There may be, but I know some of these 
technological innovations have gone into practice, and I think 
it cannot go unnoticed that the distracted driver component is 
quite serious, and it seems to be getting much worse.
    So statistics up until they were updated once today had it 
in 60-something thousand per day. Now it is at 95,000. That is 
a gigantic increase in a short period of time, and that is 
indicative of an escalation of the distracted driver or the 
person who just disregards it, but I think it is time to take 
the gloves off with them.
    Mr. Benish, do you want to add anything?
    Mr. Benish. Well, we can get you a State-by-State schoolbus 
illegal passing law breakdown, and some States do have and have 
enacted the taking a picture of licenses and so on, and some 
States have made it more severe.
    Unfortunately, as you just mentioned, taking the gloves off 
is needed because it is just not preventing them to do that.
    So, again, with the Stop for School Buses Act, and we 
appreciate the support, we need more signage. We need more 
signage. We need more education for new, young drivers, and 
obviously distracted driving is a huge problem, especially in 
trucking and in school-busing. That is where we see now 
obviously more accidents on the road, and that has definitely 
had something to do with it.
    But we have to make it a lot more severe, and we have to do 
a lot better job making our presence known about stopping for 
schoolbuses.
    Mr. Katko. Yes, I understand that there are a lot of other 
components. I am just focusing really on the stopped schoolbus. 
That is an epidemic when you have that many cars a day 
disregarding it or not seeing it.
    So does anybody else want to add anything to that?
    Mr. McLean.
    Mr. McLean. Yes. Thank you very much.
    Just very briefly, so we just enacted a bill to allow 
cities and towns to put stop-arm cameras on their schoolbuses. 
We believe that this is a really critical issue because it goes 
to the enforcement.
    Our State police believe that increased fines do not 
actually solve the problem, but the enforcement does, and the 
stop-arm cameras will allow the prosecution of violators of 
that law.
    Mr. Katko. Right. I guess that is what I am talking about. 
I mean, not increasing the fines as much as saying every single 
person that passes, you are going to get a picture of the 
license plate, and they are going to get smacked.
    Mr. McLean. Correct.
    Mr. Katko. That might help.
    So thank you very much.
    I yield back, Madam Chair.
    Ms. Norton. Thank you, Mr. Katko.
    Mrs. Miller.
    Mrs. Miller. Thank you, Chairwoman Norton and Ranking 
Member Katko.
    And thank you all for being here today.
    I am happy we can come here today to talk about solutions 
to address the schoolbus safety. I am a mother and a 
grandmother, and I would like to say that safety of children is 
of the utmost importance and should be our first priority with 
our kids.
    Dr. Poland, do you know what percentage of schoolbus 
crashes are classified as large buses?
    Ms. Poland. I do not have a specific statistic, but the 
majority of schoolbuses that are on our roads today are 
classified as large schoolbuses.
    Mrs. Miller. OK. In Charleston, West Virginia, one of our 
school districts held a demonstration on a new safety lighting 
system that illuminates the paths students take to the bus in 
the dark. It has been extremely helpful to the students and 
other drivers on the road.
    Have you noticed a trend in the amount of off-the-bus 
accidents at night?
    Ms. Poland. It has been a longstanding trend that more 
students are injured and killed in the loading zone than on the 
bus itself.
    Of course, we know that schoolbus operation changes 
throughout the year. So sometimes it is in low-light 
conditions, and of course, with these crashes that we are 
looking at in the three States that I mentioned earlier, 55-
mile-per-hour roads, low-light conditions.
    There are a variety of countermeasures that our 
investigators are looking at, and we are looking forward to 
bringing those recommendations to our Board in the near future.
    Mrs. Miller. Is there anything that you think Congress can 
do to work on this issue?
    Ms. Poland. I think there are a variety of aspects, and 
certainly having this hearing is one of them because our State 
partners have a variety of countermeasures that they are 
already implementing, and so we are looking to those successful 
cases when we are investigating these types of crashes to see 
what the best practices are and what are proven technologies to 
be able to reduce the injuries and fatalities in the schoolbus 
loading zone are.
    Mrs. Miller. In 2010, I was in our State legislature, and a 
mother, grandmother came to me and my officemate. Her 6-year-
old granddaughter had been killed, run over getting off a 
schoolbus, and of course, she was heartbroken.
    And it took us quite a while to get legislation through to 
at least double the fines, and it has been an ongoing thing to 
try and change the laws as we go.
    But the heartache and, I mean, we have developed quite a 
strong relationship with this grandmother through it all, and 
the little girl would be turning 16 now. It just breaks your 
heart.
    And I know one of the biggest problems that we have in 
schoolbus safety is the people who are ignoring the schoolbus 
unloading stop lights. Currently Indiana has taken measures to 
address the placement of schoolbuses that are operated on a 
U.S. route or State route. From my understanding, the driver 
may not load or unload a student at a location that requires 
the student to cross a roadway unless no other safe 
alternatives are available.
    Have you all seen other States take steps to improve 
unloading safety, any of you all?
    Mr. McLean?
    Mr. McLean. Can you repeat the question?
    Mrs. Miller. On State routes, the State of Indiana has 
issued a law that you cannot load or unload a student at a 
location on a 55-mile-an-hour highway if they have to cross it 
unless there is no other alternative.
    Mr. McLean. We have not. I do not know any specific issues 
around routing. We have been dealing with issues on and around 
loading and unloading zone.
    Mrs. Miller. But never across a highway where they have to 
cross over?
    Mr. McLean. Not that I know of.
    Mrs. Miller. I know in driving myself, when I see a 
schoolbus on this side of the road and it is two lanes over 
here and two lanes over here and stuff in the middle, and they 
are stopped. A lot of people just keep going here, and it is 
extremely difficult to get that child across the road.
    Have there been any other best practices implemented to 
keep kids safe in loading and unloading zones, particularly in 
those unsafe traffic areas and dangerous neighborhoods?
    Mr. Benish?
    Mr. Benish. Dangerous neighborhoods, yes, especially in the 
city of Chicago they do have certain areas where they have 
chaperones and/or people in the neighborhood that will help out 
with that.
    But getting back to your original question, the 
suggestions, according to what I have heard from the State of 
California, a driver has to physically walk off the bus with 
the student with a sign and walk them to the side of the street 
in that instance.
    And I guess over the past 30 or 40 years, it has been very 
successful, and they have had a really low frequency of 
accidents with that.
    Mrs. Miller. So they do not have like a helper on the bus 
that would get off and do it?
    Mr. Benish. It is actually the driver, according to what I 
have heard.
    Mrs. Miller. Wow. OK. Thank you.
    I yield back my time.
    Ms. Norton. Thank you very much, Mrs. Miller.
    Mr. Westerman.
    Mr. Westerman. Thank you, Madam Chair.
    Thank you to the witnesses for your testimony today.
    I live in a large rural district back in Arkansas where bus 
transportation is a big issue. I had the opportunity to serve 
on a school board which was the first elected office that I 
held, and then in the State legislature where we dealt with a 
lot of school-related policy.
    You know, as we look at the impacts of what we do with bus 
safety and bus transportation, it, I think, probably has a 
disproportional impact on rural schools because so much of 
their budget goes to transportation with the longer routes and 
the additional buses that they have that sometimes are not 
fully utilized.
    So, Mr. Benish, I think you mentioned something about cost, 
and I might have heard, I think, Mr. Condron mentioned 
something about cost effectiveness. And obviosuly, when we are 
talking about schoolbuses, safety outweighs cost, but cost has 
to be a consideration because schools just do not have the 
funding to go out and purchase all of the latest and greatest 
equipment that is there.
    One thing, and the gentleman asked questions earlier about 
air quality, and I know that there is some really clean bus 
technology out there, not electric buses, but compressed 
natural gas buses, and an issue that I saw with that from the 
local level and on the State level was a lot of schools would 
really like to put in CNG buses, and the cost of a new CNG bus 
is the equivalent to the cost of a new diesel bus, but you have 
to have this elaborate CNG charging station that is a large 
capital investment for schools. So they often cannot afford the 
upfront capital investment so that they can take advantage of 
the low operating cost with CNG buses.
    This is, you know, 10 or 12 years ago when I was working on 
these issues. What is the safety as far as compresssed natural 
gas versus diesel or conventional gasline bases? Are there 
differences in the safety in a crash test or with air quality?
    Mr. Benish. CNG buses were introduced about 10 years ago 
and really just never caught popularity due to exactly what you 
are saying as far as the cost. They are quite expensive, and 
the fueling stations I have heard run anywhere from $200,000 to 
$300,000.
    There has to be with compressed natural gas, which we did 
run some of this in the 1970s, you do have to make some 
modifications to your shop and to your yard due to the 
explosiveness, obviously, of a gas.
    The new diesel engines that are out there today are 
actually pretty clean. So somebody told me the other day that 
the air coming out or coming into a diesel or coming out of 
diesel is cleaner now than it is going in. So there has been a 
lot of cleanup.
    You do not see a big puff of black smoke anymore in yellow 
schoolbuses.
    We also run some propane buses at home, and we have two 
electric schoolbuses on order, which we should get sometime 
this fall.
    So there is technology that is out there, but as far as the 
air quality inside the bus and as far as the diesel emissions, 
there has been some DERA funding that is out there that has got 
a lot of those older buses off the road. So it is effective and 
the buses today are definitely way cleaner than they were 10 
years ago.
    Mr. Westerman. So when I was on going back to the school 
board, we would purchase a few buses every year and kind of 
rotate new buses through the fleet. So after a while you get 
older buses that do not have the latest technology on it.
    As kind of advice to schools, is it better to wait and 
spend more money on the new bus with the latest safety gear or 
to invest that money in your old equipment putting the safety 
gear onto it?
    Mr. Benish. It is probably like a bus-by-bus feature. What 
we talked about today is stability control, is now to be 
standard pretty much in all schoolbuses. Emergency braking and 
those kind of things, technology is right in the forefront and 
should be on most schoolbuses in the very near future.
    So I guess if you can afford it and for the safety of the 
children and the newer bus, it would probably make a better 
practice to buy a newer bus nowadays.
    Mr. Westerman. And you were talking about the tremendous 
amount of classes of stock schoolbuses. How do you educate the 
public more to know, you know, when there is a bus stopped with 
the lights flashing and the arm out that means stop?
    And I say that just from practical experience. Within the 
last couple of months I was driving on a road in my district. 
It was a very wide, nice road, two lanes of traffic each 
direction, with a turning lane in the middle, 65-mile-an-hour 
speed limit, and I started meeting a schoolbus on the far side 
of the road slowing down to stop. So I stopped in a 65-mile-an-
hour zone, and I think I got passed four times, and the kids 
were getting off on the other side of the road.
    It was not necessarily any danger for those children who 
were getting off on the other side of the road, but still, you 
know, people just ignored that stopped schoolbus.
    And plus it was kind of a safety issue with me stopped in a 
65-mile-an-hour zone with cars coming up behind me real 
quickly.
    So how do we educate the public and do a better job of that 
because it is basically just on when you take your driver's 
test.
    Ms. Norton. Someone can answer, but the time has expired. 
Is there any ansawer?
    Ms. Poland. So the NTSB is focusing on route selection, and 
then with our continuing investigations, we are looking at 
other countermeasures because three of our investigations are 
very similar to that circumstance, except the students were 
crossing the high-speed oncoming roadway, and so we are looking 
at countermeasures to try and address that issue specifically.
    Mr. Westerman. Thank you, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Westerman.
    And I want to welcome Chairman Cummings who asked 
permission to sit with us at this hearing and ask questions.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Madam Chair.
    On January 11th, 2017, Congressman Steve Cohen and our 
former colleague, Congressman Jimmy Duncan, and I wrote to our 
previous chairman asking that the committee convene a hearing 
on schoolbus safety, but he did not answer our request.
    I want to thank Chairwoman Norton and Chairman DeFazio for 
your focus on this critical issue and for convening today's 
hearing.
    On November 1st, 2016, six people were killed in Baltimore 
in my hometown when a schoolbus crashed into a car, then struck 
a pillar in a cemetery, and finally collided head on with a 
public transit bus.
    The National Transportation Safety Board investigated this 
crash and a crash in Chattanooga, Tennessee, and adopted a 
report on May 22nd, 2018, addressing these two accidents.
    The report stated, and I quote, ``Although the specific 
safety issues differed, the crashes shared one common factor, 
poor driver oversight by both the school districts and the 
contracted motor carriers, which resulted in unsafe operation 
of schoolbuses,'' end of quote.
    The report found that the driver of the Baltimore 
schoolbus, quote, ``repeated license revocations and 
suspensions over several decades,'' end of quote. It had also 
uncovered instances in which the driver fraudulently obtained 
his license as well as numerous moving violations.
    In addition, the driver had medical conditions, including a 
history of seizures that should have disqualified him from 
driving a schoolbus.
    In March 2017, the NTSB recommended that the Baltimore 
Public Schools request a performance audit of the 
transportation department and then take corrective actions to 
improve internal controls.
    NTSB also recommended that the Maryland State Department of 
Education review the State regulations to clarify disqualifying 
conditions and require notification to the State department of 
education regarding all drivers who are determined to be not 
qualified to drive a schoolbus.
    NTSB also made several recommendations to the Maryland 
Motor Vehicle Administration.
    Dr. Poland, what is the status of the recommendations you 
made to the Baltimore City School System and to the State of 
Maryland?
    Ms. Poland. So those early and urgent recommendations have 
certainly been updated. We received correspondence from 
Baltimore City Public Schools about the performance audit and 
based on the correspondence and their actions, we have closed 
that recommendation with an acceptable action.
    There is another recommendation as you mentioned to 
Baltimore City Public Schools that they take corrective 
actions, and that recommendation is still open while they 
continue to do those corrective actions, and that is an 
acceptable status.
    The recommendation to the Maryland State Department of 
Education addressing the COMAR, the Code of Maryland 
Regulations, is in a status of open--acceptable response. So 
Maryland has communicated with us that they are working on that 
recommendation, and they are in the process of implementing it, 
and we found that acceptable.
    Mr. Cummings. According to a report in the Baltimore Sun 
from March 2nd, 2018, the results of the order of the Baltimore 
School System showed, and I quote, ``an accumulation of 
errors,'' including, quote, ``a systemic absence of leadership 
over an extended period of time,'' end of quote, and a failure, 
quote, ``to provide due diligence over the systems,'' end of 
quote, that were in place.
    Have steps been taken to address these findings and to 
implement corrective measures that will ensure no more 
individuals are able to drive schoolbuses with disqualifying 
conditions in Maryland?
    Ms. Poland. Maryland is currently working on implementing 
that, and I think importantly from that investigation, because 
we were able to share that on a nationwide level, other States 
are looking at those recommendations and examining their own 
systems to ensure that in other States they are having 
appropriate reporting and the action is being taken at the 
local level to remove drivers that are unsafe for a variety of 
reasons, as you mentioned.
    Mr. Cummings. Thank you, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Cummings. We 
appreciate your attending.
    Are there any further questions from members of the 
subcommittee? Yes, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chair.
    I would like to just follow up where I left off on the last 
question. Ms. Poland ran out of time.
    Have you heard of anecdotes or instances of diesel vehicles 
being refitted with these filtration systems and catching fire 
because of them? You know, whether it is trucks, buses, farm 
equipment, you know, I can answer that on my own, but I would 
rather hear yours.
    Ms. Poland. Sure. So as I mentioned earlier, our ongoing 
investigations and our previous investigations do not deal with 
that specific cause.
    My background is biomechanical engineering. We have experts 
at the NTSB that are experts in fire safety and some of these 
post-crash fires. So we would be happy to take your question 
back to see if there are some of our subject matter experts 
that are more familiar with your question.
    Mr. LaMalfa. OK. It may not necessarily deal with crashes 
per se, but just are you getting that feedback?
    So all right. And I would like to follow up on what Mr. 
Cummings was talking about as well. You know, we hear a lot of 
talk about technology coming to save the day here, but it 
really comes down to there is a human factor of those driving 
the buses and the people driving the cars.
    And so I think the focus we are going to have the most 
success is, indeed, how do we tighten that up. He was talking 
about qualifications for busdrivers, and I wondered do we have 
anything close to a 50-State standard on who is eligible, what 
their record is, what their physical capabilities are for 
vision, for being able to help students in situations?
    And I would like to also follow that. I think Mr. Benish 
commented on it. Is there a 50-State standard or do all States? 
You said in California, and I am used to it, that if a child is 
going to cross the road, there is a whole lot of difference 
between letting kids off on the edge of the road and they go 
this way, but if they are to be crossing the road, you have got 
red lights. You should be stopping cars. We hear that they are 
not.
    But if the driver is also getting out, the driver is the 
adult in this case, and they are the one who should be trained 
and making sure that there are actually no cars coming when 
they make that commitment to go across the road and the other 
lane to the other side.
    So do we have a 50-State standard on the driver getting out 
with the sign or something to prevent the kid from just running 
across, the driver being the adult, before they cross that 
other lane to the other side of the road?
    And do we have a standard of, you know, my previous thought 
there on drivers in general?
    Mr. Benish. Currently I do not think there is a standard 
across 50 States to do that. It is just in California, what I 
understand.
    Mr. LaMalfa. It seems like that is the sensible thing 
because, again, the driver is the adult and all of that.
    I would like, Ms. Poland, if you have stats, too, on when 
you talk about collisions with children by cars. Are the vast 
majority of them on crossing the roadway or is it happening on 
the safer side where they are getting out and just going away 
from the road?
    I would think that it is going to be the vast majority are 
going to be the crossing the road, and if we are, you know, 
enforcing on that better, then I think we can have a lot more 
success.
    Maybe it is the driver getting out as a 50-State standard, 
and just regular drivers, you know, people who have been 
driving a while, have not taken the test in a while, whatever, 
I think we need to have a really great emphasis on the 
difference between a flashing yellow light on a bus and a 
flashing red light.
    You know, there are so many holdups in traffic, and if they 
do not take the bus seriously, you know, if people do not stop 
for a flashing yellow light when there are no kids present. 
Once the traffic is stabilized, and this is again where more 
driver training needs to be in place. They should not flick the 
red light on and start doing things until traffic is maybe calm 
and there is a break in that. It is about an inconvenience, 
making drivers mad, and all of this stuff because driver rage 
is a big part of a lot of things.
    But there needs to be that finesse there of the yellow 
light to get things calmed down, and then the red light when 
you're actually going to have students.
    I know I gave you a few things to think about there, but 
that seems to me to be where the success is going to be. And we 
hear a lot about technology saving the day. We have got to have 
top-notch drivers and our people on the road, our car drivers, 
need to be a little more cognizant of the difference between 
yellow light is OK, slow down. Red light you have got to stop, 
and the drivers differentiating.
    Go ahead. Please comment and I will stop.
    Ms. Poland. As you mentioned, this is a multifaceted 
approach for schoolbus transportation safety from the human 
performance of the schoolbus driver and the drivers on the road 
around it to those last-minute, technological interventions 
that can prevent a crash, to protecting the occupants if a 
crash does happen.
    So I certainly appreciate your comments, and that is 
something that we will consider as we move forward on our 
loading zone crashes.
    Mr. LaMalfa. Yes. Again, those stats I mentioned, if we 
could get those stats maybe for the committee or at least for 
my office on are these crossing the road statistics by and 
large. Is it more 50-50? And is it while the bus is still there 
or are kids getting hit even after the bus has left?
    Something like that would be very instructive on what we 
need to look at.
    Thank you, Madam Chair.
    Ms. Norton. I appreciate those questions. Perhaps you can 
get those statistics to the committee itself that the gentleman 
just asked for so that we can put them in the record. They 
would be very important.
    Ms. Poland. Yes, ma'am.
    Ms. Norton. Are there any further questions of members of 
the subcommittee?
    [No response.]
    Ms. Norton. Seeing none, I want to thank each of the 
witnesses today for really very helpful testimony. Each and 
every one of you gave not only helpful information to us, but I 
must tell you I think homework for us.
    When I came into this hearing before I heard your 
testimony, I did not have what I would call an agenda. You have 
given me one now because of the detail of your helpful 
testimony.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing or that Members have already asked and I have asked to 
be submitted.
    I also ask unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by our Members or witnesses to be included in the 
record of today's hearing.
    Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned. Thank you for attending.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Madam Chairwoman.
    It is with great appreciation that I thank the Chairwoman for 
holding this hearing today, as it allows us to review school bus 
safety.
    Everyone should care about school bus safety because it transports 
our precious children. Today, I am eager to hear from the witnesses on 
the issues surrounding school bus safety and how we, in Congress, can 
assist in improving school bus safety.
    In my district, the school districts have implemented safety 
initiatives to protect our children. They are purchasing new school 
buses that have new technology including auto-braking and back-up 
cameras. To put parents' minds at ease, Lancaster Independent School 
District purchased ``Safe Stop'' software that includes an app usable 
by parents. When a child boards or exits a school bus, he or she swipes 
his or her ID card, which registers whether the child is on the school 
bus or not. Safe Stop tracks the location of each child riding a school 
bus. The ability for parents to know the location of their child has 
given parents peace of mind.
    The Dallas Independent School District spent $2 billion for a new 
camera system for all their school buses. The camera system consists of 
interior and exterior cameras to know what is happening in and around 
the school bus to increase safety.
    Safety is key. This includes the safety of transporting our 
children to and from school. I am ready to work with my colleagues in 
examining ways we can help improve school bus safety.
    I look forward to hearing the testimony and solutions from all the 
witnesses today.
    Thank you. I yield back.

                                 <F-dash>
 Statement of Hon. Jackie Walorski, a Representative in Congress from 
                          the State of Indiana
    Thank you, Chairwoman Eleanor Holmes Norton, Ranking Member Rodney 
Davis, and members of the House Transportation and Infrastructure 
Subcommittee on Highways and Transit. I appreciate the opportunity to 
provide written testimony for this important hearing entitled 
``Examining the Federal Role in Improving School Bus Safety.''
    On October 30, 2018, three siblings in my district were tragically 
killed by an oncoming driver who failed to stop as the kids were 
crossing the road to board their school bus. Illegal passing of school 
buses happens at an alarming rate every day in America. Every driver 
has a responsibility to exercise caution when students are present, and 
that includes never passing a school bus that is stopped with red 
lights flashing or its stop arm extended.
    In the most recent annual one-day observational survey, 105,306 
school bus drivers in 38 States reported 83,944 vehicles illegally 
passed a stopped school bus in one day. Based on these reported 
observations from 2018, it is estimated that 15 million vehicles pass 
stopped school buses in a 180-day school year, even though it is 
against the law in all 50 states. These startling statistics show that 
we need to do more to help local school systems figure out what tools 
are available to improve student safety and prevent dangerous, illegal 
passing of school buses when children are present.
    In response to these troubling events, Rep. Julia Brownley and I 
recently introduced H.R. 2218, the Stop for School Buses Act, which 
will help our states and local communities take the most effective 
actions to prevent illegal passing of school buses and ensure students 
are safe when traveling to and from school. The bill does not pre-
determine any one solution but directs the U.S. Department of 
Transportation to:
    <bullet>  compile illegal passing laws in all states, including 
levels of enforcement and penalties;
    <bullet>  review existing public safety measures and programs to 
prevent illegal passing of school buses;
    <bullet>  issue recommendations on best practices for preventing 
illegal passing;
    <bullet>  evaluate the effectiveness of various technologies that 
may help prevent illegal passing incidents;
    <bullet>  review driver education materials in all states to 
determine whether more information about illegal passing should be 
provided to drivers;
    <bullet>  research connections between illegal passing of school 
buses and other safety issues; and
    <bullet>  create and execute a public safety messaging campaign to 
promote safe driving when children are present and highlight the 
dangers of illegal passing.

    The tragic loss of young Hoosiers in bus-related crashes last year 
was a reminder that life is precious and that we all need to work 
together to keep children safe. The Stop for School Buses Act will help 
state and local governments determine the best solutions to improve the 
safety of students and prevent illegal passing of school buses. I look 
forward to working with this subcommittee as well as the full 
Transportation and Infrastructure Committee to advance the Stop for 
School Buses Act, and I appreciate the opportunity to submit this 
testimony for the record.

                                 <F-dash>
 Statement of the National Safety Council, Submitted for the Record by 
                       Hon. Eleanor Holmes Norton
    Thank you for holding this important hearing, ``Examining the 
Federal Role in Improving School Bus Safety,'' and for allowing the 
National Safety Council (NSC) to submit comments for the record.
    NSC is a 100 year-old nonprofit organization with the mission of 
eliminating preventable deaths at work, in homes and communities, and 
on the road through leadership, research, education and advocacy. Our 
more than 15,000 member companies represent employees at more than 
50,000 U.S. worksites. Last Congress, NSC supported Representative 
Cohen's, ``School Bus Safety Act,'' and will continue to support this 
critical legislation until it becomes law.
    As you know, motor vehicle crashes are the leading cause of death 
for children in the United States.\1\ From 2008 to 2017, there were 264 
school-age children killed in school transportation-related crashes.\2\ 
Sixty-one were occupants of school buses, 100 were occupants of other 
vehicles, 97 were pedestrians, five were pedal cyclists and one was 
another non-occupant.
---------------------------------------------------------------------------
    \1\ https://www.nhtsa.gov/road-safety/school-bus-safety
    \2\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812712
---------------------------------------------------------------------------
    Seat belts save lives and reduce serious injuries by half.\3\ In 
2017, seat belts saved almost 15,000 lives.\4\ There is no question 
that seat belts play an important role in keeping passengers safe, but 
most students on school buses travel without this important safety 
protection. The National Safety Council supports all school buses being 
equipped with three-point belts so that children are appropriately 
protected each and every ride.
---------------------------------------------------------------------------
    \3\ https://www.cdc.gov/motorvehiclesafety/seatbelts/facts.html
    \4\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812691
---------------------------------------------------------------------------
    Most school buses operating today only include a seat belt for the 
driver and are not provided for the passengers. However, since 2002, 
lap and shoulder belts have been made available on school buses, and 
some school systems do in fact use passenger seat belts.\5\ Congress 
should act to require this important protection on all school buses.
---------------------------------------------------------------------------
    \5\ http://www.nasdpts.org/Documents/NASDPTS%20POSITION%20PAPER
%20PASSENGER%20LAP%20SHOULDER%20BELTS%20FINAL%20FEB%202014.pdf
---------------------------------------------------------------------------
    Additionally, the school bus loading zone can be dangerous. All 50 
states have laws prohibiting drivers from passing a stopped school bus, 
yet each day in the United States, it happens tens of thousands of 
times with virtually no consequences. Incorporating technology on buses 
to record these violations and allow for the prosecution of violators 
would deter others from taking the same potentially deadly actions. NSC 
urges Congress to require the incorporation of these technologies in to 
school buses.

                                 <F-dash>
 Report, ``A Continuous Video Recording System on a Lap-Belt Equipped 
School Bus: Real-World Occupant Kinematics and Injuries During a Severe 
Side Impact Crash,'' by Kristin Poland et al., Submitted for the Record 
                     by Hon. Eleanor Holmes Norton
A Continuous Video Recording System on a Lap-Belt Equipped School Bus: 
Real-World Occupant Kinematics and Injuries During a Severe Side Impact 
                                 Crash
Kristin Poland
Thomas H. Barth
National Transportation Safety Board
USA

Kristy B. Arbogast
Mark R. Zonfrillo
Children's Hospital of Philadelphia
USA

Richard Kent
University of Virginia
USA

Paper Number 15-0253
                                abstract
    A loaded truck-tractor semitrailer severely impacted the side of a 
lap-belt-equipped large school bus in which 30 students, age 5 to 11 
years, were riding. The crash investigation obtained on-board video and 
audio from the school bus recording system, which had four active 
cameras that recorded at 15 frames per second. A total of 55 minutes 39 
seconds of video and audio was obtained, including over 15 minutes 
after the bus came to final rest. Qualitative descriptions of occupant 
motion during the crash sequence were documented based on the time 
sequence of vehicle motion, including kinematics of lap-belted 
pediatric occupants, occupant-to-occupant interactions, and occupant-
to-vehicle interactions. Further, quantitative measurements of occupant 
motion were performed by tracking visible body regions such as the head 
or center of the pelvis using commercially available motion analysis 
software. Occupant injuries were coded using hospital medical records 
and according to the Abbreviated Injury Scale 2008 manual.
    Injury severity was higher in the rear of the bus near the region 
of impact, maximum intrusion, and maximum lateral accelerations. The 
injury severity scores (ISS) ranged from 1 to 6 in the front of the bus 
and from 1 to 57 at the rear, including the one student seated at the 
rear of the bus who was fatally injured. Head injuries included several 
mild to moderate traumatic brain injuries. Lateral head translations 
and velocities were evaluated. The lateral head displacements toward 
the impacted side in the front of the bus were similar to those in the 
rear during the initial impact, but the head displacements for 
occupants in the rear of the bus were greater during the secondary and 
tertiary rebound motions toward alternating sides of the bus. Lateral 
head velocities relative to the bus interior were generally almost 
twice as high in the rear of the bus as in the front. In addition, the 
magnitude of whole body pediatric occupant motion in the absence of 
injury was notable. Further, loss of consciousness negatively affected 
occupants' ability to self-evacuate, even when subjects regained 
consciousness.
    The qualitative and quantitative descriptions represent the first 
time that lap-belted school bus pediatric occupant motion during a 
crash has been documented from continuous onboard video recordings. 
This unique data source allows the rare correlation of occupant 
kinematics with crash severity and injury outcomes in living humans.
                              introduction
    Pediatric biomechanics is a critical area of research to ensure the 
protection of these vulnerable occupants. Key data has been gathered 
from research through academic and industry partnerships. [1] 
Government programs, such as the National Highway Traffic Safety 
Administration (NHTSA) National Automotive Sampling System (NASS) and 
Crash Injury Research (CIREN), generate critical databases, crash 
reconstructions, and associated research. Although a significant amount 
of real-world information for a large number of crash types and 
scenarios has been obtained in the past, there is still limited 
information available about real-world pediatric occupant kinematics 
and interactions with seats, restraints, and interior systems during 
the impact sequence.
    Seat and restraint designs are developed using anthropomophic test 
devices (ATD), which have biofidelity limitations, including seat 
positioning differences between the ATD and a human. [2] Further, 
pediatric ATDs are often scaled from adult ATDs and suffer from a lack 
of information establishing range of motion and injury thresholds. [3] 
Human volunteer research partially addresses the differences between 
ATDs and humans, but this research is conducted in sub-injurious 
settings. [4, 5] Naturalistic driving studies have the potential to 
provide information on a range of event severities as long as the 
appropriate data can be collected. [6] Accident reconstructions in 
conjunction with post mortem human subject (PMHS) testing address 
injurious crash levels, but pediatric PMHS testing is extremely rare 
[7] and does not include muscle response.
    The objectives of this analysis were to document pediatric occupant 
injuries, qualitative observations from the continuous onboard video 
system, and quantitative measurements from the onboard video of 
occupant kinematics during the crash phase. The results present a 
unique data source to study the real-world movement and associated 
injuries of pediatric occupants.
                                methods
    In this crash, a loaded truck-tractor semitrailer severely impacted 
the side of a lap-belt-equipped large school bus occupied by the driver 
and 30 students, age 5 to 11 years. (See Figure 1.) The school bus was 
equipped with a continuous audio and video recording system 
manufactured by Seon Design, Inc. The system had four active cameras, 
which recorded at 15 frames per second. The videos began prior to 
student loading of the bus and continued through the bus trip to the 
point of the collision and after. A total of 55 minutes 39 seconds of 
video and audio was obtained, including over 15 minutes after the bus 
came to final rest. The continuous video system captured useful data 
prior to, during, and after the crash.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Figure 1. The crash scene diagram.

Vehicle and Occupant Descriptions
    Each of the four camera positions was individually labeled, by the 
Seon Design, Inc. video system, as ``Step'', ``Front'', ``Mid'', and 
``Rear'' according to their location and orientation. Figure 2 shows a 
still image with four frames from each of the four onboard video 
cameras prior to the loading of the school bus. (By statute, the NTSB 
is prohibited from releasing onboard video and audio recordings that 
show occupants.) All four camera views were evaluated for the entire 
recorded duration to describe the motion of the school bus and the 
occupants using both qualitative and quantitative methods. During the 
precrash phase, qualitative descriptions of the driver's actions, 
communications, the vehicle motion, and any relevant video overlay 
information, such as ``RT'' indicating the right turn signal was 
illuminated or ``BRK'' indicating that the brake was applied, were 
documented based on the crash timeline. In addition, qualitative 
descriptions of each visible occupant's belt use, seating position 
prior to impact, position at final rest, whether the occupant was 
ejected from the seat compartment, occupant-to-occupant interactions, 
occupant-to-vehicle interactions, and state of consciousness postcrash 
were documented based on the timeline developed for the vehicle motion.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 2. Still images from the onboard video system showing the four 
 camera views prior to the occupants loading onto the school bus. The 
    four camera views, starting in the upper left corner and moving 
    clockwise, are ``Step'', ``Front'', ``Rear'', and ``Mid''. Text 
   detailing the row numbers is overlayed on the images for clarity.

    Further, quantitative positions and velocities of the school bus 
and the visible occupants were calculated. The process to estimate the 
dynamic school bus motion history has been described previously. [8] 
Briefly, a model of the camera was developed and calibrated. In an 
iterative process, each video frame from the camera was matched to a 
synthesized video frame, including known landmarks outside the bus, 
generated by the camera model. When the frames matched, the bus 
position and orientation was established. For the quantitative occupant 
motion, the ``Front'' and ``Mid'' cameras provided the clearest view of 
the occupant motion and were the source of this documentation. The 
basic method to calculate the occupant motion required the calibration 
of the visible occupant space within the two-dimensional recorded video 
frame. ProAnalyst Professional Edition (Version 1.5.6.5) was used to 
calibrate the local occupant seating coordinate system, based on 
interior bus dimensions measured from the three-dimensional laser scans 
of the school bus, and to track the occupants' (or interior surfaces') 
motion.
    The ``Front'' camera was centered in the middle of the school bus 
interior. As a result, the perspective calibration was used in 
ProAnalyst, using four points representing the base and top of the 
windows on each side of the bus in a position closely matching the 
occupant's initial seated position. Row 2 and row 3 were calibrated. 
Seat spacing and seat width were used to verify the calibrations. The 
``Mid'' camera was offset toward the driver's side of the bus looking 
toward the passenger side of the bus. The perspective calibration was 
implemented again for row 7, using four points representing the base 
and top of the windows on both sides of the bus in a position closely 
matching the tracked occupant's initial seated position. For row 6, 
because the top of the windows were not visible in the camera view, the 
perspective calibration was used but the four points represented the 
base of the windows and the base of the seat pan on both the driver and 
passenger side of the bus. The perspective calibration was adjusted to 
most closely match the tracked occupant's motion within a seat row. As 
a result, there were multiple calibrations defined for both row 6 and 
row 7. Seat spacing and seat width were used to verify the 
calibrations. The motion in the local occupant seating coordinate 
system was then transformed into the bus body coordinate system. 
Positions and velocities were calculated relative to the bus body 
coordinate system.
    The videos documented student loading onto the bus, the use of seat 
belts for most students, and occupant positions throughout the bus 
trip. These continuous recordings helped establish an accurate seating 
chart, including occupant age and gender, preimpact position, and the 
level of restraint for most of the students.
Injury Coding
    Abbreviated Injury Scale (AIS) scores were assigned and injury 
descriptions were summarized for all occupants who received medical 
attention. Copies of medical records and digital radiographic images 
were reviewed to confirm injuries. Standard AIS coding rules were used 
based on the most recent AIS manual. [9] Injuries were summarized using 
several metrics: the traditional International Civil Aviation 
Organization (ICAO) code with categories of uninjured, minor, serious, 
or fatal; the comprehensive AIS score; and the total Injury Severity 
Score (ISS) ranging from 0-75. Individual injuries by ISS body region, 
AIS code, and injury description were listed for each school bus 
occupant that received treatment and for the fatally injured occupant. 
[10]
    Given the availability of the on-board video system, observation of 
loss of consciousness (LOC) was used to help determine the concussion 
diagnoses. Occupants were given the diagnosis of concussion if there 
was probable or certain LOC on the bus and no intracranial hemorrhage, 
or if a final concussion diagnosis was confirmed in the medical record 
(regardless of whether the passenger experienced LOC). Concussions were 
not coded if the patient had LOC with any intracranial hemorrhage.
                                results
Qualitative Observations from Continuous Video System
    The continuous video system confirmed that the bus driver was not 
distracted by a cell phone or other portable electronic device and that 
he had both hands on the steering wheel during the left turn maneuver 
just prior to the collision. The driver consistently used the turn 
signals to indicate a transition from one lane to another and to 
indicate motion into the left turn lane prior to the collision. The 
driver also applied braking in preparation for this left turn. Further, 
it was apparent that the driver perceived the impact threat, though too 
late, because he turned his head toward the oncoming truck. The onboard 
videos and associated audio recordings showed that the driver 
encouraged seat belt use at the beginning of the trip and that he did 
not appear to be distracted by students just prior to the collision.
    The continuous recordings also documented student loading onto the 
bus, the use of seat belts for most students (some views were partially 
obscured, including the seating position of the fatally injured 
occupant), and occupant positions throughout the bus trip. These data 
helped investigators establish an accurate seating chart, pre-crash 
occupant positions, and the level of restraint for most of the 
occupants. Pre-crash video and audio documentation showed that the 
driver's attentiveness to passenger safety and seat belt rules was a 
factor in the number of students who properly wore and adjusted their 
seat belts.
    The most beneficial data obtained from the onboard video system 
were related to the crash sequence and the post-crash environment. The 
four interior cameras remained in place and functional throughout the 
crash event and continued recording for over 15 minutes after the 
initial impact.
Crash Sequence and Post-crash Events as Determined from Video Systems
    Impact occurred at 15:55:03 and the bus came to final rest almost 
10 seconds later. During the motion to final rest, the bus yawed 
approximately 180 degrees and experienced two large roll events. The 
first non-occupant to enter the school bus was an adult female who 
entered the bus at time 15:55:28 through the open rear emergency exit 
door and provided assistance to occupant 10D about 15 seconds after the 
bus came to final rest. She continued to provide assistance to the bus 
occupants until the end of the video recording, which stopped at 
16:10:07. The first uniformed officer boarded the school bus about 3 
minutes and 22 seconds after the bus came to final rest and emergency 
medical services arrived about 8 minutes and 22 seconds after the bus 
came to final rest.
Seating Chart and Injuries
    The seating chart established based on the continuous onboard video 
system is shown in Figure 3. All occupants are marked with the ICAO 
code. For those occupants with medical records, the maximum AIS level 
and the ISS score are also documented. In addition, occupant gender and 
age are listed. Seating positions were labeled based on the seat row 
(1-11) and the seat position (A-F from left to right as viewed from the 
back). The area of impact (AOI) is shown on the chart. Additional 
details on the injury documentation are included in the NTSB's Highway 
Safety Report--Commercial Vehicle Onboard Video Systems. [11]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Figure 3. The school bus passenger seating chart, with ICAO injury 
   level, MAIS injury level, ISS score, and demographic information.

Belt Use
    Belt use was visible for twenty-two occupants and of those, seven 
appeared to wear the lap belt loosely or slightly loosely (1D, 2C, 4D, 
5C, 7D, 8D, and 8F), as determined by the visible tension in the belt 
and the motion of the occupant during the crash sequence. There were no 
observations showing a lack of belt use, however, belt use was not 
visible for eight occupants (3D, 3E, 4F, 5A, 5F, 10C, 10D, and 10F) due 
to the obstructions of the seatbacks and the occupant's seating 
distance from the onboard cameras.
Occupant Position Relative to Seat Compartment Post-crash
    Twelve occupants were ejected from their seat compartment during 
the crash sequence (1C, 1D, 2C, 2D, 3C, 3D, 4D, 5A, 5C, 9C, 10C, and 
10D). All of these occupants, except occupant 5A, were initially seated 
along the aisle and most were ejected into the aisle post-crash despite 
wearing the lap belt. Occupant 5A was ejected into the aisle and then 
backward into seat row 6, on the driver side of the bus. Belt use was 
not visible for occupant 5A due to the camera positions and 
obstructions from the seatbacks. Other occupants (7C, 7D, 8C, and 8D) 
were not considered to be ejected from the seat compartment but it was 
noted that the occupants' heads and upper torsos flailed outside the 
seating compartment into the adjacent seating compartment across the 
aisle during the crash sequence.
Occupant-to-Occupant and Occupant-to-Interior Impacts
    There were nineteen documented instances of occupant-to-occupant 
impacts, 16 of which involved an impact of an occupant's head with 
either another occupant's head or other part of their body. All of the 
documented occupant-to-occupant contacts occurred for occupants in rows 
2, 3, 5, 6, 7, 8, and 9. Generally, the occupants impacted other 
occupants within the same seating row, but in rows 5/6 and 8/9, impacts 
occurred between occupants originally seated in different rows. For 
example, occupant 5A's right torso was impacted by occupant 6D's head 
as occupant 5A traveled into the seat row behind and occupant 6D 
flailed in that direction. In rows 8/9, occupant 8F's body was pushed 
upward and rotated backward over the seatback such that occupant 8F's 
head impacted the chest and pelvis of the occupant seated directly 
behind (9F). (Occupant 8F's head also continued back and contacted the 
seat pan near occupant 9F's seating position.) Occupant 8F was lap 
belted and observations from the video showed the belt visible on the 
occupant's thighs. Occupants in row 1 interacted with each other but 
specific impacts between occupants were not noted. Occupants in row 10 
were generally not visible due to the camera positions and the 
obstruction from the high seatbacks.
    There were also nineteen documented instances of occupant-to-
interior impacts. Nine of these involved an impact of the occupant's 
head onto a passenger side window or sidewall structure (2F, 3E, 4F, 
5F, 6D, 7D, 8D, 8F, and 9F) and one other involved an impact of the 
occupant's head with a driver side window and sidewall structure (3A). 
All of these occupant-to-interior impacts were sustained by occupants 
seated against the sidewall or in a position without other occupants 
between them and the sidewall, except in row 8 where both occupants on 
the right side of the bus impacted the sidewall. The other occupant-to-
interior impacts involved impacts onto the seat pans and the aisle-side 
edges of the seatbacks.
Loss of Consciousness and Head Injuries
    Loss of consciousness (LOC) was observed in seven occupants (3E, 
6D, 7C, 7D, 8D, 8F, and 10C). The state of consciousness was unknown 
for three other occupants (8F, 10D, and 10F) who were not visible post-
crash. The other twenty occupants were conscious post-crash. Of those 
occupants with an observed LOC, only occupant 6D remained unconscious 
at the end of the video recording. (Occupant 10C was documented with a 
LOC but was the fatally injured occupant.) In addition, recorded audio 
discussions between the adult female and emergency medical responders 
indicate that occupant 10F was conscious at the end of the recording.
    Head injuries were documented on the medical records for twelve 
occupants (2F, 3E, 6D, 7A, 7C, 7D, 8D, 8F, 9C, 10C, 10D, and 10F) 
including six who were diagnosed with only a concussion (3E, 7A, 8D, 
8F, 9C, and 10D). All seven occupants with an observed LOC had a 
documented head injury. As expected from the dynamics of the bus, the 
majority of the head injuries were seen in occupants seated in the back 
half of the bus. For the two front seated occupants with head injuries, 
the sustained injuries were less severe. For example, occupant 2F was 
diagnosed with a head injury that was not further specified and 
occupant 3E was diagnosed with a concussion with LOC. In the back half 
of the bus, the head injuries were more severe, especially for 
occupants in rows 6, 7, and 10. Occupant 6D's head injuries included 
cerebral contusions, a cerebral hematoma, a subdural hemorrhage, a 
mastoid fracture, and a skull fracture. Head injuries to occupant 7C 
included a cerebral subarachnoid hemorrhage and left and right 
intraventricular hemorrhages. For occupant 7D, head injuries included 
comminuted basilar skull fractures on the left and right sides, a 
temporal bone fracture, and left and right cranial nerve VII palsy. 
Interestingly, the head injuries to occupants in rows 8 and 9 were 
limited to only concussions and minor lacerations. Yet occupants in row 
10 again experienced severe head injuries. Occupant 10C, who was 
fatally injured in the crash, sustained bilateral cerebral edemas, 
multiple cerebral subarachnoid hemorrhages, and a skull fracture. 
Occupant 10F sustained a cerebral subdural hematoma.
Evacuation
    Nineteen occupants self-evacuated out the front loading door (1A, 
1C, 1D, 1F, 2C, 2D, 2E, 2F, 3A, 3C, 3D, 4D, 4F, 5A, 5C, 5D, 5F, 7A, and 
9F). Eighteen of those self-evacuated in 60 seconds or less, from the 
time the bus came to final rest. Another four occupants were assisted 
out the rear emergency exit door (8C, 8D, 9C, and 10D). Occupants 3E, 
6D, 7C, 7D, 8F, 10C, and 10F remained on the bus at the end of the 
video recording. Occupant 10D was the first occupant removed from the 
school bus with assistance by the adult female at 15:55:33, which was 
about 20 seconds after the bus came to final rest. Occupant 1D was the 
first to self-evacuate out the front loading door at 15:55:43, 30 
seconds after final rest. Occupant 7A was the last to self-evacuate out 
the front loading door at 15:58:12, almost 3 minutes after final rest. 
Occupant 8C was the last occupant removed with assistance before the 
video recording ended, at 15:58:39, about 3.5 minutes after final rest.
    Injury Factors in Self-Evacuation: None of the occupants with an 
observed LOC were able to self-evacuate. Most occupants with a LOC 
regained consciousness during the period of the video recording but 
only occupant 8D was evacuated off the bus with assistance. The 
remaining occupants with an observed LOC were on the bus at the end of 
the recording, which was almost 15 minutes after the bus came to final 
rest.
    Five occupants sustained pelvis and/or lower extremity fractures as 
a result of the crash (4F, 7C, 7D, 8F, and 9C). The sustained pelvic/
lower extremity fractures were a closed left ankle fracture for 
occupant 4F, a right pubic fracture for occupant 7C, a pelvic ring 
fracture at the anterior iliac spine for occupant 7D, a right talus 
fracture for occupant 8F, and pelvic fractures at the sacral spine and 
at the right ramus through the pubic symphysis for occupant 9F. Of the 
occupants that sustained a pelvic/lower extremity fracture, three also 
experienced a LOC and a documented head injury (7C, 7D, and 8F). In 
addition, occupant 9C sustained a concussion without LOC, as discussed 
above. Only occupant 4F sustained a lower extremity fracture without a 
head injury or LOC and this occupant was able to self-evacuate 48 
seconds after the bus came to final rest.
    Spinal injuries were rare. (The driver, although not a focus of 
this paper, sustained a cervical spine sprain, or whiplash, and a 
lumbo-sacral spine strain.) Occupant 3D sustained a cervical spine 
sprain (whiplash) and occupant 10D, the fatally injured occupant, 
sustained a cord laceration with fracture and dislocation at C7-T1. 
Except for the fatally injured occupant, the minor spinal injuries did 
not affect evacuation.
Occupant Kinematics
    Using the ``Front'' camera, the head positions of occupants 2C, 3C, 
and 3E and the pelvis position of occupant 3C were tracked in the bus 
based coordinate system. The lateral position versus time history can 
be seen in Figure 4, where the lateral centerline of the bus is zero 
and motion toward the driver side is in the positive direction. The 
lateral distance from the bus centerline to the sidewall was 1.17m and 
is labeled on the graph.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Figure 4. The lateral (y axis) head position of occupant 2C, 3C, and 3E 
            and the lateral pelvis position of occupant 3C.

    Using the ``Mid'' camera, the head positions of occupants 6D, 7A, 
7C, and 7D and the pelvis position of occupant 6D and 7D were tracked. 
The lateral position versus time history can be seen in Figure 5.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 Figure 5. The lateral (y axis) head position of occupant 6D, 7A, 7C, 
     and 7D and the lateral pelvis position of occupant 6D and 7D.

    The position of the ``Mid'' camera did not remain stationary 
relative to the bus interior during the impact sequence. This relative 
motion between the camera and bus interior may have resulted from 
deformation at the floor and sidewall, camera orientation changes, or a 
combination of the two during the impact sequence. In an effort to 
document this relative velocity, four points fixed on the bus interior 
were tracked. The left sidewall experienced the least deformation and 
would, ideally, provide the best estimate of the camera velocity but 
since this sidewall moved out of the camera view for a portion of the 
impact sequence, points on the left sidewall were not tracked. Instead, 
the aisle-side position of seat 6C was used as a surrogate for the 
camera velocity since that seat was attached to the left sidewall and 
the floor underneath and experienced the least deformation of the 
interior points visible in the ``Mid'' camera.
    Using this correction for the ``Mid'' camera, the maximum intrusion 
into row 7 was approximately 0.48m during the first 0.13 seconds with a 
recovery of 0.12m during the next 0.13 seconds. Similarly, the maximum 
velocity of the right sidewall in row 7 was 2.41 m/s and the maximum 
velocity of the aisle-side point on seat 7D was 3.50 m/s at 0.13 
seconds. Note that these velocities are lower bounds on possible 
velocities because the calculation is limited by the video frame rate. 
Maximum displacement could have occurred between frames and not 
captured until the subsequent frame, 67 milliseconds later, which would 
reduce the calculated velocity.
    Although the bus motion involved both translation and rotation, the 
initial occupant motion was predominantly lateral with some 
longitudinal components. Since the camera orientations were 
perpendicular to the lateral plane, motion in the lateral direction was 
well quantified. Table 1 summarizes the lateral head velocity at impact 
or immediately prior to impact along with a snap shot of the 
qualitative description of the occupant motion [12] at that time, 
during the initial motion toward the passenger sidewall. Note that all 
the velocities are negative indicating motion toward the passenger side 
of the bus.

Table 1.--Lateral head velocity immediately prior to or at the estimated
          time of the head contact from the video observations.
------------------------------------------------------------------------
                                              Lateral
                                               Head        Qualitative
           Occupant             Time (sec)   Velocity    Description of
                                               (m/s)     Occupant Motion
------------------------------------------------------------------------
2C                                  0.267       -2.96   Torso reaches
                                                         maximum
                                                         articulation
                                                         onto seat 2D
                                                         with back
                                                         nearly
                                                         horizontal
                                                         across aisle,
                                                         shoulders are
                                                         completely
                                                         obscured behind
                                                         the seatback of
                                                         row 1
------------------------------------------------------------------------
3C                                  0.133       -3.04   Upper body is
                                                         fully
                                                         articulated
                                                         across aisle,
                                                         occupant 3C's
                                                         head on seat 3D
                                                         (behind row 2
                                                         seatback)
------------------------------------------------------------------------
3E                                  0.133       -0.98   Head shifts
                                                         towards window
                                                         and sidewall
                                                         moves towards
                                                         head due to the
                                                         impact, face is
                                                         either making
                                                         contact or
                                                         about to make
                                                         contact with
                                                         lower portion
                                                         of window
------------------------------------------------------------------------
6D                                  0.133       -4.21   Occupant 6D
                                                         flails
                                                         completely to
                                                         the passenger
                                                         side, head
                                                         impacting
                                                         sidewall below
                                                         window
                                                         (sidewall was
                                                         deforming
                                                         toward occupant
                                                         6D)
------------------------------------------------------------------------
7A                                  0.133       -5.43   Head of occupant
                                                         7A impacts the
                                                         posterior hips
                                                         of occupant 7C
------------------------------------------------------------------------
7C                                  0.133       -5.34   Occupant 7C's
                                                         head near or in
                                                         contact with
                                                         left postero-
                                                         lateral aspect
                                                         of 7D's torso
------------------------------------------------------------------------
7D                                  0.133       -0.13   Occupant 7D's
                                                         head remains in
                                                         essentially the
                                                         same position
                                                         relative to the
                                                         camera as
                                                         before the
                                                         impact but due
                                                         to the sidewall
                                                         intrusion, the
                                                         head and right
                                                         shoulder are
                                                         now in contact
                                                         with the
                                                         passenger side
                                                         sidewall
------------------------------------------------------------------------

                               discussion
    This onboard video recording analysis utilized first of its kind 
data to describe the qualititative and quantitative kinematics of 
pediatric school bus occupants during a crash and related their 
movement to crash dynamics and injury outcomes. Being able to visualize 
living human movement in a crash setting provided insight into the 
magnitude of excursion capable from a restrained occupant, the 
flexibility without injury that children demonstrate, and the temporal 
nature of concussion.
    Injury severity was highest for occupants in rows 6-8 and also in 
row 10. Likely, injuries were greatest in rows 6-8 because that was the 
region of impact and the area of maximum intrusion along the right 
passenger sidewall. In row 10, accelerations were the greatest in this 
region due to the dynamics of the bus as it pivoted about the front 
axle as a result of the side impact near the passenger side rear axle. 
These high accelerations likely resulted in the severe injuries for 
occupants in row 10.
    The injury severity score (ISS) varied from 1 to 6 in the front of 
the bus. In the rear of the bus, the ISS ranged from 1 to 57 and 
included several mild to moderate traumatic brain injuries. Lateral 
head translations toward the point of impact in the front of the bus 
were similar to those in the rear during the initial impact, but the 
head translation for occupants in the rear of the bus was greater 
during the secondary and tertiary rebound motions toward each side of 
the bus. Lateral head velocities were generally higher in the rear of 
the bus except for occupant 7D who essentially did not move relative to 
the ``Mid'' camera. Instead, the sidewall intruded directly into his 
seating compartment and impacted his head and right shoulder before he 
began to flail toward the impact point. In the front of the bus, the 
lateral velocities of occupants' heads ranged between -0.98 and -3.04 
m/s, but in the rear of the bus the maximum lateral velocities of 
occupants' heads were almost twice as high, ranging from -0.13 to -5.43 
m/s.
    Further, the magnitude of whole body pediatric occupant motion in 
the absence of injury was notable. For example, occupant 8F bent 
backward over the top of her seatback such that her head impacted the 
chest and pelvis of the occupant (9F) seated directly behind her. Her 
head continued downward, impacting the seat pan of seat 9F, as well. 
Her thighs were still restrained by the lap belt, which had slid down 
during her vertical translation and backward rotation. Despite this 
extreme hyper-extension, occupant 8F did not sustain any spinal 
injuries and her torso injuries consisted of only a lung contusion to 
the right middle and lower lobes and a right 7th rib fracture.
    LOC had a noticeable effect on the ability for occupants to self-
evacuate. Occupants with an observed LOC were not able to self-
evacuate, even if they regained consciousness post-crash. Obviously, 
maintaining occupants' consciousness during the crash is critical to a 
timely evacuation, especially for post-crash environments that may 
involve water immersion or fire. Impact onto intruding sidewall and 
window surfaces, along with upper body flailing enabling occupant-to-
occupant impacts, was likely the main cause for the occupants' LOC. 
Reducing the upper body flailing could be accomplished with greater 
upper body restraint, such as with a properly adjusted lap/shoulder 
belt. [13] Reducing the severity of impacts onto sidewall and window 
structures could be accomplished with school bus performance standards 
that address passenger protection for sidewalls, sidewall components, 
and seat frames, as first recommended by the NTSB in 2001. [14]
    Other injuries, such as pelvic or lower extremity fractures, did 
not appear to negatively impact evacuation, if the injury was sustained 
by an occupant without a head injury or LOC. Spinal injuries, which may 
also reduce the ability to self-evacuate, were rare in this crash.
    The study was limited by the resolution of the camera system and 
the frame rate, which was relatively low given the dynamics of the 
crash. The calculation of the vehicle dynamics was also limited due to 
the lack of a forward-facing camera. In addition, due to the high 
seatbacks on the school bus, occupants were not visible at all times 
during the crash sequence. Further, because concussions were not coded 
if the patient had LOC with any intracranial hemorrhage, the estimated 
number of concussions may be conservative. (For example, there may have 
been other occupants who had concussion and did not experience a 
visible LOC, but there was insufficient medical record documentation of 
symptoms or diagnosis). Additionally, there was variability in the 
available medical records for injured patients (for example, detail of 
radiographic imaging and reports and medical record documentation). As 
a result, some injuries may have not been captured. Similarly, there 
may have been occupants who did not seek medical attention, but who may 
have had minor injuries (for example, contusions, lacerations, and/or 
mild sprains).
    The qualitative and quantitative descriptions represent the first 
time that lap-belted school bus pediatric occupant motion has been 
documented from onboard video recordings. The correlation of occupant 
kinematics with crash severity and injury outcomes was also unique. 
Ultimately, research using onboard video data from school buses can be 
a basis for a multidisciplinary approach to improving occupant safety.
                              conclusions
    The documentation of real-world lap-belted pediatric occupant 
kinematics in a severe side impact crash based upon video and audio 
recordings combined with medical records provides unique information to 
evaluate realistic pediatric occupant kinematics and provide data 
unable to be found elsewhere to evaluate ATD biofidelity. This 
information also provides unique insight into injury mechanisms and 
outcomes.
    The continuous video system offered the first such documentation of 
lap-belted children involved in a severe side impact collision. The 
videos further highlight differences in occupant kinematics across a 
range of collision severities, which were evident when contrasting 
occupant motion in the front of the bus with occupant motion in the 
rear of the bus. Because of the length of the school bus and the center 
of rotation at the front axle, the crash was much more severe for rear-
seated occupants than for those seated in the front of the bus.
                               references
[1] Partners for Child Passenger Safety. ``The State of Child Occupant 
Protection Interim Report 2003'', The Children's Hospital of 
Philadelphia Center for Injury Research and Prevention, 2003.

[2] Bohman, K, Stockman I, Jakobsson L., Osvalder A., Bostrom O., 
Arbogast K.B. 2011. ``Kinematics and Shoulder Belt Position of Child 
Rear Seat Passengers during Vehicle Maneuvers.'' In Proceedings of the 
2011 Association for the Advancement of Automotive Medicine, October 
2011.

[3] Seacrist, T., Balasubramanian, S., Garcia-Espana, T.F., Maltese, 
M.R., Arbogast, K.B., Lopez-Valdes, F.J., Kent, R.W., Tanji, H., 
Higuchi, K. 2011. ``Kinematic Comparison of Pediatric Human Volunteers 
and the Hybrid III 6-Year-Old Anthropomorphic Test Device.'' In 
Proceedings of the 2011 Association for the Advancement of Automotive 
Medicine, October 2011.

[4] Seacrist, T., Samuels, J., Garcia-Espana, F., Arbogast, K.B., 
Mathews E.A., Balasubramanian, S., Maltese, M.R., Longhitano, D., St. 
Lawrence, S., 2012. ``Kinematic Comparison of the Hybrid III and Q-
Series Pediatric ATDs to Pediatric Volunteers in Low-Speed Frontal 
Crashes.'' In Proceedings of the 2012 Association for the Advancement 
of Automotive Medicine, October 2012.

[5] Seacrist, T., Locey, C.M., Mathews, E.A., Jones, D.L., 
Balasubramanian, S., Maltese, M.R., Arbogast, K.B., 2014. ``Evaluation 
of Pediatric ATD Biofidelity as Compared to Child Volunteers in Low-
Speed Far-Side Oblique and Lateral Impacts.'' Traffic Injury 
Prevention, 15, S206-S214, Taylor & Francis Group, LLC, June 2014.

[6] The SHRP 2 Naturalistic Driving Study (NDS), Strategic Highway 
Research Program, Transportation Research Board (TRB) of the National 
Academies, http://www.trb.org/StrategicHighwayResearchProgram2SHRP2/
Pages/The-SHRP-2-Naturalistic-Driving-Study-472.aspx, accessed on March 
9, 2015.

[7] Lopez-Valdes, F.J., Forman, J., Kent, R., Bostrom, O., Segui-Gomez, 
M. 2009. ``A comparison between a child-size PMHS and the Hybrid III 6 
YO in a sled frontal impact.'' In Proceedings of the 2009 Association 
for the Advancement of Automotive Medicine, October 2009.

[8] Horak, D. T. ``Estimation of Vehicle Speed and Trajectory Based on 
Video from a Vehicle-Mounted Camera,'' Collision. The International 
Compendium for Crash Research, Volume 4, Issue 2, 2009, pp.18-25.

[9] Association for the Advancement of Automotive Medicine (AAAM). The 
Abbreviated Injury Scale (AIS) 2005--update 2008. Barrington, IL: 
Association for the Advancement of Automotive Medicine, 2008.

[10] NTSB (National Transportation Safety Board). 2013. ``Injury Coding 
Factual Report.'' In NTSB: Docket Management System, HWY12FH008, http:/
/dms.ntsb.gov/pubdms/, DC: NTSB.

[11] NTSB (National Transportation Safety Board). 2015. ``Commercial 
Vehicle Onboard Video Systems'', Safety Report NTSB/SR-15/01. 
Washington, DC: NTSB.

[12] NTSB (National Transportation Safety Board). 2013. ``School Bus 
Video Documentation Group Factual Report.'' In NTSB: Docket Management 
System, HWY12FH008, http://dms.ntsb.gov/pubdms/, DC: NTSB.

[13] NTSB (National Transportation Safety Board). 2013. ``School Bus 
and Truck Collision at Intersection Near Chesterfield, New Jersey, 
February 16, 2012'', NTSB/HAR-13/01. Washington, DC: NTSB.

[14] NTSB (National Transportation Safety Board). 2001. ``Collision of 
CSXT Freight Train and Murray County School District School Bus at 
Railroad/Highway Grade Crossing, Conasauga, Tennessee, March 28, 
2000'', NTSB/HAR-01/03. Washington, DC: NTSB.


                                Appendix

                              ----------                              


 Questions from Hon. Henry C. ``Hank'' Johnson, Jr. to Hon. Andrew J. 
  McLean, House Chairman, Joint Standing Committee on Transportation, 
Maine State Legislature, on behalf of the National Conference of State 
                              Legislatures

    Question 1. Opponents of seat belts on large buses assert that the 
installation of seat belts will not only make buses more expensive to 
manufacture, but that they'll also reduce the seating capacity on 
buses. Congressional Research Service (CRS) estimates that seat belts 
will reduce seating capacity on an average of 16 to 33 percent. The 
NTSB, however, has indicated that compartmentalization is not enough to 
prevent injuries on school buses.
    How do you think we should prioritize manufacturing costs and 
seating capacity, when measured against the safety of school children?
    Answer. This is not an area that the National Conference of State 
Legislatures (NCSL) has a policy position on. Further, I unfortunately 
also do not have significant expertise in this area however, generally, 
this dynamic highlights the need for dedicated funding for a seat-belt 
mandate, as school districts with tight budgets are unlikely to be able 
to afford yet another mandate that increases costs and the number of 
needed school bus drivers, while decreasing the utility of each school 
bus.

    Question 2. NHTSA concurs that compartmentalization is the optimal 
option for safety, while NTSB recommends that states enact laws 
requiring the use of three-point seatbelts on school buses. How do 
these differing stances from both safety agencies help us to optimize 
the safety features on school buses?
    Answer. Again, this is not an area that NCSL has a policy position 
on. In my view, the differencing stances from NHTSA and NTSB make it 
difficult to assess the proper policy path forward. They both rightly 
highlight the still evolving understanding of school bus seat belts, 
and the difficulty of assessing costs and benefits, particularly if 
seat belt requirements may impact the ability to quickly exit school 
buses in certain situations. Additionally, if seat belts would reduce 
seating capacity on school buses and increase costs for states and 
school districts, states may be more reluctant to enact mandates for 
school buses and instead pursue policies encouraging, not mandating, 
their installation or staying silent on the issue.

    a.  Would you say this helps or hurts the legislative framework at 
the state level?
        Answer. NCSL and state legislatures look to NHTSA and NTSB for 
guidance and best practices for many traffic safety issues. Both 
organizations are known for their rigorous research and data 
collection, which sometimes leads to new recommendations and/or a 
general consensus on the best policies and interventions to increase 
safety. Given the lack of consensus between NHTSA and NTSB, states may 
be less inclined to move forward with three-point seat belt 
requirements for school buses. However, the weight of NTSB's 
recommendations may influence some policymakers to move forward with 
seat-belt requirements.

    Question 3. Do you forecast the need for federal mandates regarding 
seat belt use on school buses?
    Answer. NCSL does not forecast the need for a federal mandate on 
school bus seatbelt requirements. States are best equipped to adopt 
seat belt requirements or laws encouraging their installation, given 
the significant and long-standing state role in funding school systems 
and working with school districts. NCSL does support a continued 
federal role in helping to set national transportation safety goals as 
well as that safety programs should be expanded to incorporate emerging 
safety issues while respecting state sovereignty. We urge Congress and 
USDOT to provide additional flexibility to states so as to ensure all 
states gain full access to federal funding for transportation safety. 
One alternative approach could be to incentivize states to achieve your 
desired outcomes with regard to the installation of seat belts on 
school busses. Such an incentive structure, similar to other existing 
federal grants aimed at improving transportation safety, could help 
promote state action on this issue while ensuring and adhering to 
principles of federalism.

Additional question from Hon. Henry C. ``Hank'' Johnson, Jr. forwarded 
        to the National Conference of State Legislatures by the 
        National Transportation Safety Board
    Question 4. Are these types of laws (not requiring school districts 
to provide bus service to students) commonly seen in state 
legislatures?
    Answer. This is common in many states. Most states do not have a 
statutory requirement to offer bus service to regular education 
students. However, there are a few notable exceptions to this, which I 
have detailed below:
    <bullet>  Massachusetts requires free public transportation for 
students only if they are in grades K-6 and only if they live more than 
two miles from the school they are entitled to attend.
    <bullet>  Louisiana requires public school boards to provide free 
transportation for students who live more than one mile from school. 
However, statute allows districts to stop providing this transportation 
for ``economically justifiable reasons''.
    <bullet>  Minnesota School boards are required to provide 
transportation to and from school, or to provide board and lodging, for 
all students who live two miles or more from schools. School boards are 
required to provide equal transportation for nonpublic school students.
    <bullet>  Nebraska State Statute 79-611 requires public schools to 
provide transportation or pay reimbursement to parents in lieu of 
transportation for students who live four miles or more from school.
    <bullet>  New Hampshire Districts are required to provide 
transportation to all pupils in grades 1 through 8 who live more than 2 
miles from the school
    <bullet>  New York Requires all non-city districts to provide 
transportation for pupils enrolled in kindergarten through grades 8 who 
live more than two miles from the school they attend and for pupils 
enrolled in grades 9-12 who live more than three miles from the school 
they attend up to a distance of fifteen miles.
    <bullet>  Ohio requires bus service to students in grades 
kindergarten through eighth living more than two miles from their home 
assigned school.
    <bullet>  Connecticut requires school districts to provide 
transportation for all school-age children whenever it is ``reasonable 
and desirable''
    <bullet>  Wyoming provides transportation to all primary and middle 
school pupils (K-8) who live more than 1.25 miles from their school.

    In other states, statute allows districts to provide student 
transportation where ``reasonable'' or ``practical'' and given funding 
constraints. These statutes commonly include requirements for the 
administration of school bus programs such as riding times, driver 
requirements, and distance between a student's home and the bus stop. 
Most states allow schools to charge fees for bus transportation.
    Additionally, several states (Connecticut, Delaware, Florida, 
Idaho, Iowa, Louisiana and Ohio) require transportation services for 
charter school students. I've also included the list of relevant 
statutes in the attached document.

                               __________
                               
                               attachment

------------------------------------------------------------------------
                   State                          Policy or Statute
------------------------------------------------------------------------
AL                                          The county board of
                                             education shall consolidate
                                             schools wherever in its
                                             judgment it is practicable
                                             and arrange, if necessary,
                                             for the transportation of
                                             pupils to and from such
                                             consolidated schools,
                                             subject to the provisions
                                             of this title.
                                            Alabama law only requires
                                             county school districts to
                                             offer school bus
                                             transportation for
                                             students.
                                            Statute: Section 16-8-13
                                             [http://
                                             alisondb.legislature.state.
                                             al.us/alison/CodeOfAlabama/
                                             1975/16-8-13.htm]
------------------------------------------------------------------------
AK                                          School districts in the
                                             state of Alaska are not
                                             required by state law to
                                             offer bus transportation to
                                             regular education students.
                                             School districts may
                                             provide student
                                             transportation.
                                            Statute: AK ST Sec.
                                             14.09.010
------------------------------------------------------------------------
AZ                                          No Statutory requirement for
                                             transportation.
                                            ``In absence of statute
                                             mandating that a school
                                             board provide
                                             transportation, board has
                                             no duty to do so except,
                                             perhaps, in the rare
                                             circumstance where failure
                                             to provide the
                                             transportation would
                                             deprive a child of even
                                             minimal education'' Opinion
                                             from State Attorney
                                             General.
                                            Statute: A.R.S. Sec.  15-922
------------------------------------------------------------------------
AR                                          No relevant statute.
------------------------------------------------------------------------
CA                                          Does not require districts
                                             to transport students who
                                             live far from school.
                                             Instead, state law allows
                                             the district governing
                                             board to provide pupil
                                             transportation ``whenever
                                             in the judgment of the
                                             board the transportation is
                                             advisable and good reasons
                                             exist therefor.''
                                             Generally, the state grants
                                             districts discretion over
                                             which students they will
                                             transport and how many
                                             school bus routes they will
                                             operate.
                                            Statute: ARTICLE 1. General
                                             Provisions [http://
                                             leginfo.legislature.ca.gov/
                                             faces/
                                             codes_displaySection.xhtml?
                                             lawCode=EDC&sectionNum=3980
                                             0.] [39800-39809.5]
------------------------------------------------------------------------
CO                                          State statute: The board of
                                             education of a school
                                             district may furnish
                                             transportation:
                                            (a) To and from public
                                             schools of the district for
                                             any reasonable
                                             classification of resident
                                             pupils enrolled in the
                                             schools of the district;
                                            The general assembly finds
                                             and declares, however, that
                                             the provision by school
                                             districts of transportation
                                             for pupils is not required
                                             by the constitution as a
                                             part of a thorough and
                                             uniform system of free
                                             public schools and that any
                                             school district which
                                             provides transportation may
                                             pay the costs incurred in
                                             doing so through any means
                                             authorized by the general
                                             assembly pursuant to this
                                             title.
                                            Statute: 22-32-113
                                             (Transpiration of Pupils)
------------------------------------------------------------------------
CT                                          State law requires school
                                             districts to provide
                                             transportation for all
                                             school-age children
                                             whenever it is ``reasonable
                                             and desirable''. In
                                             general, this requirement
                                             is limited to
                                             transportation to public
                                             and certain nonprofit,
                                             private schools located
                                             within the school district.
                                             The only out-of-district
                                             transportation school
                                             districts must provide is
                                             for students attending
                                             state technical high
                                             schools and district-
                                             designated regional
                                             agricultural science and
                                             technology centers.
                                            Statute: CGS Sec.  10-
                                             220(a)). State Policy Page
                                             [https://www.cga.ct.gov/
                                             2012/rpt/2012-R-0085.htm]
------------------------------------------------------------------------
DE                                          Districts may develop school
                                             transportation plans.
                                            Statute: DE ST TI 14 Sec.
                                             508
------------------------------------------------------------------------
FL                                          No state requirement, school
                                             districts may provide
                                             transportation.
                                            Statute: F.S.A. Sec.
                                             1006.22
------------------------------------------------------------------------
GA                                          No requirement, however the
                                             statute outlines procedures
                                             for the State Board of
                                             Education to provide
                                             standard transportation
                                             costs.
                                            Statute: Ga. Code Ann., Sec.
                                              20-2-188
------------------------------------------------------------------------
HI                                          Transportation not required
                                             by statute, however the
                                             Department operates a bus
                                             service for students who
                                             reside outside a certain
                                             distance from a school (for
                                             an additional cost). State
                                             does require additional
                                             fees.
------------------------------------------------------------------------
ID                                          Statute: ``To afford more
                                             equal opportunity for
                                             public school attendance,
                                             the board of trustees of
                                             each district, including
                                             specially chartered school
                                             districts, shall, where
                                             practicable, provide
                                             transportation for the
                                             public school pupils within
                                             the district, and pupils
                                             resident within adjoining
                                             districts annually agreed
                                             to in writing by the
                                             districts involved, under
                                             conditions and limitations
                                             herein set forth. Nonpublic
                                             school students may be
                                             transported, where
                                             practicable, when the full
                                             costs for providing such
                                             transportation are
                                             recovered. In approving the
                                             routing of any school bus,
                                             or in the maintenance and
                                             operation of all such
                                             transportation equipment,
                                             or in the appointment or
                                             employment of chauffeurs,
                                             the primary requirements to
                                             be observed by the board of
                                             trustees are the safety and
                                             adequate protection of the
                                             health of the pupils.
                                             Nothing herein contained
                                             shall prevent any board of
                                             trustees from denying
                                             transportation to any pupil
                                             in any school bus operated
                                             by or under the authority
                                             of said board, upon good
                                             cause being given, in
                                             writing, to the parents or
                                             guardian, or either of
                                             them, of such pupil. No
                                             board of trustees shall be
                                             required to provide
                                             transportation for any
                                             pupil living less than one
                                             and one-half (1\1/2\) miles
                                             from the nearest
                                             appropriate school. A board
                                             of trustees may require
                                             pupils who live less than
                                             one and one-half (1\1/2\)
                                             miles from the nearest
                                             established bus stop to
                                             walk or provide their own
                                             transportation to such bus
                                             stop.''
                                            Statute: ST Sec.  33-1501
------------------------------------------------------------------------
IL                                          Per Section 29-3 of the
                                             School Code, only certain
                                             types of school districts
                                             are required by law to
                                             provide free transportation
                                             services. Specifically,
                                             community consolidated
                                             districts, community unit
                                             districts, consolidated
                                             districts and consolidated
                                             high school districts, and
                                             combined school districts
                                             (if the combined school
                                             district includes any
                                             district that was
                                             previously required to
                                             provide transportation)
                                             shall provide free
                                             transportation for pupils
                                             residing at a distance of
                                             one and one-half miles or
                                             more from any school to
                                             which they are assigned for
                                             attendance maintained
                                             within the district.
                                            Statute: 105 ILCS 5/29-3
------------------------------------------------------------------------
IN                                          A 2015 Indiana Supreme Court
                                             Decision found that public
                                             schools are not
                                             constitutionally required
                                             to bus students to and from
                                             school.
                                            Statute: Title 20. Education
                                             Article 27. School
                                             Transportation Chapter 9.
                                             Use of School Buses
------------------------------------------------------------------------
IA                                          No requirement however the
                                             state does have guidelines
                                             for riding time and
                                             distance.
                                            Statute: Title VIII--Chapter
                                             43--Pupil transportation
                                             [https://www.legis.iowa.gov/
                                             docs/iac/chapter/
                                             281.43.pdf]
------------------------------------------------------------------------
KS                                          No requirement.
                                            Statute: State regulations
                                             included in 91-38-1 [https:/
                                             /www.ksde.org/Portals/0/
                                             School Bus/Regulations/
                                             ManualDecember2017.pdf]
------------------------------------------------------------------------
6655KY                                      Boards of education may
                                             provide transportation from
                                             their general funds or
                                             otherwise for any pupil of
                                             any grade to the nearest
                                             school to the pupil's
                                             residence within the
                                             district if the pupil does
                                             not live within a
                                             reasonable walking distance
                                             to such nearest school of
                                             appropriate grade level.
                                            Statute: 158.110
                                             Transportation of pupils
                                             [https://
                                             apps.legislature.ky.gov/law/
                                             Statutes/
                                             statute.aspx?id=3441]
------------------------------------------------------------------------
6621LA                                      ``Each city, parish, and
                                             other local public school
                                             board shall provide free
                                             transportation for any
                                             student attending a school
                                             of suitable grade approved
                                             by the State Board of
                                             Elementary and Secondary
                                             Education within the
                                             jurisdictional boundaries
                                             of the local board if the
                                             student resides more than
                                             one mile from such school.
                                             This requirement shall not
                                             apply to any student
                                             attending a nonpublic
                                             school''
                                            ``No parish or city school
                                             board shall eliminate or
                                             reduce the level of
                                             transportation services
                                             provided to students as
                                             required by the provisions
                                             of this Section except for
                                             economically justifiable
                                             reasons approved in
                                             accordance with the
                                             provisions of this
                                             Subsection by the State
                                             Board of Elementary and
                                             Secondary Education.''
                                            Statute: LSA-R.S. 17:158
------------------------------------------------------------------------
ME                                          ``The superintendent of
                                             schools in a municipal
                                             school unit shall, with the
                                             approval of the school
                                             board, provide
                                             transportation for
                                             elementary school students
                                             and public preschool
                                             students a part of or the
                                             whole distance to and from
                                             the nearest suitable
                                             elementary school. The
                                             municipality may provide
                                             transportation for
                                             secondary level students.''
                                            Statute: Sec. 5401.
                                             Transportation [http://
                                             legislature.maine.gov/
                                             statutes/20-A/title20-
                                             Asec5401.html]
------------------------------------------------------------------------
MD                                          No requirement found.
------------------------------------------------------------------------
MA                                          Requires free public
                                             transportation for students
                                             only if they are in grades
                                             K-6 and only if they live
                                             more than two miles from
                                             the school they are
                                             entitled to attend.
                                            Statute: Massachusetts
                                             General Law Chapter 71,
                                             Section 68 [https://
                                             www.nps.org/sites/
                                             northbridgeps/files/pages/
                                             school_committee_transporta
                                             tion_policy_-_eeaa.pdf]
------------------------------------------------------------------------
MI                                          School districts are NOT
                                             required by law to
                                             transport regular education
                                             children. Michigan Compiled
                                             Law (MCL) 380.1321 outlines
                                             the obligations of the
                                             school district IF its
                                             board of education elects
                                             to provide transportation.
------------------------------------------------------------------------
MN                                          School boards are required
                                             to provide transportation
                                             to and from school, or to
                                             provide board and lodging,
                                             for all students who live
                                             two miles or more from
                                             schools. School boards are
                                             required to provide equal
                                             transportation for
                                             nonpublic school students.
                                            Statute: 124D.03 ENROLLMENT
                                             OPTIONS PROGRAM.
------------------------------------------------------------------------
MS                                          No requirement for service,
                                             however regulations and
                                             rules in Section 37-41-1,
                                             Mississippi Code of 1972,
                                             as amended
------------------------------------------------------------------------
MO                                          Students living more than
                                             three and one-half miles
                                             from school must be
                                             provided transportation
                                             service. All students can
                                             be transported by local
                                             board decision (167.231,
                                             RSMo)
------------------------------------------------------------------------
MT                                          No requirement but imposes
                                             guidelines on Bus
                                             transportation State
                                             Reimbursement
------------------------------------------------------------------------
NE                                          State Statute 79-611
                                             requires public schools to
                                             provide transportation or
                                             pay reimbursement to
                                             parents in lieu of
                                             transportation for students
                                             who live four miles or more
                                             from school.
------------------------------------------------------------------------
NV                                          No requirement found.
------------------------------------------------------------------------
NH                                          Districts are required to
                                             provide transportation to
                                             all pupils in grades 1
                                             through 8 who live more
                                             than 2 miles from the
                                             school to which they are
                                             assigned. Districts may
                                             provide transportation to
                                             kindergarten pupils, pupils
                                             in grades B through 12, or
                                             to pupils residing less
                                             than 2 miles from the
                                             school to which they are
                                             assigned, when providing
                                             transportation is
                                             appropriate, or when the
                                             district has been directed
                                             to furnish transportation
                                             by the Commissioner of
                                             Education.
                                            (RSA 189:6) [https://
                                             www.sau70.org/uploaded/SAU/
                                             transportation_files/
                                             The_Duty_To_Transport_Stude
                                             nts-NH.pdf]
------------------------------------------------------------------------
NJ                                          Transportation shall be
                                             provided to public school
                                             students who reside remote
                                             from their assigned school
                                             of attendance, nonpublic
                                             school students who reside
                                             remote from their school of
                                             attendance and meet the
                                             eligibility criteria of
                                             N.J.A.C. 6A:27-2.2, and
                                             special education students
                                             who reside remote from
                                             their assigned school or
                                             who require transportation
                                             services in accordance with
                                             their individualized
                                             education program (IEP).
                                            Statute: 6A:27-1.4 Students
                                             who shall be transported
                                             [https://www.nj.gov/
                                             education/code/current/
                                             title6a/chap27.pdf]
------------------------------------------------------------------------
NM                                          No requirement.
                                            Bus routes shall be
                                             established by the local
                                             school district. No school
                                             bus route shall be
                                             maintained for distances
                                             less than:
                                            (1) one mile one way for
                                             students in grades
                                             kindergarten through six;
                                            (2) one and one-half miles
                                             one way for students in
                                             grades seven through nine;
                                             and
                                            (3) two miles one way for
                                             students in grades ten
                                             through twelve.
                                            New Mexico 22-16-4 [https://
                                             www.lawserver.com/law/state/
                                             new-mexico/nm-statutes/
                                             new_mexico_statutes_22-16-
                                             4]
------------------------------------------------------------------------
NY                                          Requires all non-city
                                             districts to provide
                                             transportation for pupils
                                             enrolled in kindergarten
                                             through grades 8 who live
                                             more than two miles from
                                             the school they attend and
                                             for pupils enrolled in
                                             grades 9-12 who live more
                                             than three miles from the
                                             school they attend up to a
                                             distance of fifteen miles.
                                            New York Section 3635
                                             Education Law
------------------------------------------------------------------------
NC                                          No Requirement.
                                            Each local board of
                                             education is hereby
                                             authorized to acquire, own,
                                             lease, contract and operate
                                             school buses for the
                                             transportation of pupils
                                             enrolled in the public
                                             schools of such local
                                             school administrative unit,
                                             and of persons employed in
                                             the operation of such
                                             schools in accordance with
                                             rules and regulations
                                             adopted by the State Board
                                             of Education. The State
                                             Board of Education shall be
                                             under no duty to supply
                                             transportation to any pupil
                                             or employee enrolled or
                                             employed in any school.
------------------------------------------------------------------------
ND                                          No requirement. Rules and
                                             regulations regarding
                                             school transportation in
                                             North Dakota Code 39-21-
                                             27.1
------------------------------------------------------------------------
OH                                          In all city, local, and
                                             exempted village school
                                             districts where resident
                                             school pupils in grades
                                             kindergarten through eight
                                             live more than two miles
                                             from the school for which
                                             the state board of
                                             education prescribes
                                             minimum standards pursuant
                                             to division (D) of section
                                             3301.07 of the Revised Code
                                             and to which they are
                                             assigned by the board of
                                             education of the district
                                             of residence or to and from
                                             the nonpublic or community
                                             school which they attend,
                                             the board of education
                                             shall provide
                                             transportation for such
                                             pupils to and from that
                                             school except as provided
                                             in section 3327.02 of the
                                             Revised Code.
                                            R.C. 3327.01 [http://
                                             codes.ohio.gov/orc/3327.01]
------------------------------------------------------------------------
OK                                          No requirement. Any school
                                             district maintaining a
                                             school may provide
                                             transportation with the
                                             approval of the State Board
                                             of Education.
                                            210:30-5-1. District
                                             operation and management
                                             [https://sde.ok.gov/sites/
                                             ok.gov.sde/files/Rules-
                                             Ch30Sub5Transportation.pdf]
------------------------------------------------------------------------
OR                                          No requirement. Some
                                             policies on school district
                                             policies and charter
                                             schools.
                                            ORS 338.145 [https://
                                             www.oregonlaws.org/ors/
                                             338.145]
------------------------------------------------------------------------
PA                                          No requirement, exceptions
                                             for charter schools.
                                            Penn Department of Education
                                             Policy [https://
                                             www.education.pa.gov/
                                             Documents/Teachers-
                                             Administrators/Pupil
                                             Transportation/Pupil
                                             Transportation Frequently
                                             Asked Questions.pdf]
------------------------------------------------------------------------
RI                                          No statutory requirement,
                                             however the state is
                                             creating a statewide
                                             student transportation
                                             system which will include
                                             mandatory participation
                                             from school districts.
                                            State Information Page
                                             [https://www.ride.ri.gov/
                                             StudentsFamilies/
                                             AdditionalResources/
                                             StudentTransportation.aspx#
                                             1817596-background-
                                             information]
------------------------------------------------------------------------
SC                                          No requirement found.
------------------------------------------------------------------------
SD                                          No requirement. Some rules
                                             for safety and regulation
                                             in Chapter 13-29 School
                                             Buses and Transportation Of
                                             Students
------------------------------------------------------------------------
TN                                          Boards of education may
                                             provide school
                                             transportation facilities
                                             for children who live more
                                             than one and one half (1\1/
                                             2\) miles by the nearest
                                             accessible route from the
                                             school to which they are
                                             assigned by the board of
                                             education and in which they
                                             are enrolled.
                                            49-6-2101 [https://
                                             law.justia.com/codes/
                                             tennessee/2010/title-49/
                                             chapter-6/part-21/49-6-2101/
                                             ]. Power of boards to
                                             provide transportation.
------------------------------------------------------------------------
TX                                          No requirement--schools only
                                             required to provide
                                             transportation as required
                                             by Federal law.
------------------------------------------------------------------------
UT                                          No requirement--The
                                             Superintendent shall
                                             determine transportation
                                             eligibility for elementary
                                             students (k-6) and
                                             secondary students (7-12)
                                             in accordance with the
                                             mileage from home,
                                             specified in Subsections
                                             53F-2-403(1) and (2), to
                                             the school attended by
                                             assignment of the local
                                             school board.
                                            R277-600-4. Eligibility.
------------------------------------------------------------------------
VT                                          No requirement found.
------------------------------------------------------------------------
VA                                          No requirements but numerous
                                             safety and regulatory
                                             provisions in 8VAC20-70-80.
------------------------------------------------------------------------
WA                                          No requirement found.
------------------------------------------------------------------------
WV                                          No requirement. County
                                             Education Boards are
                                             authorized to:
                                            Provide transportation
                                             according to rules
                                             established by the county
                                             board, as follows:
                                            (1) To provide at public
                                             expense adequate means of
                                             transportation:
                                            Statute: Sec. 18-5-13.
                                             Authority of boards
                                             generally.
------------------------------------------------------------------------
WI                                          A school district may, but
                                             is not required to, provide
                                             transportation to a pupil
                                             who lives less than two
                                             miles from school and not
                                             in a UHT area, if the
                                             pupil's parent or guardian
                                             requests such
                                             transportation. The school
                                             district may charge for the
                                             cost of the transportation.
                                            State Information Page
                                             [https://dpi.wi.gov/sms/
                                             transportation/public-
                                             school-questions]
------------------------------------------------------------------------
WY                                          The Wyoming Board of
                                             Education provides
                                             transportation to all
                                             primary and middle school
                                             pupils (K-8) who live more
                                             than 1.25 miles from their
                                             school.
                                            Wyoming Statutes Title 21.
                                             Education Sec.  21-3-131
------------------------------------------------------------------------

Questions from Hon. Henry C. ``Hank'' Johnson, Jr. to Hon. Sue Fulton, 
        Chief Administrator, New Jersey Motor Vehicle Commission

    Question 1. You are here representing the state of New Jersey, one 
of only eight states that requires seat belts on school buses.
    Can you speak to the concern about the reduction of school bus 
services?
    Answer. I have heard concerns from school boards and the New Jersey 
State Department of Education, as well as from other states, that it is 
difficult to hire school bus drivers given the low pay and minimal 
hours. However, I have not heard the same concerns about the modest 
additional cost of requiring seat belts for new buses.

    Question 2. Do state laws requiring seat belts on school buses seem 
like a common-sense safety measure to you?
    Answer. Based on the safety studies I've seen regarding use of seat 
belts, yes, I believe that requiring them in school buses is a common-
sense solution.

 Question from Hon. Peter A. DeFazio to Kristin Poland, Ph.D., Deputy 
  Director, Office of Highway Safety, National Transportation Safety 
                                 Board

    Question 1. Dr. Poland, last year for the first time NTSB issued 
the recommendation that large school buses be equipped with lap/
shoulder belts stating that ``compartmentalization'' does not offer 
adequate occupant protection in side-impact and rollover collisions. 
For decades, school buses have relied on compartmentalization to 
protect students in the event of a crash, and NTSB has not formally 
called for the use of lap/shoulder belts until now.
    Can you describe how NTSB came to the decision to formally 
recommend the use of lap/shoulder belts on school buses? How do you 
account for any displaced riders?
    Answer. In 1999, the NTSB recommended that the National Highway 
Traffic Safety Administration (NHTSA) develop performance standards for 
school bus occupant protection systems that account for all types of 
collisions and rollovers. At that time, there were a variety of designs 
attempting to enhance compartmentalization on school buses but there 
were no requirements or standards establishing a minimum performance 
criteria. In 2008, in response to our recommendations, NHTSA published 
a final rule that established standards for both lap and lap/shoulder 
belts, if voluntarily installed, on large school buses. Now that there 
is a federal regulation defining performance standards for large school 
bus passenger lap/shoulder belts, school bus and seat manufacturers are 
designing large school buses with this safety improvement and we have 
seen benefits in these systems in our crash investigations.\1\ In 
addition, design improvements--such as flexible seating systems--have 
reduced the impediments to equipping large school buses with this key 
safety feature. Although NHTSA was unable to require lap/shoulder belts 
for all passenger seating positions in new large school buses, we 
believe the states can implement this safety improvement, which is why 
we made the specific recommendation that each state that has not 
already done so require that passenger lap/shoulder belts be installed 
in all new large school buses to provide the best protection for all 
their occupants.\2\
---------------------------------------------------------------------------
    \1\ NTSB. School bus roadway departure [https://ntsb.gov/
investigations/AccidentReports/Reports/HAB1606.pdf] NTSB/HAB-16/06. 
Washington, DC: NTSB. Intersection Collision and Rollover Involving 
School Bus and Pickup Truck [https://www.ntsb.gov/investigations/
AccidentReports/Reports/HAB1902.pdf]. NTSB/HAB-19/02. Washington, DC.
    \2\ NTSB Safety Recommendations H-18-9 [https://www.ntsb.gov/
investigations/AccidentReports/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=H-18-009] and -10 [https://www.ntsb.gov/
investigations/AccidentReports/_layouts/ntsb.recsearch/
Recommendation.aspx?Rec=H-18-010].
---------------------------------------------------------------------------
    Large school buses equipped with passenger lap/shoulder belts at 
all seating positions will not affect total ridership on school buses 
with the advancement of flexible seating systems.

  Question from Hon. Eleanor Holmes Norton to Kristin Poland, Ph.D., 
  Deputy Director, Office of Highway Safety, National Transportation 
                              Safety Board

    Question 2. Dr. Poland, your written testimony noted that design 
improvements have reduced the impediments to equipping large school 
buses with seat belts. One of the primary concerns with installing seat 
belts on large school buses is the potential impact on seating 
capacity. Keeping in mind that the majority of large school buses have 
to accommodate small, elementary age students all the way up to kids in 
high school, capacity is a critical issue.
    With improvements in seat belt design, such as flexible seating 
systems, do we still face the same risk of reduced seating capacity 
when equipping school buses with seat belts?
    Answer. Flexible seating systems enable a large school bus equipped 
with passenger lap/shoulder belts to seat an equivalent number of 
elementary, middle, and high school aged students as a bus equipped 
with only compartmentalization as the occupant protection system.

 Questions from Hon. Henry C. ``Hank'' Johnson, Jr. to Kristin Poland, 
      Ph.D., Deputy Director, Office of Highway Safety, National 
                      Transportation Safety Board

    Question 3. In 2018, the National Transportation Safety Board 
(NTSB) issued an investigative report containing a series of safety 
recommendations following two fatal school bus crashes in 2016. This 
report uncovered a number of safety issues including poor management of 
unsafe school bus drivers, and recommended a number of safety measures 
including three-point seat belts on all new large school buses.
    The implementation of such safety recommendations, however, is 
often carried by the states. And at this time, only eight states have 
enacted laws requiring seat belts on school buses.
    Can you provide insight on the importance, if any, of streamlining 
federal, state, and local laws to maximize school bus safety?
    Answer. School buses are the safest form of transportation for 
students. It's important that federal, state and local laws are 
streamlined to ensure that a consistent safety message is communicated 
about school bus occupant safety. Our investigations have shown that 
improved occupant protection, driver oversight, pedestrian safety, fire 
protection, and collision avoidance technologies are needed to prevent 
crashes, deaths, and injuries on the nation's roadways. The federal, 
state, and local governments all play a role in ensuring school bus 
travel continues to be the safest forms of transportation on our roads 
today.

    Question 4. Is rulemaking on the part of NHTSA, FMCSA, NTSB, or 
other transit and safety agencies considered effective if states are 
slow to adopt those rules, if at all?
    Answer. While the NTSB does not have regulatory authority, our 
interactions with the states and the school bus associations 
representing the states have shown that school transportation safety is 
a high priority in all locations.

    Question 5. California state law doesn't require school districts 
to provide bus service to students. Is there any concern that laws like 
these create inequity when transporting children to school?
    a.  Are these types of laws commonly seen in state legislatures?
        Answer. The NTSB has not made recommendations regarding how 
states provide transportation to students, but we do recognize that 
children are safer traveling to and from school and school-related 
activities on school buses than in any other vehicle.

        According to the National Conference of State Legislatures 
(NCSL), most states do not have a statutory requirement to offer bus 
service to regular education students. NCSL has identified nine states 
that require school districts to provide transportation to at least 
some students. It also identified and additional seven states that 
require transportation services for charter school students.

   Questions from Hon. Doug LaMalfa to Kristin Poland, Ph.D., Deputy 
  Director, Office of Highway Safety, National Transportation Safety 
                                 Board

    Question 6. Is the National Transportation Safety Board aware of, 
or investigating, fires in any type of a diesel vehicle that resulted 
from the vehicle's diesel particulate filtration system?
    Answer. The NTSB is aware of the diesel particulate filtration 
system on some school buses but is not aware of specific fires nor are 
we investigating any fires resulting from the vehicle's diesel 
particulate filtration system.

    Question 7. How many and what percent of the injuries and 
fatalities involving children riding school buses occur when the child 
is crossing the road? How many and what percentage occur at the bus 
stop?
    Answer. The NTSB is continuing its investigation into the 2018 
Rochester, Indiana school bus loading zone crash. In this crash, the 
school bus was stopped to pick up students at the designated location 
when a pickup truck traveling south struck the four children, who were 
crossing the roadway in the early morning darkness. Three of the 
children were killed and one was injured. In addition, two other 
similar crashes in Hartsfield, Georgia and Baldwyn, Mississippi are 
also being investigated to further support the findings in Rochester, 
Indiana.
    Data concerning school bus loading zone crashes will be included in 
the final Board report for those investigations. In addition, NHTSA 
does maintain data related to school bus crashes and published a report 
``School-Transportation-Related Crashes'' in July 2019 with its latest 
information, including pedestrian fatalities in school transportation 
related crashes.

  Questions from Hon. Gary J. Palmer to Kristin Poland, Ph.D., Deputy 
  Director, Office of Highway Safety, National Transportation Safety 
                                 Board

    Question 8. How many injuries/fatalities from a vehicle driving 
around a stopped bus occur in rural areas? In suburban areas? In urban 
areas?
    Answer. The NTSB is continuing its investigation into the 2018 
Rochester, Indiana school bus loading zone crash. In this crash, the 
school bus was stopped to pick up students at the designated location 
when a pickup truck traveling south struck the four children, who were 
crossing the roadway in the early morning darkness. Three of the 
children were killed and one was injured. In addition, two other 
similar crashes in Hartsfield, Georgia and Baldwyn, Mississippi are 
also being investigated to further support the findings in Rochester, 
Indiana.
    Data concerning school bus loading zone crashes will be included in 
the final Board report for those investigations. Although NHTSA does 
maintain data related to school bus crashes and published a report 
``School-Transportation-Related Crashes'' in July 2019 with its latest 
information, including pedestrian fatalities in school transportation 
related crashes, that report does not differentiate between rural, 
suburban and urban areas.

    Question 9. How many bus drivers are disqualified each year?
    Answer. The NTSB does not track this information.

    Question 10. Should states establish a searchable database listing 
disqualified drivers?
    Answer. Although the NTSB has not made a specific recommendation 
regarding this type of database, we have previously recommended methods 
to identify fraudulent drivers. For example, we recommended that the 
state of Maryland continue its facial recognition program beyond 2019 
to help prevent driver license fraud. (H-18-11) More specifically, we 
recommended that the Maryland Motor Vehicle Administration:

        Process all current commercial driver's license holders through 
        the facial recognition software system to detect those drivers 
        who may hold fraudulent licenses. (H-18-13).

    These recommendations are currently both classified Open--
Acceptable Response.

    Question 11. How many incidents involving other motor vehicles 
involved distracted driving? (vehicles striking a child, etc.)
    Answer. Eliminate Distractions is on the NTSB's Most Wanted List of 
transportation improvements in 2019-2020. While distraction has been 
addressed in school transportation investigations, it is also a problem 
in many highway crashes. The NTSB's fact sheet related to distractions 
in highway crashes is attached to this response, for reference.
                               __________
                               
                               attachment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Questions from Hon. Henry C. ``Hank'' Johnson, Jr. to John Benish, Jr., 
 President and Chief Operating Officer, Cook-Illinois Corporation, on 
        behalf of the National School Transportation Association

    Question 1. Your testimony expresses support for state and local 
level decision-making on seat belt mandates for school buses. The 
National School Transportation Association (NSTA) concurs that unfunded 
mandates will increase the manufacturing costs of school buses, and may 
even lead to the reduction of school bus services in many areas.
    In the eight states that have enacted seatbelt laws, can you 
provide examples of how they've had to curtail bus service in any of 
their school districts?
    Answer:
Arkansas, AR Code Sec.  6-19-117, effective 1/1/18, contingent on 
funding
California, Cal. Veh. Code Sec.  27316, effective 7/1/04
Florida, Fla. Stat. Ann Sec.  316.6145, effective 12/31/00
\<dagger>\ Iowa, 281 IAC Chapter 44, effective 10/2/19
Louisiana, LA Rev Stat Sec.  17:164.2, effective 6/30/04, contingent on 
funding
Nevada, NRS 386.837, effective 7/1/19
New Jersey, N.J. Stat. Ann. Sec.  39:38-10, effective 2/21/19
New York, N.Y. Veh. & Traf. Sec.  383(5), effective 7/1/1987
Texas, TX TRANSP Sec.  547.701, effective 1/1/18

\<dagger>\ On September 10, 2019, Iowa's Legislative Rules Committee 
validated the State Board of Education's rule to require three-point 
seat belts on all new school buses manufactured on or after October 2, 
2019.

    For several of these states, the effective date just occurred, so 
it too soon to determine if a seat belt mandate has the unintended 
consequence of curtailing school bus service in those states. Further, 
the ebb and flow of student census and school budgets makes it 
difficult to draw a direct line from the number of buses serving a 
school to the cost of seat belts specifically. A better measure would 
to review school districts that have implemented seat belts to better 
determine how they been affected by the cost.
    One data point comes from the state of Texas. In 2007 the state 
enacted H.B. 323 (2007 Tex. Sess. Law Serv. Ch. 259), to require three-
point seat belts on school buses aged 2010 or newer, however this 
mandate was contingent on funding. In 2017, the State's legislature 
introduced and enacted subsequent legislation amending the 2007 
requirement to be an unfunded three-point seat belt requirement, TX 
S.B. 693 (2017 Tex. Sess. Law Serv. Ch. 908). This new mandate 
permitted local school boards to vote to defer this requirement in a 
public meeting as a result of lack of funding. Then, in November 2018, 
State Senator Bob Hall introduced TX S.B. 79, which seeks to repeal the 
2017 three-point seat belt requirements--as his constituency found the 
equipment mandate to be unattainable under their allocated 
transportation budget. Thus far, no Texas school boards were able to 
pass a referendum for a public vote to suspend the requirement.
    Another example is from Alabama. From 2007 to 2010, the state 
conducted a study on seat belts on large school buses. The survey 
identified that more school bus pupil fatalities occur outside of 
school buses either in or near loading zones, than inside the school 
bus. So, if funding were to be spent on school bus safety, ``[I]t 
appears more lives could be saved by investing in enhanced safety 
measures in loading/unloading zones. These treatments are likely more 
cost effective than seat belts[.]'' \1\
---------------------------------------------------------------------------
    \1\ Report to the Alabama Governor ``Alabama School Bus Seat Belt 
Pilot Project,'' from the University Transportation Center for Alabama, 
pg. 8, http://utca.eng.ua.edu/files/2011/08/
Pilot_Project_Summary_Report1.pdf.
---------------------------------------------------------------------------
    In 2016, Louisiana conducted a study on seat belts on large school 
buses. Similar to Alabama conclusions, Louisiana's study notes that 
more child-aged student fatalities occur outside the school bus, than 
inside. As such, the Louisiana study advises that policy-making should 
focus on educating motorists, parents, school bus drivers, and school-
aged children on how to proceed around a stopped school bus.\2\ 
Louisiana enacted school bus seat belt requirements in 1999, however 
the equipment mandate is contingent on funding from the state. To date, 
the legislature has not provided funding.
---------------------------------------------------------------------------
    \2\ Report to the House and Senate Committees on Education of the 
Louisiana Legislature, ``Response to Senate Resolution 122 of the 2016 
Regular Session,'' from the Louisiana Department of Education, Data 
Analysis section, p. 2, https://s3-us-west-2.amazonaws.com/nsta/43161/
SR-122-Final-Draft-R-1-5-2017-Transportation-Report.pdf

    Question 2. What should Congress' role be, if any, to ensure that 
school districts aren't vulnerable to a reduction of bus service?
    Answer. Most state and local budgets do not realistically earmark 
funding for new school bus equipment mandates. Therefore, the cost of 
these mandates usually is borne by the local taxpayer. We strongly 
believe that decisions requiring state and local funding streams should 
appropriately be made at the state and local level so that all 
ramifications of the decision, especially any reductions in school bus 
service, can be evaluated. If federal funds were to be made available 
for new equipment mandates, they should be equally accessible to 
private school bus contractors, as well as to public school district 
operators.

    Question 3. Lastly, may I ask your response to assertions from NTSB 
that compartmentalization alone is not enough to protect against side 
impact or rollover collisions?
    Answer. NSTA notes that NTSB is an independent federal agency 
tasked with investigating accidents and determining causation factors, 
and making safety recommendations based on those investigations. It is 
not a regulatory agency. NSTA respects the important role that NTSB 
plays and responds thoughtfully to recommendations they present to 
NSTA. The National Highway Traffic Safety Administration (NHTSA) is the 
regulatory agency with statutory authority to promulgate regulations 
pertaining to vehicle and highway safety. In that process, NHTSA is 
required to analyze any proposed regulation in light of the overall 
safety record and experience of the industry subject to regulation and 
the travelling public it serves. In 2011, NHTSA was presented with a 
petition to mandate seat belts in large school buses. The agency denied 
that petition, citing:

        ``For large school buses, we have determined there is not a 
        safety problem warranting national action to require the 
        addition of lap/shoulder belts to these vehicles. Large school 
        buses are very safe due to their greater weight and higher 
        seating height than most other vehicles, high visibility to 
        motorists, and occupant protection through 
        compartmentalization.'' \3\
---------------------------------------------------------------------------
    \3\ See, e.g., NHTSA, 49 CFR Part 571, Final Rule, Docket No. 
NHTSA-2011-21596, https://www.federalregister.gov/documents/2011/08/25/
2011-21596/federal-motor-vehicle-safety-standards-denial-of-petition-
for-rulemaking-school-buses

    NHTSA also goes on to specify that ``our analysis shows that a 
National lap/shoulder belt requirement for large school buses could 
result in an increase of 10 to 19 student fatalities annually in the 
U.S. A State or local jurisdiction . . .'' \4\ NHTSA has not reversed 
its position since 2011, and NSTA looks to them for ultimate guidance 
on school bus vehicle safety.
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
    According to DOT statistics, school bus transportation remains the 
safest form of transportation to-and-from school over all other forms 
of transportation, including walking, biking, driving in parents' cars 
and teenagers driving themselves. On average, four to six students are 
killed annually inside a yellow school bus, while an average of 800 
children are killed going to school in other ways. It is this data that 
drives NSTA's belief that as many children as possible should have 
access to the safest form of transportation.

 Questions from Hon. Gary J. Palmer to John Benish, Jr., President and 
 Chief Operating Officer, Cook-Illinois Corporation, on behalf of the 
               National School Transportation Association

    Question 4. How many injuries/fatalities from a vehicle driving 
around a stopped bus occur in rural areas? In suburban areas? In urban 
areas?
    Answer. Unfortunately, this specific of data is not currently 
available at a national level. While the National Association for State 
Directors of Pupil Transportation Services (NASDPTS) conducts annual 
surveys of stop arm violations, only 39 out of 50 states participated 
in 2019, and data is strictly based on school bus driver observations 
over the course of a one-day period.\5\ However, under provisions of 
the STOP for School Buses Act of 2019, these data points would be 
identified, acquired, and reviewed. The current level of school 
transportation data highlights the need for a greater emphasis on data 
acquisition and creating a clearinghouse for this data.
---------------------------------------------------------------------------
    \5\ Annual Survey on ``National Stop Arm Violation Count'' by the 
National Association of State Directors of Pupil Transportation 
Services, http://www.nasdpts.org/stoparm/. See also July 24, 2019 
``Annual NASDPTS Illegal Passing Survey Press Release'', https://
nasdpts24.wildapricot.org/resources/Documents/
2019%20NASDPTS%20Illegal%20Passing
%20Results%20Press%20Release-7-24-19.pdf

    Question 5. How many bus drivers are disqualified each year?
    Answer. Once again, this is difficult, at best, to determine an 
exact number, or an estimate, as most disqualifying events occur and/or 
are adjudicated at the local level. Be advised that ``disqualifying'' 
events could take place under employer policy and procedure directive, 
non-compliance with state or federal requirements, or through an 
adjudicated result. Unfortunately, this data is not readily available 
at the national level. It should be noted that the FMCSA Drug and 
Alcohol Clearinghouse is coming online in January 2020, and will begin 
to provide data on disqualified drivers due to drug and alcohol 
violations.

    Question 6. Should states establish a searchable database listing 
disqualified drivers?
    Answer:
    a.  In states where this is already required, our members have 
found it to be highly useful
    b.  Concerns about costs associated with program participation
      i.  Costs mitigated by insurances premium reductions

    Several of our members operate in states where participation in an 
Employment Notification System (ENS) is required, and they have advised 
that these programs are highly useful. We are supportive of promoting 
ENS systems, and note its contribution to increased safety measures for 
school transportation operators. We do remain concerned regarding the 
efficiencies and costs to employers of participating in a national ENS 
system.

    Question 7. How many incidents involving other motor vehicles 
involved distracted driving? (vehicles striking a child, etc.)
    Answer. Unfortunately, there is no clear data at the national level 
on this point. Once again, the STOP for School Buses Act seeks to 
acquire and provide the number of these incidents that occur and are 
tracked. Right now, we can only speculate that a majority of illegal 
passings may occur as a result of distracted driving. Other reasons 
include, a lack of fundamental understanding of how to traverse around 
a stopped school bus and ignorance of applicable traffic laws. With 
regard to ignorance of appropriate traffic laws governing the passing 
of a stopped school bus, we believe there should be a particular 
emphasis on young drivers in mandated driver training, to ensure that 
they are made fundamentally aware of these rules and regulations. The 
STOP Act directs the U.S. Department of Transportation (DOT) to look at 
distraction driver training, daylight savings time changes, bus stop 
locations and other issues impacting the illegal passing issue. 
Additionally, the STOP Act directs DOT to produce a public service 
campaign to bring awareness to drivers on how to proceed when 
approaching a stopped school bus.

Question from Hon. Peter A. DeFazio to Anne Ferro, President and Chief 
Executive Officer, American Association of Motor Vehicle Administrators

    Question 1. Ms. Ferro, your written testimony describes AAMVA's 
analysis of the feasibility of a national employer notification system 
(ENS) to provide real-time updates to employers of a driver's status. 
Under current regulations, school bus drivers are required to self-
report moving violations and other factors which could jeopardize their 
commercial driver license status, but it's estimated only 50 to 80 
percent of drivers actually self-report.
    Would a national ENS be effective in closing the gap on school bus 
drivers who do not self-report driving violations and other 
disqualifications to their employers?
    Answer. Under the current commercial motor vehicle operations 
safety net in federal law and overseen by FMCSA, employers are 
responsible for monitoring and taking action on their employees. AAMVA 
encourages Congress to retain employer responsibility for ensuring the 
safe operation of their fleet. Current federal law permits employers to 
satisfy their annual driver history obligations by ``receiving 
occurrence-based reports of changes in the status of a driver's record 
from one or more driver record notifications systems that meet minimum 
standards issued by the Secretary.'' The Congressional directive to 
provide better data for safety employment considerations increasingly 
trends towards the timeliness, availability, and sufficiency of data. 
An Employer Notification System (ENS) would assist in the timeliness of 
available safety data for employment purposes and help close the gap on 
failures to self-report.
    While school districts participating in an ENS system may close the 
gap on self-reporting, the level of participation may have an impact on 
each jurisdiction's ability to effectively leverage such a program. 
FMCSA cites [https://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/
registration/commercial-drivers-license/405406/jurisdictional-ens-
implementation-final.pdf] 19 states that already provide easy, periodic 
access to driving records. Congress should consider the implications of 
requiring employer participation in an ENS. With regard to requiring 
state participation, flexibility in administration of ENS programs is 
advantageous in that each state is familiar with their internal 
information technology architecture, and is positioned to more 
effectively assist employers in their oversight responsibilities. 
Consideration of a national ENS may require costly and extensive 
modifications to existing state systems and networking capabilities to 
ensure a similar level of accountability. It is the recommendation of 
the AAMVA membership that if a national ENS system were to be pursued, 
it utilize the existing networking capabilities of the Commercial 
Driver's License Information System (CDLIS) which is already an 
available platform for exchanging state commercial driver information.

    Question 2. What recommendations do you have for the development of 
a national ENS to ensure its success?
    Answer. In 2016, AAMVA developed a report [https://
www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/registration/
commercial-drivers-license/396341/aamva-ens-design-and-best-practices-
recommendations-ver-102.pdf] entitled, ``Employer Notification System 
Design and Best Practices Recommendations'' for the Federal Motor 
Carrier Safety Administration (FMCSA). The recommendations from this 
member-based resource are detailed in Section 4 of the report and 
includes recommending building a national ENS by leveraging CDLIS. The 
member working group also recommended that the system should provide 
jurisdictions with the capability to opt-in or opt-out of sending the 
driver history record (DHR) to the motor carrier or employer. This 
report contains numerous other recommendations and best practices for 
different ENS models.

 Question from Hon. Eleanor Holmes Norton to Anne Ferro, President and 
    Chief Executive Officer, American Association of Motor Vehicle 
                             Administrators

    Question 3. Ms. Ferro, Federal regulations for commercial driver 
licenses require applicants to be medically certified by a registered 
physician and subsequently renew their certification up to every two 
years. However, Federal regulations exempt publicly-employed school bus 
drivers from having to obtain this medical certification, but state 
laws may still require a medical exam.
    Are there any states that permit school bus drivers to operate 
without a medical certification as part of their CDL?
    Answer. The application of medical fitness requirements varies 
depending on the operating oversight of the school district and/or 
driver. With this in mind, the school districts themselves, or their 
representative association, may be better qualified to speak on the 
medical oversight of their drivers. While most school bus drivers are 
expected to operate on an intrastate or localized route and be subject 
to state and local requirements for operation that are excepted from 
federal medical fitness requirements, it is feasible that school 
districts administer or require their own medical fitness programs. 
While state requirements may provide initial insight, a more 
comprehensive outlook on applicable medical fitness requirements may be 
available from individual school districts that have very different 
geographical and regulatory considerations.

    Question 4. Is there any benefit to exempting publicly-employed 
school bus drivers from needing a medical certification as a 
prerequisite of the CDL?
    Answer. The review and consideration of medical fitness information 
is an important part of safe operational oversight of commercial 
vehicles. With regard to school bus operation, it is not clear how 
public employment would entail different safety or fitness 
responsibilities than private employment.
    States currently rely upon federal oversight of ensuring driver 
fitness. The federal government established standards for qualified 
medical professionals and requires physician registration with the 
National Registry of Certified Medical Examiners. These examiners 
perform the essential function of evaluating and qualifying a driver 
for duty. Good work is currently underway with respect to inclusion of 
medical information on the driver record, and AAMVA encourages Congress 
to continue supplying federal and state authorities with the resources 
needed to integrate this information in the driver record. One such 
avenue for these improvements is leveraging the Commercial Driver's 
License Program Improvement (CDLPI) grant program.

                                   [all]

                                    
</pre></body></html>
